<html>
<title> - HEARING TO REVIEW THE NATIONAL FOREST SYSTEM AND ACTIVE FOREST MANAGEMENT</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





    HEARING TO REVIEW THE NATIONAL FOREST SYSTEM AND ACTIVE FOREST 
                               MANAGEMENT

=======================================================================

                                HEARING

                               BEFORE THE

               SUBCOMMITTEE ON CONSERVATION AND FORESTRY

                                 OF THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 29, 2015

                               __________

                           Serial No. 114-13

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov




                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

94-655 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          







                        COMMITTEE ON AGRICULTURE

                  K. MICHAEL CONAWAY, Texas, Chairman

RANDY NEUGEBAUER, Texas,             COLLIN C. PETERSON, Minnesota, 
    Vice Chairman                    Ranking Minority Member
BOB GOODLATTE, Virginia              DAVID SCOTT, Georgia
FRANK D. LUCAS, Oklahoma             JIM COSTA, California
STEVE KING, Iowa                     TIMOTHY J. WALZ, Minnesota
MIKE ROGERS, Alabama                 MARCIA L. FUDGE, Ohio
GLENN THOMPSON, Pennsylvania         JAMES P. McGOVERN, Massachusetts
BOB GIBBS, Ohio                      SUZAN K. DelBENE, Washington
AUSTIN SCOTT, Georgia                FILEMON VELA, Texas
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHELLE LUJAN GRISHAM, New Mexico
SCOTT DesJARLAIS, Tennessee          ANN M. KUSTER, New Hampshire
CHRISTOPHER P. GIBSON, New York      RICHARD M. NOLAN, Minnesota
VICKY HARTZLER, Missouri             CHERI BUSTOS, Illinois
DAN BENISHEK, Michigan               SEAN PATRICK MALONEY, New York
JEFF DENHAM, California              ANN KIRKPATRICK, Arizona
DOUG LaMALFA, California             PETE AGUILAR, California
RODNEY DAVIS, Illinois               STACEY E. PLASKETT, Virgin Islands
TED S. YOHO, Florida                 ALMA S. ADAMS, North Carolina
JACKIE WALORSKI, Indiana             GWEN GRAHAM, Florida
RICK W. ALLEN, Georgia               BRAD ASHFORD, Nebraska
MIKE BOST, Illinois
DAVID ROUZER, North Carolina
RALPH LEE ABRAHAM, Louisiana
TOM EMMER, Minnesota
JOHN R. MOOLENAAR, Michigan
DAN NEWHOUSE, Washington

                                 ______

                    Scott C. Graves, Staff Director

                Robert L. Larew, Minority Staff Director

                                 ______

               Subcommittee on Conservation and Forestry

                 GLENN THOMPSON, Pennsylvania, Chairman

FRANK D. LUCAS, Oklahoma             MICHELLE LUJAN GRISHAM, New 
STEVE KING, Iowa                     Mexico, Ranking Minority Member
SCOTT DesJARLAIS, Tennessee          ANN M. KUSTER, New Hampshire
CHRISTOPHER P. GIBSON, New York      RICHARD M. NOLAN, Minnesota
DAN BENISHEK, Michigan               SUZAN K. DelBENE, Washington
RICK W. ALLEN, Georgia               ANN KIRKPATRICK, Arizona
MIKE BOST, Illinois

                                  (ii)
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Kirkpatrick, Hon. Ann, a Representative in Congress from Arizona, 
  submitted article..............................................    91
Lujan Grisham, Hon. Michelle, a Representative in Congress from 
  New Mexico, opening statement..................................     4
    Prepared statement...........................................     5
    Submitted comment on behalf of Pueblo of Santa Ana...........    57
    Submitted comment letter on behalf of David P. Sanchez, Board 
      of Directors; and Carlos Salazar, President, Northern New 
      Mexico Stockman's Association..............................    57
    Submitted letter on behalf of Hon. Raymond Loretto, D.V.M., 
      Governor, Pueblo of Jemez..................................    90
Thompson, Hon. Glenn, a Representative in Congress from 
  Pennsylvania, opening statement................................     1
    Prepared statement...........................................     3

                               Witnesses

Tidwell, Thomas L., Chief, U.S. Forest Service, U.S. Department 
  of Agriculture, Washington, D.C................................     6
    Prepared statement...........................................     8
    Submitted questions..........................................   103
Swanson, Susan, Executive Director, Allegheny Hardwood 
  Utilization Group Inc., Kane, PA...............................    29
    Prepared statement...........................................    30
    Submitted questions..........................................   108
Humphries, Rebecca A., Chief Conservation Officer, National Wild 
  Turkey Federation, Edgefield, SC...............................    33
    Prepared statement...........................................    35
    Submitted questions..........................................   109
McCarthy, Laura Falk, Director of Conservation Programs, The 
  Nature Conservancy, Santa Fe, NM...............................    38
    Prepared statement...........................................    39
    Submitted questions..........................................   110

                           Submitted Material

Fecko, Andrew, Director of Resource Development, Placer County 
  Water Agency, submitted statement..............................    93

 
    HEARING TO REVIEW THE NATIONAL FOREST SYSTEM AND ACTIVE FOREST 
                               MANAGEMENT

                              ----------                              


                       WEDNESDAY, APRIL 29, 2015

                  House of Representatives,
                 Subcommittee on Conservation and Forestry,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 2:36 p.m., in 
Room 1300 of the Longworth House Office Building, Hon. Glenn 
Thompson [Chairman of the Subcommittee] presiding.
    Members present: Representatives Thompson, Lucas, Benishek, 
Allen, Bost, Conaway (ex officio), Lujan Grisham, Kuster, 
Nolan, DelBene, Kirkpatrick, and Peterson (ex officio).
    Staff present: Carly Reedholm, Haley Graves, Jessica 
Carter, Josh Maxwell, Mollie Wilken, Patricia Straughn, Skylar 
Sowder, Ted Monoson, John Konya, Evan Jurkovich, Lisa Shelton, 
Matthew MacKenzie, and Nicole Scott.

 OPENING STATEMENT OF HON. GLENN THOMPSON, A REPRESENTATIVE IN 
                   CONGRESS FROM PENNSYLVANIA

    The Chairman. All right, I want to welcome everyone to 
today's Subcommittee on Conservation and Forestry public 
hearing. I am not going to gavel-in quite yet, it is going to 
be a little while. We have votes that are going to be called 
imminently. I apologize for that. Votes have a way of really 
messing up the schedule around here. But we are going to go to 
the floor--I think they are procedural votes, I believe, so it 
should be just two votes. And the first one, until they call 
it, which again, should be momentarily, will be held open. It 
is a 15 minute vote. They tend to be held open a little longer 
than that, quite honestly, 20, 25 minutes. And the second vote 
will be called right after that. And I would encourage Members 
to return to the hearing room immediately upon voting on that 
second vote so that we can get this hearing convened. I 
apologize for the inconvenience. It is just one of timing, 
unfortunately, it is not something we have really good control 
of here, so my apologies. I encourage everyone to relax, 
mingle, mix it up, whatever, and we will get this hearing 
convened as soon as we get back from votes. Thank you.
    [Recess.]
    The Chairman. Good afternoon everyone. One again, my 
apologies for what I thought was going to be a little quicker, 
but did manage to stretch out. The good news is that although 
there is another series of votes anticipated, it won't be until 
probably 8 p.m. We will be well done and on our way by then, so 
we shouldn't have any further interruptions.
    This hearing of the Subcommittee on Conservation and 
Forestry, to review the National Forest System and active 
forest management, will come to order.
    Once again, I want to welcome everyone to this hearing of 
the Conservation and Forestry Subcommittee.
    The health of our National Forests is an issue of vital 
importance for rural America and, quite frankly, for all 
America, when you look at the values and the benefits in terms 
of timber resources, the headwaters of our navigable waters, 
our drinking water, just so many great benefits, filters, 
carbon sink, and so it should be a concern to each and every 
American.
    Not only are National Forests a source of immense natural 
beauty, they provide us with natural resources, healthy 
watersheds, recreational opportunities, and wildlife habitat. 
But, perhaps most importantly, they serve as economic engines 
for the surrounding local communities. As I like to say, it is 
fulfilling a promise. The promise that was made when these 
lands were taken out of the private sector and put into the 
public sector, that we would keep whole economically and allow 
for robust growth among our rural communities. Our National 
Forests are capable of providing and sustaining these economic 
benefits, but they need proper management in order to do so, 
which is the topic of today's hearing: to review the National 
Forest System and active forest management.
    The U.S. Forest Service manages more than 193 million acres 
of land across 41 states, and within those 41 states, there are 
over 700 counties containing National Forest lands. Now, these 
counties and the communities within them rely on us to be good 
stewards, to be good managers of these Federal lands, and there 
is a direct correlation between forest health and vibrant rural 
community health.
    The people living in these rural areas depend on well-
managed National Forests to foster jobs and economic 
opportunities. These jobs can come from diverse sources such as 
timbering, energy production, or recreation. However, if those 
jobs disappear, so do jobs that support those industries. And 
it is a snowball effect from there, threatening school systems 
and infrastructure in these rural communities. Thus, effective 
management and Forest Service decisions have significant 
consequences on our constituents who live in and around our 
National Forests.
    Healthier, well-managed National Forests are more 
sustainable for generations to come due to the continual risks 
of catastrophic fires and invasive species outbreaks. Now, 
especially with the decline in timber harvesting and revenue to 
counties from timber receipts over the past 2 decades, rural 
economies will benefit immensely from increased timber 
harvests. I would also say that we need to work together to 
focus on the other two parts of that triangle, and that is to 
promote our timber markets, and to enhance the value of our 
timber. It is a little more challenging. That is getting inside 
the heads of the consumers, but we all have an obligation to be 
working on all three of those things.
    Now, we can continue supporting a diverse population of 
wildlife through active land management practices, such as 
prescribed burns. Our National Forests are not museums, 
obviously, and were never intended to sit idle. And I say 
frequently, but National Forests are not National Parks.
    When Congress created the National Forest System more than 
100 years ago, it was designed so that surrounding communities 
would benefit from their multiple uses. Our National Forests 
are meant to provide timber, oil and natural gas, wildlife 
habitat, recreational opportunities, and clean drinking water 
for rural communities across America.
    The 2014 Farm Bill provided the tools for the Forest 
Service to successfully manage our National Forests and help 
boost economies of surrounding communities. Now, these 
provisions allow for expedited planning and projections as well 
as reauthorizing programs, to allow the Forest Service to 
streamline projects, such as timber sale and restoration 
projects, and projects across neighboring jurisdictions. That 
said, we know that good public policy is not static; it is 
dynamic, and the purpose of this hearing is to help us as a 
Subcommittee look at what other legislative opportunities may 
exist out there to provide tools to the Forest Service to 
achieve that overall objective that we have of healthy forests 
and healthy rural communities economically.
    Now, I want to thank Chief Tidwell, and I want to welcome 
him. I appreciate, Chief, you appearing again before us today, 
and I look forward to hearing more from you on how these farm 
bill programs are being implemented. I also look forward to 
hearing from our second panel of witnesses today. We have a 
wide variety of stakeholders who will tell us what they think 
the Forest Service does well and what they should be improving 
upon. We will hear how active forest management not only 
jumpstarts the rural economy, but also helps wildlife species 
and prevents and reduces the impact of fires. I thank each of 
our witnesses for taking the time to be here today. I would 
also like to welcome Sue Swanson from the 5th District of 
Pennsylvania, with the Allegheny Hardwood Utilization Group, 
who lives in Kane, Pennsylvania.
    [The prepared statement of Mr. Thompson follows:]

Prepared Statement of Hon. Glenn Thompson, a Representative in Congress 
                           from Pennsylvania
    Good afternoon. I want to welcome everyone to this hearing of the 
Conservation and Forestry Subcommittee.
    The health of our National Forests is an issue of vital importance 
for rural America.
    Not only are National Forests a source of immense natural beauty, 
but they provide us with natural resources, healthy watersheds, 
recreational opportunities, and wildlife habitat. But, perhaps most 
importantly, they serve as economic engines for the surrounding local 
communities.
    Our National Forests are capable of providing and sustaining these 
economic benefits, but they need proper management in order to do so, 
which is the topic of today's hearing: to review the National Forest 
System and active forest management.
    The U.S. Forest Service manages more than 193 million acres of land 
across 41 states. Within those 41 states, there are over 700 counties 
containing National Forest land. These counties and the communities 
within them rely on us to be good stewards of these Federal lands; and 
there is a direct correlation between forest health and vibrant rural 
communities.
    The people living in these rural areas depend on well-managed 
National Forests to foster jobs and economic opportunities. These jobs 
can come from diverse sources such as timbering, energy production, or 
recreation.
    However, if those jobs disappear, so too do jobs that support those 
industries. It is a snowball effect from there, threatening school 
systems and infrastructure in these rural communities.
    Thus, effective management and Forest Service decisions have 
significant consequences on our constituents who live in and around our 
National Forests.
    Healthier, well-managed National Forests are more sustainable for 
generations to come due to the continual risks of catastrophic fires 
and invasive species outbreaks.
    Especially with the decline in timber harvesting and revenue to 
counties from timber receipts over the past 2 decades, rural economies 
will benefit immensely from increased timber harvests.
    We can continue supporting a diverse population of wildlife through 
active land management practices, such as prescribed burns.
    Our National Forests are not museums and were never intended to sit 
idle. I say it frequently, but National Forests are not National Parks.
    When Congress created the National Forest System more than a 
hundred years ago, it was designed so that surrounding communities 
would benefit from their multiple uses. Our National Forests are meant 
to provide timber, oil and natural gas, wildlife habitat, recreational 
opportunities, and clean drinking water for rural communities across 
America.
    The 2014 Farm Bill provided the tools for the Forest Service to 
successfully manage our National Forests and help boost economies of 
surrounding communities. These provisions allow for expedited planning 
and projections as well as reauthorizing programs to allow the Forest 
Service to streamline projects, such as timber sale and restoration 
projects, or projects across neighboring jurisdictions.
    I want to welcome Chief Tidwell and thank him for again appearing 
before us today, and I look forward to hearing more from him on how 
these farm bill programs are being implemented.
    I also look forward to hearing from our second panel of witnesses 
today. We have a wide variety of stakeholders who will tell us what 
they think the Forest Service does well and what they should be 
improving upon.
    We will hear how active forest management not only jumpstarts the 
rural economy, but also helps wildlife species and prevents or reduces 
the impact of fires. I thank each of our witnesses for taking the time 
to be here today.
    I also would like to welcome Sue Swanson of the Allegheny Hardwood 
Utilization Group in Kane, PA.
    I now recognize the Ranking Member, Ms. Lujan Grisham, for her 
opening statement.

    The Chairman. It is my pleasure to recognize the Ranking 
Member, Ms. Lujan Grisham, for her opening statement.

      OPENING STATEMENT OF HON. MICHELLE LUJAN GRISHAM, A 
           REPRESENTATIVE IN CONGRESS FROM NEW MEXICO

    Ms. Lujan Grisham. Thank you, Mr. Chairman, and good 
afternoon everyone. I am pleased to be here for the second 
Subcommittee on Forestry and Conservation hearing for this 
Congress. We have gotten off to a good and a strong start, and 
I look forward to continuing this Subcommittee's work as we 
begin to review forestry programs.
    New Mexico is home to 9.1 million acres of Forest Service 
land, including the Gila National Forest, which is the sixth 
largest forest in the continental U.S. Our National Forests 
provide us with many benefits, including, as you have heard 
from the Chairman, high quality water, wildlife habitats, 
forest products, and opportunities for outdoor recreation and 
education. Clearly protecting and improving the management of 
our forests are top priorities for me and many of the 
communities in my district.
    I believe the Chairman shares this passion, as do many of 
the Subcommittee Members. I hope that today's hearing will be 
the first, frankly, of many opportunities for the Subcommittee 
to take a real in-depth look at forestry issues. More 
specifically, I am looking forward to discussing the impact 
that wildfires and drought have, and will continue to have, on 
forests in the Southwest, and not just forests, but the 
surrounding communities.
    Most recently, New Mexico, like many other states in the 
Southwest, experienced record-breaking fires that burned 
hundreds of thousands of acres, and resulted in millions of 
dollars of damages. These are real problems that must be 
addressed, and that are threatening to devastate many parts of 
my state and the district. That is, quite frankly, before we 
talk about the public safety issues related to the men and 
women who fight those wildfires, and the communities in which 
homes and businesses and lives are destroyed.
    These are real problems, they have to be addressed, and 
they are threatening to devastate many more parts of the state 
and the district. The current cycle of fire borrowing is not 
working, and contributes to more fires. For those not familiar 
with the term, fire borrowing occurs when the Forest Service 
has to dip into other programs to pay for rising fire 
suppression costs. Last year, USDA sent a report to Congress 
notifying us that the agency needed $470 million more to fight 
wildfires that season. This trend is not new, nor do I expect 
it to go away. Both USDA and DOI have had to divert funds from 
other programs to fund suppression efforts for 7 of the last 12 
years. In addition, we should be looking at innovative and more 
cost-efficient ways to suppress fires.
    Now, I recently had the opportunity to meet with a company 
in my district that has developed larger planes, or tankers, 
that can deliver four times more retardant than any other 
tanker employed today. This allows them to put out fires much 
more quickly, which saves lives, and reduces costs and damages.
    In closing, I hope this hearing will help identify ways 
that Congress can help prevent wildfires, improve the way we 
respond to fires, and assist communities with post-fire 
recovery.
    I welcome Chief Tidwell and the rest of the witnesses 
joining us today. Laura McCarthy works in New Mexico, and was 
recently recognized as the New Mexico Environmental Leader of 
the Year for establishing the Rio Grande Water Fund, a very 
important project in New Mexico. I know we are going to hear 
more about that in her testimony, or at least I hope so, today. 
I look forward to today's testimony.
    I thank the Chairman, and I yield back.
    [The prepared statement of Ms. Lujan Grisham follows:]

Prepared Statement of Hon. Michelle Lujan Grisham, a Representative in 
                        Congress from New Mexico
    Good afternoon. I'm pleased to be here today for the second 
Subcommittee on Forestry and Conservation hearing this Congress. We've 
gotten off to a strong start and I look forward to continuing the 
Subcommittee's work today as we begin to review forestry programs.
    New Mexico is home to 9.1 million acres of Forest Service land, 
including the Gila National Forest, which is the sixth largest forest 
in the continental U.S. Our National Forests provide us with many 
benefits, including high-quality water, wildlife habitat, forest 
products and opportunities for outdoor recreation and education.
    Protecting and improving the management of our forests are top 
priorities for me and many of the communities in my district. I believe 
the Chairman shares this passion, as do many of the Subcommittee 
Members. I hope that today's hearing will be the first of many 
opportunities for the Subcommittee to take a real in-depth look at 
forestry issues.
    More specifically, I'm looking forward to discussing the impact 
that wildfires and drought have had, and will continue to have, on 
forests in the Southwest. Most recently, New Mexico, like many other 
states in the Southwest, experienced record-breaking fires that burned 
hundreds of thousands of acres and resulted in millions of dollars in 
damages. These are real problems that must be addressed and are 
threatening to devastate many parts of my state and district.
    The current cycle of ``fire borrowing'', is not working and is 
contributing to more fires. For those not familiar with the term, 
``fire borrowing'' occurs when the Forest Service has to dip into other 
programs to pay for rising fire suppression costs. Last year, USDA sent 
a report to Congress, notifying them that the agency needed $470 
million more to fight wildfires that season. This trend is not new, nor 
do I expect it to go away. Both USDA and DOI have had to divert funds 
from other fire-preventing programs to fund suppression efforts for 7 
of the last 12 years.
    In addition, we should be looking at innovative and more cost-
efficient ways to suppress fires. I recently had the opportunity to 
meet with a company in my district that has developed larger planes or 
tankers that can deliver four times more retardant than any other 
tanker employed today. This allows them to put out fires much more 
quickly, which saves lives and reduces cost in damages.
    In closing, I hope this hearing will help identify ways that 
Congress can help prevent wildfires, improve the way we respond to 
fires and assist communities with post-fire recovery.
    I would like to welcome Chief Tidwell and the rest of the witnesses 
joining us today. Laura McCarthy works in New Mexico and was recently 
recognized as the New Mexico Environmental Leader of the Year for 
establishing the Rio Grande Water Fund, an important project in New 
Mexico that I know we'll hear more about in her testimony.
    I look forward to today's testimony, I thank the Chairman and I 
yield back.

    The Chairman. I thank the gentlelady.
    And the chair would request that other Members submit their 
opening statements for the record so the witnesses may begin 
their testimony, and to ensure there is ample time for 
questions.
    The chair would like to remind Members that they will be 
recognized for questioning in order of seniority for Members 
who were present at the start of the hearing; after that, 
Members will be recognized in the order of their arrival, and I 
appreciate the Members' understanding. Witnesses are reminded 
to limit their oral presentations to 5 minutes, and all written 
statements will be included in the record.
    I am pleased to welcome our witness to the table of the 
first panel, Mr. Tom Tidwell, Chief of the United States Forest 
Service. Chief Tidwell started his career as a firefighter, 
while going to school, and he has truly demonstrated a career 
where he is trying to make a difference within the Forest 
Service, and held a lot of different titles and jobs, and we 
are pleased that he is serving as the Chief of our Forest 
Service today. Chief Tidwell, please begin with your testimony 
when you are ready.

  STATEMENT OF THOMAS L. TIDWELL, CHIEF, U.S. FOREST SERVICE, 
                U.S. DEPARTMENT OF AGRICULTURE,
                        WASHINGTON, D.C.

    Mr. Tidwell. Mr. Chairman, Ranking Member, Members of the 
Subcommittee, once again, I really appreciate the opportunity 
to be here today to be able to talk about a very important 
subject, and that is the health of our National Forests, the 
health of our nation's forests. I appreciate both of the 
opening remarks that so clearly describe the overall benefits 
that the American public rely on from these lands. I also want 
to thank you for the farm bill. We are just beginning to start 
using those new authorities, and it is really going to make a 
difference to be able to help us to support rural economies 
while improving the health of our nation's forest.
    As you have already said, today, our National Forests are 
more important to the nation than ever. Restoring the health 
and resilience of these forests not only generates all the 
benefits that you have described, but it is also those economic 
benefits, those economic engines, for so many of our rural 
communities. In Fiscal Year 2011, for example, the various 
activities on the National Forest and Grasslands contributed 
over $36 billion to America's gross domestic product, and 
supported nearly 450,000 jobs. But to be able to maintain all 
of those benefits, those economic activities, it is essential 
that we continue to restore and maintain these lands, and it is 
one of the reasons why we continue to increase the number of 
acres we are treating every year.
    In 2013, we treated 2.5 million acres to restore the health 
of these lands, and in Fiscal Year 2014, we increased that to 
2.9 million acres. At the same time, we are also increasing the 
outputs, for instance, with timber production. In Fiscal Year 
2013, we sold 2.6 billion board feet, and Fiscal Year 2014, 
that went up to 2.8 billion. This year we have a target of 2.9 
billion. And in 2016, with our budget request, we are 
estimating we will be at 3.2 billion, which just demonstrates 
the importance for us to be able to do the work on the land to 
produce these key benefits.
    The way we have been able to continue to increase the acres 
treated and produce these key outputs is several innovative 
restoration efforts that we have going. The first is 
collaboration. This concept of working with communities in a 
way that they have more of a say, a greater engagement, is 
really building more support for us to be able to take on 
projects across large landscapes. We have our Collaborative 
Forest Landscape Restoration Program projects that are looking 
at landscapes from about 130,000 to over 600,000 acres, and 
being able to dedicate multiyear funding to these areas, it is 
really proving to be a success on these 23 projects. We are 
also improving our approach on NEPA to be able to not only do 
large-scale projects, but also to use the concept of adaptive 
management that allows us to do one set of analysis that allows 
us to do the work that is needed over a set period of years. We 
are continuing to expand our markets, which is essential for us 
to be able to have a way to put the biomass of saw timber to 
use. And then with the farm bill, I look at the farm bill 
authorities and they are going to help us to expand. 
Stewardship contracting; thank you for making that permanent. 
The Good Neighbor Authority, the insect and disease provisions 
that will help us to reduce the amount of time it takes for us 
to be able to do the analysis, and also the new categorical 
exclusion for us to be able to treat up to 3,000 acres with 
that CE.
    Now, with the passage of the farm bill, we moved quickly to 
work with the governors to designate 46.7 million acres where 
we can use the Insect and Disease Authority, but many of our 
projects in Fiscal Year 2014, and Fiscal Year 2015, already had 
the planning started. So we are really going to see the 
benefits of the farm bill really start coming together at the 
start of this year, but especially next year. For this year, we 
have nine projects already that are lined up to be able to use 
these new authorities, so we will be able to demonstrate the 
benefits of that. Also with the Good Neighbor Authority, we are 
working closely with the states, with the Tribes, with other 
stakeholders to put together a set of templates that not only 
works for the Forest Service, but more importantly works for 
the state, so that we can use this authority to actually 
increase the capacity for us to be able to get more work done, 
working through the states, and this will also expand our 
partnership efforts.
    So these are the things that we have going, the progress 
that we are making, and I will tell you, I am tremendously 
proud about the work that is getting done, the work we are 
doing with our partners and our communities. And once again, 
the farm bill, those authorities are really going to make a 
difference as we move forward.
    Thank you for your time this afternoon. I look forward to 
your questions.
    [The prepared statement of Mr. Tidwell follows:]

 Prepared Statement of Thomas L. Tidwell, Chief, U.S. Forest Service, 
            U.S. Department of Agriculture, Washington, D.C.
Introduction
    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to present the views of the Forest Service regarding 
improving forest health and opportunities on the National Forest System 
to increase the pace and scale of forest restoration and management.
    Our National Forests and Grasslands are a national treasure. The 
health of the National Forests and the communities they serve are our 
shared priority. The U.S. Forest Service is accelerating restoration 
and management of the National Forests, despite budgetary challenges, 
though we agree more must be done. My testimony details the threats to 
our forests and gives a few examples of our successful efforts in 
collaboration, innovation and increased efficiencies. It outlines our 
efforts to promote collaboration among stakeholders to develop larger, 
landscape scale projects, to improve the efficiency of the agency in 
delivering forest management projects, to implement provisions of the 
2014 Farm Bill, and to promote markets for wood.
    The good news is that the agency is making significant progress. In 
2014, we exceeded our targets by producing over 2.8 billion board feet 
of timber. Our timber harvest has increased 18 percent since 2008. The 
agency is achieving these results despite the fact that since 1998, 
National Forest System staff was reduced by well over \1/3\. The agency 
will continue to invest in a number of strategies to treat more acres 
and produce more wood products, but the greatest barrier it faces is 
the short and long term impacts of the growing fire budget. We look 
forward to working with the Committee and others to address this and 
other challenges.
Forest Management--the Challenge and Opportunity
    Forests provide a broad range of values and benefits, including 
biodiversity, recreation, clean air and water, forest products, erosion 
control, soil renewal and more. Covering \1/3\ of the country's 
landmass, they store and filter more than \1/2\ of the nation's water 
supply and absorb approximately 12 percent of the country's carbon 
emissions. Our mission of sustaining the health, resilience and 
productivity of our nation's forests is critically important to 
maintaining these values and benefits.
    Forests are an economic driver. Restoring the health and resilience 
of our forests generates important values as well as economic benefits. 
In FY 2011, for example, the various activities on the National Forest 
System (NFS) contributed over $36 billion to America's gross domestic 
product and supported nearly 450,000 jobs. Over 68 percent of the 
contribution to the economy was associated with direct use of NFS lands 
and resources, including land use fees from privately provided 
recreation services--ski areas, outfitting and guiding, campground 
concessions; expenditures related to skiing, hiking, hunting, fishing, 
and other forms of outdoor recreation; the generation of energy, 
minerals, and traditional forest products; and livestock grazing.
Threats to Forest Health and Forests at Risk
    Our forest and grassland resources are at risk due to 
uncharacteristically severe wildfires, severe outbreaks of insects and 
disease, drought and invasive species, all exacerbated by a changing 
climate.
    Many states have recently experienced the largest and/or most 
destructive fires in their history. Two primary factors are 
contributing to larger and more destructive wildfires: climate and 
forest conditions. Researchers have shown a 78 day increase in the 
western fire season since 1970, possibly due to a gradual rising of 
average spring and summer temperatures. Time of snowmelt also may be a 
factor. If these patterns persist, scientists predict the western 
states will get hotter and drier by the end of the century. In such 
conditions, fire seasons will grow longer and fires will likely 
increase in number and intensity.
    Forest conditions also matter to fire activity. Decades of fire 
suppression and other factors have led to increases of fuels, including 
small-diameter trees and other vegetation, in many forest types across 
the country. Treating these acres through commercial thinning, 
hazardous fuels removal, re-introduction of low-intensity fires and 
other means can reduce fuel loads, provide forest products to local 
mills, provide jobs to local communities, and improve the ecological 
health of our forests.
    Insects and disease have exacerbated the challenge. The area 
affected by an epidemic of mountain pine beetle in the West has reached 
32 million acres on the National Forests alone. In addition, invasive 
weeds such as kudzu, cheatgrass, leafy spurge, and spotted knapweed 
have infested about 6 million acres on the National Forests and 
grasslands, an area the size of Massachusetts.
    Fifty-eight million acres of National Forests are at high or very 
high risk of severe wildfire. Out of the 58 million ``high or very 
high'' risk acres, we have identified approximately 11.3 million acres 
for highest priority treatment. These acres are in proximity to the 
wildland-urban interface or in priority watersheds or water sources, 
are in frequent fire return regimes, and not in roadless or wilderness 
areas.
The Need for Restoration
    The Forest Service is committed to increasing the pace and scale of 
restoration. By restoration, we mean restoring and maintaining the 
functions and processes characteristic of healthier, more resistant, 
more resilient forests, even if they are not exactly the same systems 
that were there in the past. Our goal is to protect and restore the 
ability of America's forests and grasslands to deliver all the social, 
economic, and ecological values and benefits that Americans want and 
need from their National Forests, now and for generations to come.
    The Forest Service has increased the number of acres treated 
annually to improve watershed function and resilience. In FY 2013 the 
agency treated over 2.5 million acres and increased this to 2.9 million 
acres in FY 2014. The Forest Service has also been increasing its 
timber production over time. We sold 2.6 billion board feet (bbf) in FY 
2013, 2.8 bbf in FY 2014 and have targets of 2.9 bbf in FY 2015 and 3.2 
bbf in FY 2016. Meeting this last goal will require a number of 
strategies.
Working with State, Local and Tribal Communities with Forest Health
    The Forest Service's Forest Health Protection program protects non-
Federal forest and tree resources from damaging forest insects, 
disease-causing agents, and invasive plants; develops and improves 
forest health protection technologies; and monitors the health of our 
nation's forests. Technical assistance, formula grants, and project 
grants are available.
Collaboratives
    The Forest Service is investing in collaborative approaches to 
forest restoration across the country as a way to develop better 
projects, to work across larger landscapes, to build public support for 
forest restoration and management, and to reduce the risk from 
litigation. Dozens of collaboratives across the country are enabling 
the USFS and our partners to get more work done. These collaboratives 
are locally led groups from local communities, environmental groups, 
forest industry, and others and are designing projects that address 
forest restoration, supply wood to local mills, conserve watersheds and 
provide a range of other benefits.
Collaborative Forest Landscape Restoration Program (CFLRP)
    One way to support local collaboration has been through the 
Collaborative Forest Landscape Restoration Program (CFLRP), and we 
appreciate Congress' support for this innovative program. The CFLRP 
encourages collaborative, science-based ecosystem restoration of 
priority landscapes. The program currently supports 23 large-scale 
projects with 10 year funding to implement priority restoration work on 
NFS lands while engaging local communities and leveraging partner 
resources through collaboration, implementation, and monitoring.
    The CFLR program is on track to meeting its goals over its 10 year 
timeframe, making substantial strides in the first 5 years to promote 
forest health and resilience and reduce the risk of catastrophic 
wildfire. In the 5 years since initial program implementation, the 23 
projects collectively have treated over 1.45 million acres to reduce 
the risk of catastrophic fire, over 84,570 acres to improve forest 
health, over 1.33 million acres to improve wildlife habitat, and over 
73,600 acres to eradicate noxious weeds and invasive plants. In 
addition, these projects have exceeded their timber output goals, 
producing nearly 1.3 billion board feet.
    These collaborative projects help rural communities by creating and 
maintaining jobs. Between 2011 and 2014 these projects generated $661 
million in local labor income and an average of 4,360 jobs per year. 
The FY 2016 President's Budget for the Forest Service includes a 
proposal to increase funding authority for the program from $40 million 
to eventually $80 million, with funding in FY 2016 requested at $60 
million. The funding increase will allow us to pursue up to ten 
additional projects. Accordingly, the budget proposes extending 
authority for the program through 2024 to allow for full completion of 
new projects.
    These collaboratives, and dozens of similar efforts, help maintain 
a robust forest industry with benefits flowing not only to local 
communities, but also to the Forest Service itself as the agency relies 
on local forest contractors and mills to provide the workforce to 
undertake a variety of restoration activities. A 2011 Forest Service 
study found that through work on NFS lands, the forest products 
industry supports about 42,000 jobs and contributes around $2.7 billion 
to America's gross domestic product each year.
Chiefs' Joint Landscape Restoration Partnership
    Our restoration efforts are not just confined to public lands. 
Recognizing that fire, insects, disease, wildlife and watersheds do not 
respect property lines, the Forest Service and USDA's Natural Resources 
Conservation Service are combining resources to expand our efforts 
across both public and private land. In FY 2014, Secretary Vilsack 
announced a multi-year partnership between the U.S. Forest Service and 
the Natural Resources Conservation Service (NRCS) to improve the health 
and resiliency of forest ecosystems where public and private lands meet 
across the nation. The Forest Service and NRCS Chiefs' Joint Landscape 
Restoration Partnership program aims to reduce wildfire threats to 
communities and landowners, protect water quality and supply, and 
improve wildlife habitat for at-risk species. By leveraging technical 
and financial resources and coordinating activities on adjacent public 
and private lands, conservation work by NRCS and the Forest Service 
will be more efficient and effective in these watersheds.
    In FY 2014, the Landscape Restoration Partnership invested $30 
million in 13 projects in 12 states across the country. The priority 
projects selected for FY 2014 will continue in FY 2014: $27 million 
will be provided to continue work on these projects in 2015; 15 
additional projects were selected in FY 2015 and announced last month, 
totaling $10 million. The 2015 projects are located where private and 
public lands meet, and where restoration objectives cross ownership 
boundaries. For example:
    In Illinois, conservation management in the Kinkaid Lake watershed 
has been a partnership effort for many years. The cooperation with the 
Illinois Department of Natural Resources, Shawnee Resource Conservation 
and Development Council, Jackson County Soil and Water Conservation 
District, Kinkaid Area Watershed Project and other partners has come 
together with a goal to restore the Kinkaid Lake Watershed. Kinkaid 
Lake is a 2,350 acre reservoir that provides potable water to about 
30,000 people, but is deteriorating due to non-point sources of 
sediment and nutrients. The partners will combine their time and 
resources to improve water quality and water storage capacity by 
reducing the amount sediment and nutrients. The water supply watershed 
and habitat quality will be improved and wildfire threats will also be 
reduced.
    The watersheds of Lake Superior's coastal forests are home to 
tributaries that impact the water quality of The Great Lakes, among the 
most important natural resources in the world. With more than 20 
percent of the Earth's surface freshwater, they provide drinking water 
for 45 million people and habitat for a vast array of plants and 
wildlife, including more than 200 globally rare species. Spanning 
295,000 miles<SUP>2</SUP>, the basin's immense network of streams, 
lakes, wetlands and forests provides critical ecological services, such 
as water filtration, flood control, and carbon storage. In addition, 
the region offers unmatched opportunities for industry, tourism and 
recreation. The Forest Service and NRCS are partnering with Sugarloaf: 
The North Shore Stewardship Association, Grand Portage Tribal Council, 
The Nature Conservancy, Soil and Water Conservation Districts and the 
state to expand current restoration efforts to protect the water 
quality of Lake Superior, provide critical wildlife habitat and develop 
a resilient ecosystem for the future.
Efficiencies
    An important way to increase the pace and scale of forest 
restoration and management is to improve the efficiency of planning 
timber sales and stewardship contracts. We are working to identify and 
implement process improvements and efficiencies that help with 
increasing the pace and scale of restoration, while also engaging the 
public and developing well-planned projects. Some strategies include:

  <bullet> The Forest Service is planning and implementing projects 
        across larger areas, which increases NEPA efficiency and 
        thereby spreads costs across more acres, and provides a longer 
        term and more certain timber supply for local mills. For 
        example, the Mountain Pine Beetle Response Project on the Black 
        Hills National forest is implementing a landscape scale 
        approach across 200,000 acres for treating current and future 
        pine beetle outbreaks.

      In the Southwest, the Forest Service signed the Final Record of 
        Decision for the Four Forest Restoration Initiative's (4FRI) 
        first EIS on April 17, which analyzed approximately 1 million 
        acres in the Coconino and Kaibab National Forests. This project 
        was one of the Council on Environmental Quality's NEPA Pilot 
        Projects, which were projects nominated for employing 
        innovative approaches to completing environmental reviews more 
        efficiently and effectively. The Environmental Impact Statement 
        covers approximately 1 million acres and proposes 586,110 acres 
        of restoration activities: 355,708 acres on the Flagstaff, 
        Mogollon, and Red Rock districts of the Coconino National 
        Forest; and 230,402 acres on the Williams and Tusayan districts 
        of the Kaibab National Forest.
      4FRI involves the entire suite of restoration efforts including 
        thinning; prescribed burning; watershed and road maintenance; 
        grassland, spring, and stream channel restoration; and habitat 
        improvement. This milestone is the result of four National 
        Forests and more than 30 stakeholder groups joining together 
        over 5 years to work on the largest landscape-scale restoration 
        project ever analyzed in Forest Service history. 4FRI builds on 
        many years of collaboration, research, and action since the 
        mid-1990s. Over the past 5 years, the Forest Service has 
        progressed toward accelerating restoration by implementing 
        projects within the 4FRI landscape, using previous NEPA 
        analyses. Progress continues with this final Record of 
        Decision.

  <bullet> The Forest Service is developing new approaches to NEPA in 
        the wake of catastrophic fires. On the Rim Fire, which burned 
        257,000 acres in the summer of 2013, the Stanislaus National 
        Forest finalized both an Environmental Assessment for hazard 
        tree removal and an Environmental Impact Statement for 
        restoration and salvage in 1 year. The EIS projects will lessen 
        the potential for future catastrophic fire by reducing the fuel 
        loading and, in addition, capture some of the perishable 
        economic commodity value of the fire killed trees through 
        timber salvage. The agency coordinated with the Council on 
        Environmental Quality, which approved Alternative Arrangements 
        to expedite the NEPA process. Overall, our partners and 
        stakeholders appreciated the transparency while also enabling 
        contracts to get awarded and work done on the ground.

  <bullet> The agency is asking collaboratives to help with planning 
        and implementation. The Fivemile Bell Landscape Management 
        Project is one of the largest projects organized and developed 
        by the Siuslaw National Forest and its partners. For this 
        watershed restoration project, the Forest Service through 
        active engagement and leadership from its stakeholders was able 
        to leverage private resources to accomplish priority watershed 
        restoration work. This collaborative approach increased the 
        capacity of the forest to achieve more than it could have if it 
        had utilized a more traditional approach to the NEPA process. 
        This project was one of the Council on Environmental Quality's 
        NEPA Pilot Projects, which were projects nominated for 
        employing innovative approaches to completing environmental 
        reviews more efficiently and effectively.

  <bullet> Another innovative approach to environmental analysis under 
        NEPA and stewardship contracting to increase the scale and pace 
        of restoring forest health and to provide economic 
        opportunities for local communities is the Mill Creek A to Z 
        Stewardship Project on the Colville National Forest. This 
        project was designed so that each step, from NEPA data 
        collection to project implementation, where appropriate, will 
        be performed and financed by the contractor, Vaagen Brother's 
        Lumber Inc. under the supervision of the Forest Service. The 
        Environmental Assessment for the first of the two planning 
        areas was released for public comment recently. The contractor 
        is planning to start presale activities this spring and 
        vegetation treatments are expected to begin after the decision 
        is signed this fall.

    The agency has established additional categorical exclusions for 
restoration work, has expanded the use of focused environmental 
assessments, is using adaptive management to allow our decisions to 
last longer, and is better training employees to take advantage of new 
efficiencies. The Forest Service is also developing efficiencies in 
NEPA through technology. For example, the Forest Service's investments 
in using electronic applications provide considerable cost and time 
savings, contributing to an efficient NEPA process by reducing the 
administrative workload in reporting, records management, electronic 
document filing, and managing public mailing lists, while making it 
easier for the public to comment on Forest Service projects.
    All of these efforts are aimed at becoming more proactive and 
efficient in protecting and restoring the nation's natural resources, 
and supporting jobs and economic vitality for American communities.
2014 Farm Bill Implementation
    The tools provided in the 2014 Farm Bill significantly expand the 
tools that will support our ability to accomplish restoration work on 
the ground, such as permanent authorization for stewardship contracting 
and the Good Neighbor Authority. In addition, the insect and disease 
designations and modifications to the Healthy Forest Restoration Act 
included in the farm bill, will add to the NEPA and process 
efficiencies outlined above and further help accelerate the pace and 
scale of restoration.
    The 2014 Farm Bill added authority to the Healthy Forest 
Restoration Act to authorize designation of insect and disease 
treatment areas and provide a categorical exclusion (CE) for insect and 
disease projects on areas as large as 3,000 acres. The new CE holds 
significant potential to improve efficiency, resulting in on-the-ground 
restoration work that is accomplished more quickly and across a larger 
landscape. Working with Governors, last summer Secretary Vilsack 
announced the designation of approximately 46.7 million acres in 36 
states. On March 6, designations for the State of Washington added an 
additional 711,000 acres.
    The Forest Service has been working to integrate the new 
authorities into our project development process, recognizing that FY 
2014 projects were already developed and underway when the farm bill 
was authorized and insect and disease areas were designated. The first 
projects using this new authority are already moving forward. 
Currently, nine projects have been proposed under the Farm Bill Insect 
and Disease provisions. Seven of the projects will be implemented using 
the new Categorical Exclusion (CE) authority, while the remainder will 
use the updated procedures for completing an Environmental Assessment. 
These initial projects will help the agency and its partners better 
understand and implement the new CE authority while additional projects 
are identified, planned and implemented. Planning and implementation of 
projects within designated areas will expand in FY 2015 and beyond.
    The Forest Service is working with states, Tribes, and other 
stakeholders to refine the necessary guidance for implementation of 
Good Neighbor Authority (GNA), which authorizes Federal agencies to 
enter into cooperative agreements or contracts with State Foresters to 
conduct restoration projects on Federal forestland. The Forest Service 
is near the final stages of completing the requirements of the 
Paperwork Reduction Act process that is required to approve the 
agreement templates that will be used by the agency and states to 
implement projects under GNA. The Forest Service is working closely 
with states to ensure that this new authority can be efficiently 
implemented. We expect approval of the agreement templates this spring 
and to begin implementing projects this summer.
    The farm bill also provided permanent authority for stewardship 
contracting. Traditional timber sale contracts will remain a vital tool 
for the Forest Service in accomplishing management of the National 
Forests. At the same time, stewardship contracting is helping the 
Forest Service achieve land and natural resource management goals by 
funding forest health and restoration projects, stream restoration, 
hazardous fuel removal, and recreation improvements. In many areas, 
stewardship contracting will allow the agency to build larger projects, 
treating more acres, and with broader public support. Since 2008, acres 
treated through stewardship contracts have nearly tripled. The Forest 
Service will continue to provide training across the agency and with 
states and partner organizations on use of this important tool.
Building a Strong Forest Products Industry through Support for Markets 
        and Research
    In addition to the innovative approaches to collaboration and 
efficiencies highlighted above, we have also focused on the need for 
strong markets for wood, both large and small diameter trees, to 
support restoration efforts. The Forest Service recognizes the need for 
a strong forest industry to help accomplish forest restoration work; 
one of the best opportunities for reducing the cost of these 
restoration treatments is to ensure strong markets for the byproducts 
of these treatments.
    The Forest Service is a leading agency in the Federal Government to 
preferentially select domestically harvested wood products in building 
construction projects while increasing its commitment to green building 
standards. All Forest Service building projects incorporate green 
building principals such as energy efficiency, locally produced wood 
products, recycling and reuse of building materials. New building 
construction and major renovation projects for administration 
facilities or research laboratories over 10,000 gross feet<SUP>2</SUP> 
must be registered and certified using accredited third-party green 
building certification systems.
    The Forest Service is actively encouraging the U.S. building sector 
to fully consider wood when construction with wood is an appropriate 
option. We completed three primary actions to achieve this: (1) we have 
increased our financial support of Woodworks for their education and 
technical support of architects and engineers from $250,000 per year to 
$1,000,000 per year; (2) we have expanded our biomass utilization grant 
program into a Wood Innovations program which generated 101 proposals 
for funding this year; and (3) we are actively providing technical 
support to USDA's Tall Wood Building Competition which will both 
directly help move wood building technology in the U.S. and be a highly 
effective awareness mechanism for the broader public on the 
possibilities of building with wood. USDA will announce awardees of the 
U.S. Tall Wood Building Prize Competition in October 2015.
    The Forest Service is leading the USDA Wood to Energy Initiative, a 
partnership between five agencies, including Rural Development and the 
Farm Service Agency. This interagency effort is focused on creating 
value for woody biomass by creating energy, for heating buildings, 
manufacturing and producing electricity. The initiative is focused on 
economically viable uses of wood. For example, wood chips and pellets 
are about \1/2\ the cost of fuel oil and propane for heating. The U.S. 
uses about 25 billion gallons of fuel oil and propane at a cost of 
about $75 billion, most of it consumed in rural America. We also 
continue to support incentives for biomass removal and utilization such 
as the Biomass Crop Assistance Program (BCAP). It is important to keep 
in mind that wood energy is one more part of an integrated wood 
products industry that produces structural material, furniture, pulp 
and paper. Our goal is to use all the parts of the trees for the 
highest value we can so that landowners can effectively manage their 
land whether it is public or private.
    Forest Service Research and Development (R&D), the largest forestry 
research organization in the world, provides scientific research to 
sustainably manage and use forest resources and forest fiber-based 
products. It is developing the science and technology needed to sustain 
and restore ecosystems in the face of changing conditions, including 
the expansion of existing markets for wood and the development of new 
markets. FS R&D continue the development of wood-based biofuels, 
chemicals, and products that can substitute for petroleum-based 
materials, including developing biomass deconstruction science and 
technology, conversion technologies for wood-based liquid fuels 
including drop-in fuels, and science and technology for manufacturing 
chemicals and other co-products from biomass-to-energy conversion. The 
FS R&D investment in wood-derived nanomaterials may create new high-
value products in traditional forest products such as stronger, lighter 
paper and innovative new products such as body armor, automobile 
components and flexible electronics. Adopting wood-derived 
nanomaterials will promise new value-added feature in products and 
improve environmental performance attributes, support more efficient 
use of renewable materials and decrease reliance on oil-based products.
The Budget Challenge
    Our efforts are showing success: we have increased timber harvest 
by 18% since 2008, with fewer Forest Service resources and staff. But, 
there is a limit to the gains we can realize through efficiencies and 
partnership alone. In particular, the frequency and intensity of 
wildfire, the rising cost of assets deployed against the spread of 
wildfire, and the way the Forest Service funds fire suppression are 
slowly crippling the agency's ability to restore and manage the 
National Forests. In addition, in the short term, it is forcing the 
agency in most fire years to disrupt on-going projects--whether they 
are forest management, recreation, conservation, research or others--in 
order to transfer funding to meet fire suppression needs.
Fire Suppression Cap Funding Proposal
    In Fiscal Year 1995, the Forest Service spent 16% of its budget on 
firefighting. Today the agency spends nearly \1/2\ of its budget in 
fire management activities. This has enormous implications for how the 
agency carries out its mission, including taking funding from the very 
programs that help reduce catastrophic fire in the first place. Since 
1998, fire staffing within the Forest Service has increased 114 percent 
from around 5,700 in 1998 to over 12,000 in 2015. Over the same period, 
staffing levels for those dedicated to managing National Forest System 
lands have decreased by 39 percent--from almost 18,000 in 1998 to fewer 
than 11,000 in 2015.
    Fire transfers from non-fire accounts occur when the agency has 
exhausted all available fire resources from the Suppression and FLAME 
Fund accounts. From FY 2000 to FY 2013, the Forest Service made fire 
transfers from discretionary, trust, and permanent non-fire accounts to 
pay for fire suppression costs seven times, ranging from $100 million 
in FY 2007 to $999 million in FY 2002, and totaling approximately $3.2 
billion. Of the total transferred funds, $2.8 billion was repaid, 
however, the transfers still led to disruptions within all Forest 
Service programs. Although there was not a fire transfer in FY 2014, 
the financial impacts to the agency were still significant given the 
uncertainty around fire risk and funding. Even though many parts of the 
country experienced lower than normal fire activity last year, the cost 
of suppression still exceeded the 10 year average. Our forests and 
grasslands lost opportunities to undertake important project work--
including fire prevention work--and deferred important spending in 
anticipation of a very active fire season.
    Each time the agency transfers money out of non-fire accounts to 
pay for fire suppression there are significant and lasting impacts 
across the entire Forest Service. When funding is transferred from 
other programs to support fire suppression operations, these non-fire 
programs are impacted because they are unable to accomplish priority 
work and achieve the overall mission of the agency. Often this priority 
work mitigates wildland fire hazards in future years. In addition, 
transfers negatively impact local businesses and economies, costing 
people jobs and income as a result.
    We expect a very active fire season in 2015. The median Federal 
Land Assistance, Management and Enhancement (FLAME) Fund suppression 
forecast for the 2015 fire season is $1.12 billion. Our appropriated 
funding in FY 2015 is $1.01 billion.
    Bipartisan legislation, the Wildfire Funding Disaster Act, has been 
introduced in both the House and Senate that will provide a much more 
rational approach to funding wildfire. This proposal is mirrored by a 
proposal in the FY 2016 President's Budget. WFDA calls for a 
fundamental change in how wildfire suppression is funded to reduce fire 
risk, manage landscapes more holistically, and increase resiliency of 
the nation's forests and rangelands and the communities that border 
them. The Budget proposes a fiscally responsible funding strategy that 
considers catastrophic wildland fires as disasters, to be funded in 
part by budget authority provided through a wildfire suppression cap 
adjustment which is outside the discretionary appropriation of the 
agency. This strategy provides increased certainty in addressing 
growing fire suppression funding needs, better safeguards non-
suppression programs from transfers that have diminished their 
effectiveness, and allows us to stabilize and invest in programs that 
will more effectively restore forested landscapes, treat forests for 
the increasing effects of climate change, and prepare communities in 
the Wildland Urban Interface to manage for future wildfires.
    The Forest Service estimates that the President's proposal will 
increase outputs from the National Forests from 2.9 billion board feet 
to 3.2 billion board feet. The most important action Congress can make 
now in advancing the pace and scale of forest restoration is to fix the 
fire funding problem.
Conclusion
    I am proud of the work that the Forest Service and its employees 
have been able to accomplish--particularly in a time of reduced 
resources and staff for non-fire programs--and of the partnerships we 
have developed that have made that work possible. But, more work needs 
to be done to address a range of threats facing our National Forests.
    The Forest Service will continue to work with states, local 
government, Tribes, industry and our many other partners to improve our 
forest management program through increased collaboration, new 
efficiencies, implementation of new authorities in the farm bill, and 
promotion of markets for wood. We stand ready work with Congress to 
address fire funding and the need for accelerated forest restoration.
    I want to thank the Committee for its interest, leadership, and 
commitment to our National Forests and their surrounding communities. I 
would be pleased to answer any questions you may have.

    The Chairman. Chief, thank you so much for your testimony.
    I will start out the questioning. And I was disturbed to 
see that the Forest Service is only preparing seven projects 
using the Farm Bill Insect and Disease Treatment Authority that 
we provided in the farm bill. Now, you had talked about how 
this is going to be a big year for ramping up. Are there 
applications for this, and I will be real specific, I guess, 
are there applications for this authority in Pennsylvania? If 
so, why haven't we yet taken advantage of them?
    Mr. Tidwell. Well, once again, with the passage of the farm 
bill, then it took a while to work with----
    The Chairman. Check your microphone. Thank you.
    Mr. Tidwell. Excuse me. With the passage of the farm bill, 
and then it took some time to work with the governors to 
designate the areas that we could apply the Insect and Disease 
Authorities. By then we had already planned our work in 2014, 
and also through 2015. So we are seeing right now that we have 
nine projects, and that will increase over the year. You will 
really see the benefits of these new authorities come into play 
in Fiscal Year 2016. So we are not going to ask people to stop 
the projects they have done the analysis on, and are halfway 
through with, to be able to shift gears. That is one of the 
reasons it has taken us a little more time.
    Also, on the Good Neighbor Authority, which may be one of 
the best uses of the farm bill authorities in your state, we 
are taking the time, first of all, to work with the states, and 
then we also have the Paperwork Reduction Act that we have to 
go through that does require certain processes we have to 
follow, and so that has taken a little more time. But the 
benefit of this is, by sitting down with the states and 
actually going through what we call sand table exercises, where 
we actually look at the templates and go through a scenario to 
see how this would actually play out on the ground, working 
together. Because of that, we are going to have a much better 
product than if we would have just quickly moved forward. I 
look at that as probably one of the areas, especially in the 
Commonwealth of Pennsylvania and with the value of the timber 
that we have in your state, it really will lend itself for us 
to find ways to work closer with the state to be able to bring 
more capacity to get more work done.
    The Chairman. You have a projection, obviously, seven 
projects so far. Do you have a work plan, do you have a goal in 
terms of what you are going to be able to accomplish in the 
year ahead?
    Mr. Tidwell. Well, my goals are what we are looking at, the 
total number of acres, the total outputs that we are putting 
out there. What we have asked each of our regions is to be able 
to make sure, first of all, our Forest Supervisors are fully 
aware of these authorities, how to use those, and to make sure 
that we are using them because, with the modifications to the 
Healthy Forest Restoration Act, we can now look at many of our 
projects, especially where we have these strong collaboratives, 
that often we can only look at two alternatives in an EA or an 
EIS versus in the past, we have needed to look at maybe five or 
six, and we had to fully analyze. This is a significant 
improvement.
    Under the Healthy Forest Restoration Act, we had great 
success using a similar authority, but now this one allows us 
to use it where we have this insect and disease concern, which 
is on over 46 million acres.
    The Chairman. One way, and you had mentioned CFLRP, and one 
of the goals of that program was to avoid the wildfires.
    Mr. Tidwell. Yes.
    The Chairman. Have we been able to quantify with just what 
has been done so far towards the reduction of wildfire threat 
on those acreages?
    Mr. Tidwell. Yes. We just put out our 5 year report on the 
CFLR Program, and even though only \1/2\ of the projects have 
actually had a full 5 years, we have been able to document the 
tens of thousands of acres where we reduced the hazardous 
fuels, also over 1.3 billion board feet that has come off of 
those projects. We are meeting our goals when it comes to 
hazardous fuels reduction, we are meeting our goals when it 
comes to watershed improvement on most of the areas, and we're 
seeing outputs like saw timber and biomass. Areas where we 
wanted to reduce noxious weeds in is an area we have to look at 
to improve. That is one of the targets that we are not in line 
with yet. But the 5 year report demonstrates the success we are 
having with this program, and it is one of the reasons why, in 
our 2016 budget request, we are asking for the authority to 
expand this program.
    The other key part of this is that it takes a commitment 
for multiyear funding for us to be able to look at these large 
landscapes, and once again, the smallest one is 130,000 acres, 
but to be able to have that dedication so that the communities 
and the industry know that, okay, we are going to continue to 
be working on these, and it is not going to be a 1 year jump 
forward and then let's fall back. That is the other benefit of 
this program and why it is really producing the results we are 
seeing today.
    The Chairman. Okay, great. Well, thank you very much. My 
time has expired. And I hoping maybe we will get two rounds. We 
will see.
    But I am pleased to recognize the Ranking Member for 5 
minutes.
    Ms. Lujan Grisham. Thank you, Mr. Chairman.
    Chief, as I mentioned in my opening remarks, the status quo 
about how we are funding both prevention and fighting forest 
fires is not working. Having a fixed amount that inhibits our 
efforts to both prevent and provide sufficient resources to 
defend them or combat wildfires during the fire season 
continues to be a huge problem. I am continuing to hear 
concerns that the Forest Service has managed, in addition to 
that, the National Forest in a manner that has left local 
communities, as they try to weigh-in, and even try to identify 
state or local resources to adjust that dynamic to some degree, 
feeling very disconnected and not part of an effort to try and 
rectify that.
    I have also heard concerns that the Forest Service's 
wildfire prevention techniques, to some degree, have been 
ineffective, and have had some unintended consequences, which 
is a very serious concern for a state like New Mexico because 
we are, like most of the Southwest, and now the West, we are at 
extreme risk for wildfires, and we don't even use the 
terminology that we are in a severe drought we are now in a 
mega drought, with dire consequences for the future if we don't 
try to mitigate and be ahead of this issue to the highest 
degree that we can. Now, given that you have limited success 
for a variety of reasons, not having the resources and tools 
and the investments that you always need, and that we continue 
to see our natural environment, which is, like the drought, out 
of your control, and conditions worsen over time, it is really 
imperative today, more than ever before, that we find the right 
balance for managing our forests.
    Can you discuss with me any new or innovative ideas that 
you have considered that will help the Forest Service prepare 
for the reality of continued limited resources and worsening 
conditions?
    Mr. Tidwell. Well, first, your point about how we fund 
wildfires, it needs to be fixed. That is the first thing. I 
think that before we can really talk about what needs to be 
done on these landscapes, we have to find a solution. I 
appreciate your support for the Wildfire Disaster Funding Act. 
There is just no question that is something that needs to be 
addressed.
    Once again, just between Fiscal Year 2015 and Fiscal Year 
2016, we are going to have to find another $110 million to put 
into fire suppression. Since 2003, it has gone up $740 million. 
That has been the 10 year average cost of fire suppression. And 
with the constrained budget, that impacts our ability to carry 
out all the other management responsibilities that we have. To 
the point that, with our staff that manage the National Forest 
Systems, our staffing has gone down over 35 percent.
    Ms. Lujan Grisham. So do you believe that that has 
curtailed the development of new strategies and innovative 
ideas? And I might just help you on this one. I mean it is very 
important for this Subcommittee and the full Committee. This 
would be like saying, ``For your public safety, your 
firefighters and your communities, that your capital investment 
fund is the same as your personnel fund, so we are going to cut 
personnel every time we get a new firetruck.'' I mean it 
doesn't make any sense if your goal is to protect or to combat 
these wildfires. We are doing this completely wrong and 
backwards.
    Mr. Tidwell. Yes, it is really the first thing that needs 
to be addressed, and once again, I appreciate your support. But 
then the other key things going on today is this level and 
awareness and understanding about the work that needs to be 
done our National Forests. A level of collaborative efforts 
that are going on where people are coming together and reaching 
conclusions about what is the right mix of benefits under this 
concept of multiple use to provide for wildlife or recreation, 
of course, water and for fisheries. At the same time, there is 
a need for us to remove more biomass, and so that is why we 
have gone to great lengths to be able to identify the number of 
acres we need to actually be restoring.
    Ms. Lujan Grisham. And as you do that, I don't mean to 
interrupt, Chief, I appreciate it, I am running out of time, 
but it would be great if maybe you could provide the Committee 
a list of those partners and communities where you think we 
identified those best practices, because that would be useful 
to us.
    And then I am going to, with my last few seconds, make a 
pitch that we are hoping that we can have a better relationship 
with your office as we work to deal with the civil rights 
report related to discrimination against minority farmers and 
their access to forestlands and forest services. It would be 
really helpful to continue that dialogue, and to have access to 
responses about that internal civil rights report.
    Mr. Tidwell. We will be glad to provide you with a list of 
the various communities that we are working very closely with, 
along with the ones that are actually providing financial 
resources to be able to invest in making an improvement in 
their forests.
    Ms. Lujan Grisham. Thank you, sir.
    I yield back.
    The Chairman. I thank the gentlelady.
    I now recognize Mr. Benishek, from Michigan, for 5 minutes 
of questioning.
    Mr. Benishek. Thank you, Mr. Chairman.
    Chief Tidwell, thanks for being here. I am going to have a 
couple of questions. The Northern Long-Eared Bat has been 
recently listed as threatened under the Endangered Species Act, 
so there is an interim management rule in place, with a comment 
period open until July. How is your agency working to provide 
information to those who work the forests to ensure that they 
have everything under control and everything they need to 
comply with the new listing?
    Mr. Tidwell. Well, first of all, we are working very 
closely with U.S. Fish and Wildlife Service so that they 
understand the things we are doing on the landscape, the way 
that I believe that healthy forests are also good for bat 
populations. And then at the same time, our staff has looked at 
these interim procedures and have gone through all the sales 
that we currently have, and we feel that we can, with some very 
minor modifications, be able to ensure all of our projects that 
are lined up this year will be able to go forward. In the 
future, at least where we are at right now, there may be some 
additional impacts we have to do through the consultation with 
Fish and Wildlife Service. We will have to adjust some of the 
operational periods of when the loggers are out in the woods in 
a few cases, but everything I am seeing right now is that we 
are going to be able to work with this, and to be able to 
provide the quality habitat for bats, minimize disturbance, but 
at the same time, carry out the work that needs to be done to 
restore these forests.
    Mr. Benishek. Right. Okay, well, good. I am glad to hear 
that because people are quite concerned in----
    Mr. Tidwell. Yes.
    Mr. Benishek.--Michigan about the impact of this species.
    I have another question about the Michigan DNR apparently 
met with the Forest Service last month in Wisconsin to assess 
how to implement this Good Neighbor Authority in our 
neighborhood, and I understand that, coming out of the 
exercise, you committed to allowing funds received to be used 
to pay for the work that states conduct under this authority, 
as we envisioned in the farm bill. So I just want to thank you 
for your commitment to implement this Good Neighbor Authority 
in this manner. I know that states like Michigan are eager to 
help the Forest Service fully implement this forest plan. Can 
you confirm to me that you will be finalizing the program 
shortly so that states can implement, maybe even this summer?
    Mr. Tidwell. Yes, we are working to complete the 
requirements of the Paperwork Reduction Act, and then submit 
the templates for approval. It is my understanding where we 
need to be is that the receipts from these Good Neighbor 
Authority agreements can be managed by the states in a program 
so we can continue to fund restoration work. I see this as one 
of the many benefits of this authority that they will be able 
to retain these receipts through these agreements, and then 
invest in more restoration work on the forests.
    Mr. Benishek. When can this start happening do you think? 
Will it happen this year during this cutting season?
    Mr. Tidwell. I am hopeful that states like your state, and 
maybe with Wisconsin and a few other states that have really 
kind of leaned into this, that we will be able to actually move 
forward with the projects later this year, to be able to 
demonstrate the benefits of this. And it is a fair expectation. 
We need a few states to kind of step forward and to be able to 
demonstrate what can be done through this, and that will help 
other states probably come onboard. So we are actually looking 
towards your state to be one that will help us.
    Mr. Benishek. Well, good luck with that. And I appreciate 
anything you do to keep me informed with how things are going 
with that----
    Mr. Tidwell. Okay.
    Mr. Benishek.--because, as you may know, I had some of the 
Forest Supervisors in the office here yesterday, and trying to 
proceed with learning more about this program and how it moves 
forward.
    With that, I yield back.
    The Chairman. I thank the gentleman.
    And I now recognize Congresswoman DelBene, for 5 minutes.
    Ms. DelBene. Thank you, Mr. Chairman. Thank you, Chief 
Tidwell, for being here with us today.
    One thing I hear often from our rural and forested 
communities is the concern that the Forest Service staff, jobs, 
and offices continue to move further away from the rural areas 
that they represent and impact. More and more, we see fewer 
agency boots on the ground, fewer personnel interacting with 
the communities that are most impacted by their actions. And 
when personnel live outside of the district, and work remotely 
40 or 50 miles from the forests, they have less knowledge about 
what is happening in the woods that they are supposed to be 
managing, and what is happening in the communities as well.
    The communities also lose the diversity of their community 
and suffer economic impacts when folks live and work elsewhere. 
And we have some great Forest Service staff in our communities, 
in the Mount Baker-Snoqualmie Forest in particular, but I would 
be interested to hear your thoughts and comments on this issue, 
which is a growing disconnect across our country.
    Mr. Tidwell. Well, I share your concern. It is one of the 
benefits of our agency being decentralized and where we have 
decisions made at the lowest level that are closest to the 
communities. It has been the history of the agency of 
consolidations, but we go to great lengths to try to minimize 
those. But as I mentioned earlier, the impact of paying for 
fire suppression, and this has occurred over time, it hasn't 
happened in just a couple of years, but over the last, really, 
15 years it has had a devastating effect on our staffing 
levels, and it has resulted in where we have had to consolidate 
more and more offices, at the same time trying to be able to 
keep our presence in communities. We go to great lengths that 
each time there is a reduction under my watch, I have made sure 
that all levels; the Washington office also goes down. We have 
just completed some efficiency works where we reduced over $100 
million out of our fixed costs to do everything we can to make 
sure we can fund the staff we have out in the field. But this 
is a reason why we need to find a solution to the fire 
suppression issue. And I appreciate your support on that.
    We are going to go to great lengths to try to keep our 
presence in all these communities, and I would much rather see 
a reduction at the other levels of the organization, and at the 
same time, be able to maintain the folks that are out there in 
the communities, the people that are out doing the work on the 
ground. And so that is going to continue to be my focus.
    Ms. DelBene. Thank you. Yes, in terms of fire funding, I 
totally agree and understand we need to have a better solution 
with that. And, in fact, in Washington State, last summer's 
fire season included the largest wildfire in our state's 
history.
    The University of Washington estimates that wildfires in 
the Pacific Northwest will nearly double by the 2020s, and 
nearly triple by the 2040s as a result of climate change. And 
so we have a tough road ahead of us if we don't do a better job 
of making sure that we have funding available. It impacts trail 
maintenance and other types of things that are so important to 
folks being able to enjoy the forests.
    All right, one other question I wanted to ask you was, some 
in the timber industry and in our communities have begun to 
explore cross-laminated timber and I wondered if you could 
comment on the usefulness of this still-developing technology, 
and where you see its place in forestry and in the timber 
industry in the future.
    Mr. Tidwell. Well, the cross-laminated timber is what our 
Forest Products Lab worked to develop and pass all the tests. 
One of the benefits of this type of a product is that we are 
looking at being able to expand commercial buildings. Right now 
in this country, we are limited to about four stories at the 
most using wood, but with cross-laminated timber, it has the 
strength, and meets all the heat-resistant standards in this 
country so we could be using cross-laminated timber for 
buildings going eight to nine stories easily. And we actually 
have a competition to get some architectural firms working with 
engineering firms, to compete to see who would build a couple 
of examples for us. We are working with Canada on this. They 
are also interested in it too.
    The first mill is going to be in production by the third 
quarter of this year in Oregon, to actually start to produce 
this. But it is another benefit of being able to use the small 
diameter material. We have markets for the saw logs, but there 
is so much of this smaller material that needs to be removed to 
reduce hazardous fuels, et cetera, and these cross-laminated 
timbers, they take this smaller material, and they can use that 
to be able then to construct beams 30-40 long, that are 
actually stronger than, say, natural wood is. And so I am very 
optimistic that as soon as we are able to get some folks to 
build some buildings with this, that we will be able to expand 
this market, and be able to create another use, especially for 
this smaller diameter material.
    Ms. DelBene. Thank you. Thank you very much.
    My time has expired. I yield back, Mr. Chairman.
    The Chairman. I thank the gentlelady.
    I now recognize the gentleman from Georgia for 5 minutes of 
questioning.
    Mr. Allen. Okay. Well, thank you, Chief, for coming and 
appearing before the Subcommittee today.
    My former role in life was in the construction industry, 
and we did use a lot of laminated timber for large spans in 
gymnasiums and other facilities, which created these 
facilities. And so I look forward to continuing working with 
you and our industry on those types of applications.
    In my home State of Georgia, we have over 24 million acres 
in private forest, which I am told is the most of any state in 
the nation.
    I meet, and since I have been in Congress now for a little 
over 4 months, and we have met with a number of our timber 
folks. They have questioned--the first thing I should say is 
you have talked about funding today, but they have questioned 
the U.S. Forest Service management practices, which a lot of 
those management practices deal with preventing the outbreak of 
a fire. Are we where we need to be with the extent of 
management practices in the Forest Service to prevent these 
fires?
    Mr. Tidwell. Well, the treatments that we are putting on 
the landscape are producing the results we are looking for, but 
what we need to do is expand and accelerate the number of acres 
we are treating. That is where we really need to put the 
effort. We have done studies on our projects that are designed 
to reduce the threat of wildfire, and we have looked at 2,000 
cases, and over 90 percent of those 2,000 cases we have been 
able to produce the results to reduce the severity of wildfire. 
For that ten percent that has not, in most of those cases the 
problem has been that the project wasn't large enough. That is 
the thing that has just changed. With the fire activity that we 
are seeing today, the fire behavior we are seeing today, we 
have to be looking at much larger areas. Folks would look at 
maybe a 100 yards, 300 clearing was enough to stop these 
fires, but when we are looking at changing fire behavior, we 
have to be looking at thousands to maybe 10,000 acres at a time 
to reduce the amount of fuel in that landscape to change the 
severity. So that is the area that we want to continue to work 
on.
    So what we are doing is producing results. We just need to 
get more of it done.
    Mr. Allen. All right. Do you consult with the private 
industry as far as the techniques that we are using to prevent 
these fires because, again fire is a problem for our private 
industry folks as well?
    Mr. Tidwell. We do consult and work closely with them. In 
fact, we rely on the industry----
    Mr. Allen. Okay.
    Mr. Tidwell.--because without the industry, we----
    Mr. Allen. That is good.
    Mr. Tidwell.--we couldn't do the work----
    Mr. Allen. Good.
    Mr. Tidwell.--that needs to be done.
    Mr. Allen. The other thing we have going on in our 
district, which is near the Port of Savannah, is the new wood 
pellet----
    Mr. Tidwell. Yes.
    Mr. Allen.--industry. Are we doing what we need to do to 
promote that industry as far as marketing these pellets to the 
rest of the world?
    Mr. Tidwell. We are, but there is a need for more, and I 
would start with research. We have done research over the years 
to be able to look at pellets, about how to increase the BTUs 
in a pellet, also to look at how pellets are more durable, so 
especially if we are shipping them on barges across the 
Atlantic. And so we need to continue that work. Then the other 
challenge that we have is: the Forest Service is working with 
the states and with the industry to be able to answer the 
question around sustainability. We have been questioned that, 
especially with the pellet production there in the Southeast, 
is that truly sustainable forestry. And we are going to work 
with the states and with the industry to be able to demonstrate 
that so our European markets, they can be satisfied that, yes, 
this is sustainable forestry. And that is one of the things 
that we are working on right now, to make sure that we don't 
lose that very key market.
    Mr. Allen. Well, I can help you with that sustainable 
question----
    Mr. Tidwell. Yes.
    Mr. Allen.--because we have a lot of folks, a lot of 
friends in that business, and they can help you get answers to 
those questions. Thank you, Chief.
    And with that, I yield back the remainder of my time.
    The Chairman. I thank the gentleman.
    I now recognize the gentlelady from Arizona for 5 minutes 
of questioning.
    Mrs. Kirkpatrick. Thank you, Mr. Chairman.
    Chief, it is nice to see you here today. And in following 
along the line of sustainability, I was born in the timber town 
of McNary, Arizona. In fact, I spent most of my life living in 
the mountain forests of Arizona, and I have seen the change in 
wildfire. And, of course, about this time of year, we become 
very concerned about the horrific wildfires that we have had to 
endure in the last few years.
    And so I was happy to see in your written testimony that 
you acknowledged the Four Forest Restoration Project, which is 
an innovative collaborative approach to addressing forest 
health, and bringing back the timber industry. Recently, the 
Record of Decision was signed on April 17 for the initial 
environmental impact statement, but there have been stumbles 
along the way, as you know. I just wanted to reference a recent 
editorial from the Arizona Republic, and, Mr. Chairman and 
Ranking Member, I would like it added to the record. It 
addresses some of the changes and--that this is going to--the 
good things that are going to happen out of this, but also some 
of the challenges that we face.
    The Chairman. Without objection.
    [The information referred to is located on p. 91.]
    Mrs. Kirkpatrick. Thank you. And so my question to you, 
Chief, is do you think Good Earth Power, who now has the 
contract, will be able to perform the task orders that have 
been issued in the time frame of the task orders, and what 
accountability will there be for them?
    Mr. Tidwell. Well, just this past week, our staff has been 
meeting with Good Earth and asked these questions. And it was a 
tremendous success to be able to get this EIS completed. I 
cannot thank the partners, the communities enough that have 
worked so closely with us to be able to do this kind of 
historic document. But now is the time to go to work. And so I 
am cautiously optimistic. There are task orders that have been 
issued, and we will hold Good Earth accountable, like we do all 
of our contractors. And at the same time, because of the size 
of this EIS, there is more work now that it has been approved 
than was required with Good Earth's contract. So we are also 
going to be moving forward with issuing task orders to other 
purchasers in that area too so that, not only Good Earth can be 
moving forward, but we can also get some more work done.
    The reason we are able to do this, it goes back to the work 
that was done under the previous stewardship contract where we 
treated over 300,000 acres in your state to be able to 
demonstrate not only the benefit of this type of treatment, but 
to build the trust in the community. It is one example of 
where, through these collaborative efforts, we can bring people 
together and then take on doing an EIS that covers over 565,000 
acres with one document, but doing this, at a minimum, it 
probably eliminates anywhere from 30 to over 50 EAs and EISs 
that we normally would have done to be able to do that same 
type of work. And so it is essential that this is successful, 
and we are going to work very closely with Good Earth. And 
everything they have told us is that things look very good as 
we move forward.
    Mrs. Kirkpatrick. Well, thank you for that. And this is 
very important to my office, and so we continue to have our 
discussions with the stakeholders and with Good Earth. We will 
be watching for those logging trucks on the highways in the 
next month or so. And it is too bad, I mean one of the problems 
has been we lost a generation of loggers and timber people in 
Arizona, and that has been an additional challenge.
    So I would like to close with inviting you to come visit my 
district in the next few months. We would love to be on the 
ground with you and go to some of those sites.
    I yield back. Thank you.
    The Chairman. The gentlelady yields back.
    I now recognize the gentlelady from New Hampshire for 5 
minutes.
    Ms. Kuster. Thank you very much, Mr. Chairman. And thank 
you too, Ranking Member Lujan Grisham. And thank you to Chief 
Tidwell for being with us today. We appreciate the time. I am 
very grateful for the work that you do, and to your Forest 
Service staff in New Hampshire and the work that we are focused 
on.
    I want to share with you are some concerns with you, though 
we may have to leave for a vote soon so I am going to just cut 
to the chase. I am usually much more polite. The question is 
from recent conversations. I meet with my timber and lumber and 
landowners frequently, and they were expressing a great deal of 
frustration that their forest management plans were not living 
up to their goals. And as I was listening to them, it just felt 
like a disconnect. Sometimes around here you will get one 
version from one group and another version from another, but it 
seemed that the forest management plans didn't necessarily 
reflect the reality of what is happening, or what, frankly, 
could happen on the ground. And so I realize that there are 
budgetary and other constraints keeping the Forest Service from 
getting closer to meeting the timber harvest goals, but my 
concern is a little bit different, and I would love your 
response to it. I am wondering if whether the forest management 
plans aren't based on formulas or guidelines that don't take 
into the reality on the ground; location, ease of access, 
species distribution, land use goals, and that really what--I 
am an attorney, we call that a meeting of the minds that we 
don't have a meeting of the minds laid out in that plan, and 
then we end up with these divergent expectations, and peoples' 
goals are not being met. Could you comment, and is there 
anything that we could do to get people closer to actually 
having an understanding of the amount of timber that we can 
harvest from the land in a sustainable way?
    Mr. Tidwell. Well, one of the things we need to do is 
revise many of our forest plans. There are over 65 forest plans 
that are way out-of-date. And part of that is that, when we 
went through the first phase of planning, we looked at 
everything we wanted to do, and it was like there were no 
budget constraints. And we would actually lay out expectations 
about all the work that needed to be done, and we had a caveat 
in all of them that said, based on availability of budgets. 
Well, that all got kind of lost. And so as we go through with 
our new planning rule, one of the things we changed is we want 
to talk about what realistic expectations, what needs to be 
done and what it is going to take to be able to do that, and to 
be able to project with some certainty the level of outputs 
that are going to be produced year-in-year-out based on some 
realities, so that industry can use that to be able to make 
business decisions, individuals can take that to make business 
decisions, whether it is with recreational businesses or 
whether it is with timber, or whatever. That is part of it. But 
that being said, your forest, like all the other states that 
are represented here today, there is a need of for us to be 
doing more work there.
    For New Hampshire, I have to be careful when I use the term 
restoration because they understand what that means, from when 
these forests were acquired back in the early 1900s, they 
understand restoration and the importance of that.
    Ms. Kuster. One hundred years ago we almost lost the 
forest----
    Mr. Tidwell. Yes.
    Ms. Kuster.--completely, so we know.
    Mr. Tidwell. You get that.
    Ms. Kuster. Yes.
    Mr. Tidwell. But there is a need for us to do more. And in 
your state, again, it is a place where, talking with the Forest 
Supervisor, he feels that the Good Neighbor Authorities are 
going to be an opportunity for him to bring some additional 
capacity by working with the states and with partners to be 
able to actually get more of that work done, to produce that 
mix of benefits which includes a need for increased timber 
harvest in your forest, to be able to maintain that health, 
keep the recreational settings which are so important to your 
state and on that forest, but at the same time, be able to 
maintain forest health, forest resiliency.
    Ms. Kuster. Well, thank you. And I want to extend my own 
invitation. You could do an East Coast-West Coast tour, but we 
would love to have you to New Hampshire. And just to 
acknowledge the comment from my colleague from the South, 
bioenergy chips and pellets, it is a big part of our landscape 
now, we want to create jobs, we want to have sustainable 
forests, but we want to make sure that we are getting what we 
can out of the forests for energy and all other purposes. So 
thank you very much. I appreciate your help.
    And thank you, I will yield back.
    The Chairman. I thank the gentlelady.
    I just want to make Members aware, and our second panel. I 
misspoke. We, unfortunately, had an unanticipated second 
procedural vote. There are about 9 minutes--8 minutes on the 
clock, so we have some time and so we are going to continue to 
proceed here.
    I now recognize the gentleman from Illinois for 5 minutes.
    Mr. Bost. Thank you, Mr. Chairman.
    Just a real quick question, because I noticed in your 
written testimony, and when we were looking that over, and you 
may not know the answer to this but if you can find it out, one 
of the things you talked about was a specific project. It was a 
Kinkaid Reeds Creek Project. And I am very, very familiar with 
that, and as a matter of fact, I was around when the lake was--
I was around driving with my grandfather in a truck when the 
dam was built for that, okay? And when it was built, we knew 
that the watershed was a very quick watershed, and it is a very 
deep lake, but the project that you worked on is a silting on 
the north end. Are you familiar enough with the project, 
because what I am going to ask--and if I can't get that answer 
today, I would like to get it in writing. I know you are 
working with the different groups to try to stop the silting 
from coming in. Is it to the point that you have slowed it 
enough, and if it is not slowed enough, can it be slowed enough 
that then we can dredge that north end, and take the depth of 
that particular water reservoir back to where it was. The 
water's depth is good now, but we need to make sure that we get 
it back down to the depth, and I didn't know if we were to that 
point or not.
    Mr. Tidwell. I will have to get back to you on that. I do 
know that we are implementing some additional projects this 
year. We have approved the funding, working with NRCS and some 
other partners up there, so they are doing some more 
stabilization work to reduce the sediment. So I will get back 
to you about when we will be to that point, where the dredging 
can occur, but----
    Mr. Bost. Okay.
    Mr. Tidwell.--we are moving forward with some additional 
projects this year.
    Mr. Bost. Yes, that particular one I do want to compliment 
you because we knew when the lake was built, the conversations 
was the watershed was so fast, matter of fact, the engineers of 
the lake told my grandfather at the time, someone said how long 
do you think it will take the lake to fill, and they said, 
``Well, it will take about 5 years,'' and he said, ``It will 
fill this spring,'' and it did.
    Mr. Tidwell. It did?
    Mr. Bost. It did.
    Mr. Tidwell. Wow.
    Mr. Bost. That is how fast of a watershed it is: everything 
from farming practices to what the Forestry Service has done as 
well, and so thank you. And just if you can let me know, thank 
you.
    Mr. Tidwell. Okay, we will do that.
    The Chairman. Does the gentleman yield back?
    Mr. Bost. I yield back, Mr. Chairman.
    The Chairman. All right. Well, I want to take the 
opportunity to ask an additional question, and provide an 
opportunity to other Members to keep an eye on the time clock, 
that is all I would ask, in terms of getting in for votes.
    Chief, you put a lot of value in terms of the tools that 
retain receipts for restorative work has had, and the numbers 
show that out. And I do appreciate the trend overall in 
harvesting, but I really want to focus in on the greenstick, 
and I wanted to focus in on how the restoration has an economic 
benefit, there is no doubt about it, in terms of local jobs on 
those projects. The lifeblood, economically, of our communities 
where we have National Forests is in good timber harvesting. 
And you know that. You know that better than I do. And even on 
the Allegheny, we have gone--and these are general numbers, I 
looked at them yesterday. When I was first elected, my first 
term was serving as Ranking Member with Mr. Holden, who was the 
chair, we were somewhere around 13 million board feet total, 
and the total cuts have gone up every year, and we are at 30 
million board feet--38 million this past year, and we are 
somewhere around 13-14 million just in the first quarter of 
this year.
    But my concern is, of last year's number of 38 million 
board feet, which is going in the right direction, there were 
only about 12 million board feet, 12 to 13 million, that 
actually were greenstick. They were actually the kind of timber 
harvesting that makes big differences economically, and on a 
larger landscape perspective. So if that is the case, and the 
President's plan--within your testimony, you talked about how 
the plan to go from 2.9 billion board feet to 3.2 billion board 
feet, and that is addressing wildfires and there are issues out 
there, but my concern is we have to do balanced here because we 
are leaving our rural communities behind and we are just 
crushing them. We have schools that had received hundreds of 
thousands of dollars, are down to like maybe $80,000. It is not 
good. So my question is, to retain receipts, and we don't give 
you the authority to do that, restorative is all we do now, we 
don't do it on the greenstick. I don't know if there is a 
better way to describe that. That is the words I use. It is 
interesting, we do provide the Corps of Engineers authority to 
have retained receipts for greenstick harvesting, and so we 
have a precedent, but we have not done that for our Forest 
Service to keep at least part of that money on the forests so 
that we are paving the way to more good productive timbering 
that helps everybody. It helps our National Forests, obviously, 
but it also helps our rural communities.
    So I wanted to get your response to that. If retained 
receipts was a good thing for restorative, do you see a reason 
why, and this authority would have to come from Congress, 
obviously, you don't have that today, but do you see that would 
be a tool that would be helpful? It has obviously helped 
restorative harvesting timbering increase significantly.
    Mr. Tidwell. Well, if you look at the work we have done 
with stewardship contracts where we have the ability to retain 
those receipts and be able to get more work done, is an example 
of----
    The Chairman. Exactly.
    Mr. Tidwell.--some of the benefits of that you mentioned 
our salvage sales, we are able to kind of retain the receipts 
off the salvage, to have a salvage sale fund to be able to do 
that work.
    A lot of our funds from our green timber sales, I mean part 
of it goes into the KV Fund to be able to do the work to 
restore, replant the forest when we need to do that. Part of it 
goes into the 25 percent fund that goes to schools. There are 
definitely----
    The Chairman. But all those----
    Mr. Tidwell.--benefits----
    The Chairman. But all those pass hands. They go back to the 
black hole of Washington and then come back out to the 
communities, or to the states first, but----
    Mr. Tidwell. Yes, that is one----
    The Chairman.--then to the communities.
    Mr. Tidwell. Yes.
    The Chairman. Yes.
    Mr. Tidwell. Yes. If you look at what we have been doing 
with stewardship contracting, and the level of support that 
when we do a project with stewardship contracting, overall we 
just have generally more support for the work because we do a 
mix of work, we are able to retain the receipts to be able to 
do the restoration work. With the Good Neighbor Authority, we 
will be able to do something similar with those agreements with 
the state, to be able to demonstrate how we can do that to 
reinvest. So those are just a couple of examples to answer your 
question.
    The Chairman. Okay. I see retained receipts as one of the 
things we need to be looking at so that we are reinvesting.
    Ms. Lujan Grisham. If I may?
    The Chairman. I now recognize the Ranking Member.
    Ms. Lujan Grisham. Because we are voting, I don't think 
that you are going to have an opportunity to respond, so I 
apologize, but maybe you could get back again to the Committee 
and my office. Recognizing that the Federal Government has a 
responsibility to support Indian Nations to help maintain a 
healthy forest, and that that is not something that falls to 
you directly, the reality is that in spite of about a $2.82 per 
acre versus $8.57 an acre that you receive at USDA, some of 
those Tribes are able to maintain actually healthier forests 
than their nearby neighbors in those states, even given that 
funding disparity. The disparity is wrong, and if we care about 
investing in healthy management of our forests, we have to 
invest in our Tribal partners.
    And given that, I would love for you to talk to me about 
what you could do to create those collaborations, those 
partnerships to weigh-in to make sure the Tribes have every 
potential resource, benefit, aspect, collaboration. It is all 
about responsibility to make sure that they have the resources 
that they need to do their jobs effectively.
    Mr. Tidwell. Yes.
    Ms. Lujan Grisham. Okay.
    Mr. Tidwell. Well, it is part of our responsibility to be 
able to work with the Tribes not only to ensure protection of 
their cultural, spiritual values, but at the same time when it 
comes to forest health. We have many projects where we are 
working together collaboratively. In your state, Pueblo of 
Isleta is one example where we have a CFLR project we are 
working on.
    Ms. Lujan Grisham. Zuni Mountain and Southwest Jemez 
Mountains, and some of those work, and some of those haven't 
quite been as effective, and some of those relationships may 
not be as strong and----
    Mr. Tidwell. Okay.
    Ms. Lujan Grisham.--sound as they ought to be, quite 
frankly.
    Mr. Tidwell. I think that your examples are more work that 
we need to do. And it is one of the things we are trying to 
work very closely with the Tribes on. Also we are doing some 
work with the Mescaleros right now to be able to help them to 
get their mail retooled and back up. But I would be glad to 
provide you with a list of the things that we are doing, and 
then, even more importantly, the things that we are moving 
forward on, where we recognize we need to be doing more to work 
closer with our Tribes.
    Ms. Lujan Grisham. Thank you, Chief. I appreciate that so 
much.
    I yield back, Mr. Chairman.
    The Chairman. The gentlelady yields back.
    We are going to go for votes. We will reconvene immediately 
after this vote. We will come right back.
    So the Committee stands in recess, subject to the call of 
the chair.
    [Recess.]
    The Chairman. All right, this Subcommittee on Conservation 
and Forestry hearing is reconvened. And once again, I apologize 
for the unanticipated interruption.
    I am pleased to welcome our second panel of witnesses to 
the table. Ms. Sue Swanson, Executive Director of the Allegheny 
Hardwood Utilization Group, from Kane, Pennsylvania. She is a 
timber family with her husband, working within the industry, 
and I really appreciate your leadership on this issue for a 
long time, and we will put it that way. And also we are joined 
by Ms. Becky Humphries, Chief Conservation Officer of the 
National Wild Turkey Federation, from Edgefield, South 
Carolina. And I will yield to the Ranking Member for the 
purpose of introduction of a proud New Mexico resident.
    Ms. Lujan Grisham. Mr. Chairman, that is very kind. And I 
was going to thank Ms. Laura McCarthy, who is the Director of 
the Conservation Programs at The Nature Conservancy in Santa 
Fe, New Mexico, which, unfortunately, is not in my district, 
but where I grew up, and has had a great influence on many 
projects not only in my district, but the health of so many 
issues, and forests and conservation issues across the state. 
And I just want to thank you for your work with my office, and 
I am very gratified that you are here today. Thank you so much. 
And thank you, Mr. Chairman.
    The Chairman. All right. Now, we will proceed.
    Ms. Swanson, go ahead and proceed with your 5 minutes of 
testimony whenever you are ready.

   STATEMENT OF SUSAN SWANSON, EXECUTIVE DIRECTOR, ALLEGHENY 
           HARDWOOD UTILIZATION GROUP INC., KANE, PA

    Ms. Swanson. I forgot to press the button. Should have 
known. And the Federal Forest Resource Coalition. I really 
appreciate the opportunity to talk to you about our National 
Forest, which is the Allegheny. The Allegheny is our largest 
landownership block in our region at 513,000 acres, which is 
really small compared to a lot of your National Forests. But 
the management of that forest is vital for the future of the 
forest products industry.
    The Allegheny, like many National Forests, is not really 
contributing to where we would like it, and able to support our 
local economy, and meet the goals that are actually laid out in 
our forest plan. After years of timber sale litigation, the 
plan actually set some very modest goals. For example, the goal 
for regeneration harvest is 1,700 to 2,500 acres per year. And 
in the first 6 years of implementation, the forest has only 
averaged 500 acres of regeneration harvest. So you can see that 
that isn't going to get us where we need to go. And the result 
of that is we have very much less early succession forest than 
what we would like to have. Over the last 5 years, timber 
outputs for the forest have declined by about 11 percent, and 
in addition to that, 40 percent of our outputs is in lower 
value timber rather than the valuable saw timber that drives 
our forest products economy.
    Pennsylvania is known for its high quality hardwoods, and 
the Allegheny has always been in the center of that. At least 
it has in the past. It seems to us that the problems are sort 
of two-fold, probably more than that, but I am going to speak 
to two. Initially, when the forest draws up plans to work on 
projects, and they would actually meet forest plan objectives. 
Then, after lengthy NEPA and surveys, layer upon layer, the 
projects are actually diminished, and in some cases, in the 
end, they don't actually meet the objectives that were laid out 
in the first place. And generally, they have marginal economic 
value for timber producers. The goal of a diverse healthy 
forest ecosystem is often compromised.
    Second, the forest, because of litigation, has decided the 
best approach to management is to try to develop projects that 
would draw no objections. This tendency to kind of assume that 
collaboration must mean unanimous, gives management groups 
power over them, whether they appeal or not. And we have 
actually seen where our forest didn't use the new authority 
that they were given under the insect and disease designation. 
We would like to see them do that. We have Hemlock woolly 
adelgid in our state, we have the Emerald Ash Borer, and we 
would have liked to have seen them use it on those things. And 
we hope that they will, but they are a little afraid to be the 
first one in the East to actually use that.
    At the end of the day, we have an aging forest that is 
starting to show serious signs of decline. Instead of 
regeneration of commercially valuable species, we are focusing 
on thinning, older stands. Professional foresters talk about 
the need to continue to change the stand composition. It is 
like prescribing vigorous exercise to nursing home residents. 
Something is probably going to happen, but I don't know if it 
will be good.
    In my written testimony, we made some recommendations about 
further legislation. The farm bill and the things that you have 
done we really appreciate, but it does encourage collaboration, 
it expedites analysis, and it reduces gridlock, but the real 
need is to clarify the management mandate on National Forests. 
Go beyond giving them permission to manage, and start providing 
direction for them to manage. I would like to see a trust 
approach to relatively small portions of the National Forest 
designated for timber production. It would be a good starting 
point. Let's manage those areas that we really are supposed to 
manage. Federal Forest Resource Coalition stands ready to help 
the Forest Service and you to do that. We would like to find a 
better way.
    [The prepared statement of Ms. Swanson follows:]

  Prepared Statement of Susan Swanson, Executive Director, Allegheny 
               Hardwood Utilization Group Inc., Kane, PA
Expanding Active Management on the National Forest System: An 
        Imperative for Rural Community Prosperity
    Good morning, Chairman Thompson and Ranking Member Lujan Grisham. I 
am Susan Swanson, Executive Director of the Allegheny Hardwood 
Utilization Group. AHUG represents forest products companies who depend 
upon the hardwood resources of the Allegheny Plateau in North West and 
North Central Pennsylvania. In the 14 county region where we work to 
promote better utilization of our incredible hardwood resource, the 
Allegheny National Forest is the largest single landowner, with over 
513, 000 acres in Elk, Forest, McKean and Warren Counties.
    I'm also here today representing the Federal Forest Resource 
Coalition. FFRC Members including AHUG, along with partners in 32 
states, speak for the more than 650 companies and more than 390,000 
workers who rely, at least in part, on reliable supplies of timber from 
the National Forest System.
    The Allegheny, like many National Forests, is performing 
substantially below its potential to support the local economy and to 
meet the wildlife and recreation goals laid out in our relatively 
recent forest plan. For instance, the Forest Plan set modest goals for 
``early successional'' or young forest habitat, calling for 
regeneration harvests on 1,700 to 2,500 acres annually. In the first 6 
years of the Forest Plan implementation, the Forest has instead 
conducted an average of less than 500 acres of regeneration harvest. As 
a result, the Forest has less than half of the early successional 
habitat called for in the Forest Plan. The rest of my testimony will 
focus on the root causes of these problems, and suggest steps Congress 
can take to correct them.
    Management Dynamics on the Allegheny: We've found over time that 
the ANF begins work on forest management projects that would move 
towards the goals laid out in the Forest Plan. After extensive 
analysis, however, these projects are incredibly diminished and in fact 
no longer accomplish the goal they were intended to produce. Projects 
are revised to eliminate road construction and removal harvest, making 
it virtually impossible to accomplish the forest plan goals. In fact, 
we now have less early successional habitat than we had in 1983, when 
it was first identified as a forest plan goal.
    Some of these problems can be attributed to a revolving door at the 
Forest Supervisor and other staff positions. We've experienced rapid 
and sustained turnover in forest staff over the last decade, and in our 
view staff don't commit to a particular direction because they fear a 
new supervisor will change the priorities unexpectedly. It seems this 
fluid leadership situation leads to missed opportunities, such as the 
recent Farm Bill Insect and Disease Authority. This new authority is 
perfectly suited to the myriad insect and disease issues facing the 
ANF; the Hemlock Woolly Adelgid is beginning to appear, threatening 
these important streamside forests, while the Emerald Ash Borer is 
threatening our valuable ash resource. We've also struggled with gypsy 
moth and other pests over the years.
    Yet, the ANF has not proposed a single new project under this 
authority, in spite of USDA's agreement to designate nearly the entire 
forest as a treatment area. Early on, the Forest staff seemed to 
believe that the Farm Bill Insect and Disease treatment areas 
provisions did not apply to them. FFRC and AHUG had to provide 
extensive background material to convince the Forest that they were 
eligible for these designations.
    As we understand it, although over 45 million acres were designated 
as Insect and Disease Treatment Areas nationwide, the Forest Service 
has only begun work on some 5,700 acres under this new authority. At 
this pace, it will take over 7,800 years to manage all of the 
designated areas. This is unacceptably slow.
    Add up these dynamics: a tendency to reduce the scope of proposed 
projects, instability in the Supervisor's office, and a tendency to 
find reasons not to do needed management, and we wind up with an aging 
forest that is starting to show signs of decline. Instead of 
regenerating commercially valuable species while providing needed 
early-successional habitat, the Forest focuses on thinning older 
stands. I am not a professional forester, but the foresters I talk to 
say this makes little sense. The ANF is not a fire-adapted forest, so 
thinning doesn't address a pressing need.
    Moreover, we've found that residual trees in these thinned stands 
wind up producing damaged wood, with imperfections in the appearance 
grade lumber that our industry relies on. With many stands approaching 
the end of their growing life spans, it's not clear what the Forest 
expects to achieve with these thinnings. It is the equivalent of 
prescribing vigorous exercise to nursing home residents. Something is 
going to happen, but it probably won't be good!
    Over the last 5 years, timber outputs from ANF have declined by 
some 11%, and less than 40% of the timber sale program is made up of 
the valuable sawtimber that drives our forest products economy.
    Many other eastern National Forests are well behind on their early 
successional management goals, limiting opportunities for sportsmen, 
birdwatchers, and other forest users. Forests in West Virginia, 
Tennessee, and Louisiana are either substantially behind on creation of 
early successional habitat, or have not posted forest plan monitoring 
reports in several years.
    Declining forest health, a forest management program that doesn't 
produce needed sawtimber or needed wildlife habitat. This is not a 
recipe for success going forward.
    In addition, we now have a listed species, in the Northern Long-
eared Bat (NLEB). Like other bat species, the NLEB is experiencing 
rapid population declines due to an introduced, non-native wildlife 
disease called White Nose Syndrome. This fungus disrupts bat 
hibernation and can cause up to 95% mortality during the winter months. 
The U.S. Fish and Wildlife Service has said that the NLEB is a ``forest 
generalist,'' that is, it doesn't depend on a specific age class or 
forest type. However, with the recent designation of the bat as a 
threatened species, we now do not know whether the Forest Service--or 
private landowners for that matter--will be able to manage our forests. 
This is in spite of the fact that the FWS acknowledges that WNS is the 
sole factor causing the species decline.
    This is not a factor affecting just the ANF; the bat's range covers 
32 states, as far west as South Dakota and Wyoming, and as far south as 
Alabama. It seems counter productive for U.S. Fish and Wildlife Service 
to spend any time and effort policing forest management instead of 
focusing on finding a cure for White Nose Syndrome.
    Local Problems Demand National Action: The health of our nation's 
forests continues to decline and Federal forests are most at risk due 
to overstocking, disease, drought, insect infestations and catastrophic 
wildfires resulting from a lack of sound management. In fact, the 
Forest Service classifies 60-80 million acres of National Forest land 
as being overstocked and at particular risk.
    In much of the National Forest System, litigation-driven declines 
in timber outputs have forced mills to drop shifts, laying off hard 
working lumber mill employees even while lumber markets have largely 
recovered from the 2009-2011 recession. Declining timber outputs have 
translated into reduced forest health, increased rural poverty and 
unemployment, and increased dependency on guaranteed payments under the 
Secure Rural Schools program.
    The Allegheny National Forest saw significant litigation over our 
Forest Plan and various timber projects in the mid-2000's. Since the 
Forest Plan was adopted in 2007, we've still seen significant 
litigation, but most of it has been focused on oil and gas development. 
The forest still operates under the analysis paralysis that decades of 
litigation and court-imposed NEPA requirements has created. 
Litigation--both locally and against the larger National Forest units 
in the West--saps resources needed to plan the projects needed to 
maintain healthy, diverse forests.
    The reality is that activist litigators only directly challenge 
timber sales in a few portions of the National Forest System. 
Unfortunately, because of their aggressive tactics in areas like 
Montana, Oregon, Alaska, and parts of California, the agency has been 
forced to adapt to court-imposed analytic standards which drain 
resources, staff, and time from other forests which do not suffer 
frequent challenges. Even after eventually prevailing, as the ANF did 
with our Forest Plan, we find an agency conditioned by litigation to be 
extremely cautious, to the point of foregoing opportunities to manage.
    All current efforts to use collaboration as the ``solution'' leave 
this court-imposed framework in place, and those who vehemently oppose 
all forest management can tie up and delay timber sales without having 
to participate in collaborative processes. They suffer no consequences, 
while those who work in good faith see their time and energy 
squandered. This does not encourage wider adoption of collaborative 
models of management.
    As you know, the health of our rural communities also continues to 
decline. While unemployment has declined in recent years, our National 
Forest Counties in Pennsylvania are among the poorest in the state. 
Over 24% of Forest County residents live in poverty, the second highest 
percent in the state, with McKean County close behind at 19%. Nearly 
40% of children in Forest County live in poverty. The four National 
Forest Counties in Pennsylvania average almost 17% poverty rates, 
substantially higher than the state average of 13.7%.
    It is not a coincidence that many of the counties with the highest 
unemployment and poverty rates in the country also happen to be those 
surrounded by Federal forests. Many of these rural communities have 
lost their forest management heritage; the skills necessary to work in 
the woods and help protect the communities themselves. I believe it 
will require decisive action by Congress if we want to restore the 
health of our rural communities and our Federal forests.
    Legislative Recommendations: AHUG and FFRC both appreciate the 
myriad new tools this Committee has provided to the Forest Service to 
expedite needed forest management. The 2014 Farm Bill provided numerous 
new authorities to speed up management and increase certainty of timber 
supply from the National Forest System. Yet as I have mentioned, the 
pace of implementation has been too slow to provide much optimism.
    I noted that the agency has only proposed 5,700 acres of work under 
the Insect and Disease Treatment Areas authority. Progress with other 
provisions has likewise been too slow. In January, the agency issued 
guidance on the designation by description authority that unnecessarily 
restricted it's use, rendering the provision nearly moot. Thus far, the 
agency has yet to ink a new ``Good Neighbor'' agreement, although the 
authority to work with the states was expanded to all 50 states in 
early 2014.
    As Congress considers legislation to restore sustainable management 
to our Federal forests, I would like to provide the following 
suggestions. These suggestions are based on the following assumptions: 
(1) securing significant increases in appropriations to fund current 
forest management approaches is unlikely under current and future 
budget realities; (2) Congress has a responsibility to the rural 
communities surrounded by our Federal forests; and (3) we must 
significantly increase the pace of forest management if we are serious 
about getting ahead of the forest health crisis.

    Principles of Reform:

  <bullet> A trust approach, focusing on the 23% of National Forest 
        acres identified as suited for timber production in current 
        forest plans, can provide stable funding on a trust-trustee 
        basis, while restoring and strengthening the overall multiple 
        use framework on Federal forests.

  <bullet> Clarify that timber production is the primary objective on 
        this relatively small portion of the National Forest System, 
        not one use among many.

  <bullet> Streamline NEPA analysis, ESA consultation, and judicial 
        review for projects conducted on lands designated for timber 
        production and/or for projects proposed by or designed in 
        consultation with local collaboratives.

  <bullet> Provide binding, baseball-style arbitration as the sole 
        dispute resolution mechanism for projects proposed by or 
        designed in consultation with local collaboratives.

  <bullet> Payments to forest counties should be linked to these 
        fundamental reforms to streamline the process of proposing, 
        analyzing, executing, and resolving conflicts over forest 
        management projects on Federal forest lands.

  <bullet> Transition counties to revenues produced by viable economic 
        activity on Federal forests, including substantial, sustainable 
        increases in timber outputs.

  <bullet> All forestry revenues generated on Federal forests, 
        including a portion of revenues from Stewardship contracts, 
        should be used to develop additional sustainable forest 
        management projects as well as to provide revenue sharing to 
        counties (including 25% of stewardship contract retained 
        receipts).

    If the Forest Service is unable to deliver these relatively modest 
economic returns to local communities and improvements to forest health 
then states or counties should be given the authority to plan and 
implement forest management projects.
    I appreciate the opportunity to appear before the Committee today. 
I would be happy to answer any questions you may have.

    The Chairman. Thank you, Ms. Swanson. I appreciate your 
testimony.
    Ms. Humphries, pleased to recognize you now for 5 minutes.

            STATEMENT OF REBECCA A. HUMPHRIES, CHIEF
           CONSERVATION OFFICER, NATIONAL WILD TURKEY
                   FEDERATION, EDGEFIELD, SC

    Ms. Humphries. Well, thank you very much, Mr. Chairman, 
Ranking Member.
    The National Wild Turkey Federation applauds the 
Committee's focus on active forest management. We have 230,000 
members across the country, and active chapters in each and 
every state of this country.
    With the successful restoration of the wild turkey across 
its range, we have refocused our efforts and are working on 
Save the Habitat, Save the Hunt initiative. This initiative is 
really geared at making sure that we are doing active forest 
management, and helping to improve that upland habitat that is 
so important for wild turkeys, as well as of other host of 
species, and also saving our hunting heritage that is so 
important.
    Wildlife managers and our wildlife biologists consider 
active management the best solution to meet habitat 
requirements of the largest variety of species, and create 
young forest habitat that provide for food, nesting habitat, 
and hiding places for wildlife. Throughout the United States, 
we are losing the diversity at a landscape level scale, 
threatening habitat for species like the Golden Wing Warbler, 
the New England Cottontail, the Gopher Tortoise, the Red-
cockaded Woodpecker, and many, many other species. We have a 
number of examples, but I will give you just three of them as 
we talk today. On the Oconee National Forest in Piedmont 
National Wildlife Refuge in Georgia, we and the U.S. Forest 
Service have actively managed over 21,000 acres of loblolly 
pine habitat to increase pine savannah and young forest habitat 
for endangered Red-cockaded Woodpecker. It has resulted in a 27 
percent increase in potential breeding pairs on that, as well 
as population increases for the Southern Flying Squirrel, the 
Bobwhite Quail, the wild turkey, and a variety of migratory 
songbirds. The management of healthy forests is made 
economically viable by the harvest and sale of forest products, 
including timber, and timber sales offset the cost of 
reforestation, invasive species control, prescribed fire, and 
timber stand improvements.
    Federal lands play a really vital role in maintaining 
healthy forests, in that they are resilient to the threats at 
this landscape level. Federal timber management keeps the mills 
open, it brings stability to the supply and demand market, and 
it provides local jobs, and we need those. Active management of 
our Federal forests reduces devastating wildfires, it reduces 
insect and forest diseases before those diseases can spread to 
adjacent state lands and private forestlands, and increases 
forest health and diversity.
    We really appreciate the authorities that have been granted 
in recent years by the Agriculture Committee to address forest 
health. The 2014 Farm Bill, as has been mentioned, has granted 
permanent authorization of stewardship contracting and Good 
Neighbor Authority. It has also established insect and disease 
area designations to the existing Wyden Amendment and 
Cooperative Forest Landscape Restoration Programs. These 
authorities can lead to healthier forests if they are 
implemented properly. The National Wild Turkey Federation has 
been the leader in stewardship contracting program, and we have 
partnered with the U.S. Forest Service on 81 forest stewardship 
projects in the last decade.
    A couple of these examples: In New Mexico, we worked on the 
Cibola National Forest, and it was part of the Blue Waters 
Stewardship Agreement. The National Wild Turkey Federation and 
our partners, including the Mount Taylor Machine Sawmill, have 
provided matching funds to the project which has expanded a 
number of treated acres by over 20 percent in that particular 
area. The work makes the forest healthier, it supports a small 
community of Milan, New Mexico.
    In another example, we also worked with Land Between the 
Lakes National Recreation Area in Kentucky and Tennessee. 
Following a damaging ice storm, we restored access to over 
170,000 acres by facilitating multiple logging contracts to 
open the roads and clean up debris, and our stewardship efforts 
continue to work on almost 6,000 acres each and every year 
there.
    Despite all this, we need to move forward and have more 
progress made on active management. So I offer the following 
suggestions. First, we need to help the agencies expand 
collaborative efforts in the early stages of the process, and 
that means talking about the benefits of active management 
needed to carry out those in order to get the desired future 
condition. It needs to start at the beginning, not at the end, 
as was mentioned. We need to work at the landscape level to 
achieve broad benefits, and that means working across ownership 
patterns. Not only the various Federal agencies, but also the 
state agencies and local. We need to solve the fire-funding 
program, which has been brought up numerous times today. The 
situation currently is just unacceptable. We need to encourage 
Federal agencies to use all available tools and all available 
authorities, and that includes the use of categorical 
exclusions.
    I would like to close by saying the Committee has done 
great work. We stand ready to help both the National Forest 
System and this Committee as we move forward, and look to 
active management to make our forests healthier and sustainable 
in the future. Thank you.
    [The prepared statement of Ms. Humphries follows:]

Prepared Statement of Rebecca A. Humphries, Chief Conservation Officer, 
             National Wild Turkey Federation, Edgefield, SC
    Mr. Chairman, Members of the Subcommittee, I am Becky Humphries, 
Chief Conservation Officer of the National Wild Turkey Federation, and 
I appreciate the opportunity to testify on the issue of active forest 
management. Founded in 1973, the National Wild Turkey Federation is a 
national nonprofit wildlife conservation organization dedicated to the 
conservation of the wild turkey and preservation of our hunting 
heritage. The National Wild Turkey Federation is 230,000 members strong 
and maintains local chapters in every state. With the successful 
restoration of the wild turkey complete, the National Wild Turkey 
Federation has focused its efforts on our ``Save the Habitat, Save the 
Hunt.'' initiative, which connects both parts of our mission by 
recognizing the importance of quality habitat for wildlife conservation 
and our hunting tradition. Through this initiative, our ``Save the 
Habitat'' efforts are largely focused on creating and maintaining 
healthy forests through active management.
    Professionally trained wildlife biologists know that forest 
diversity at the landscape level is the key to proper management to 
achieve species diversity and robustness. There are four fundamental 
criteria each forest species needs for survival: food, water, shelter, 
and space. Depending on how a forest is managed, various amounts of 
these criteria become available to the animals living there. Wildlife 
managers consider active management the best solution to meet the 
habitat requirements of the largest variety of species. Active 
management creates young forest habitat, which provides adequate food 
sources, nesting habitat, and hiding places for forest wildlife. 
Throughout the U.S. we are losing this diversity on a landscape-level 
scale, in many cases because our forests are becoming more homogenized 
and over-mature. The U.S. Forest Service and the Natural Resources 
Conservation Service have recognized the need for young forest habitat, 
and they provide funding and guidance to provide such habitat for 
threatened and endangered species such as the golden-winged warbler, 
New England cottontail, gopher tortoise, and red-cockaded woodpecker. 
These benefits extend to numerous other species of wildlife, and result 
in a greater diversity of plants and animals.
    The National Wild Turkey Federation's work on the Oconee National 
Forest and the Piedmont National Wildlife Refuge in Georgia provide an 
example of these benefits. From 2007 through 2012 the National Wild 
Turkey Federation worked with the U.S. Forest Service and the U.S. Fish 
and Wildlife Service to actively manage over 21,000 acres of loblolly 
pine habitat on these Federal lands. The primary objective of the work 
was to increase pine savannah and young forest habitat to improve 
habitat for, and reduce wildfire risk to, the endangered red-cockaded 
woodpecker. This was achieved through timber harvest, the removal of 
invasive, exotic plant species, and an increase in the use of 
prescribed fire. As a result of the extensive sustainable forest 
management practices employed during this project, the number of 
potential breeding pairs of red-cockaded woodpeckers in the project 
area increased by nearly 27%. In addition, habitat improvement and 
population increases were noted for other species including the 
southern flying squirrel, bobwhite quail, wild turkey, and a variety of 
migratory songbirds. Long-term maintenance costs and threat of 
wildfire, forest pests, and disease were also reduced through these 
efforts.
    The management of healthy forests is made economically viable 
through the harvest and sale of forest products and timber, which help 
offset the costs associated with other forest and wildlife management 
activities such as reforestation, invasive species control, prescribed 
fire, timber stand improvements, etc. Without the funding that 
sustainable forest management provides the landowner (including the 
Federal Government), we are likely to see less forest management, 
which, in turn, will exacerbate the problems of wildfire, decreased 
forest health, endangered species, and water quality. Additionally, 
without the revenue that active forest management provides, we are 
likely to see increased land conversion to non-forested uses and the 
loss of the basic operational capacity (i.e., loggers and mills) to 
accomplish on-the-ground, sustainable forest management that results in 
healthy, resilient forests important for a wide variety of ecological 
benefits.
    We can't rely solely on state and private lands to continue to 
supply the timber industry with the fiber necessary to meet our forest 
product needs. Our nation's Federal lands also play a vital role in 
maintaining healthy forests that are resilient to threats at a 
landscape level. In many areas of the country, Federal forestland has 
the potential to provide a consistent and reliable source of forest 
products to keep the mills open. Federal lands must provide a 
sustainable, long-term supply of fiber in order to reduce the 
disproportionate pressure and reliance on other ownership types. 
Achieving this balance will help regulate prices, help stabilize the 
supply/demand markets, and provide loggers and forest product companies 
the assurances they need to hire workers, maintain existing 
infrastructure, and reinvest in their operations. The sustainability of 
this industry is critical for us to economically maximize the benefits 
of a healthy forest and fight the threats of wildfire, insects, and 
disease. Furthermore, if the health and vitality of our Federal forests 
are not addressed, devastating wildfires and insect and disease 
epidemics will spread to adjacent state and private forestlands, 
thereby undermining other efforts to maintain healthy forests. Without 
the forest products provided by our Federal lands, the ability to 
manage for healthy forests across a landscape, regardless of ownership 
(i.e., Federal, state, or private), is severely threatened.
    Our current funding model for fighting catastrophic wildfires helps 
illustrate this point. Over the last 30 years the length of the fire 
season has increased by more than 2 months. In addition, the intensity 
of many fires has increased largely due to an increased fuel load that 
is a result of less timber harvested and reduced active forest 
management. During the same time period, the cost of wildfire 
suppression has increased an average of more than 22% annually and now 
accounts for \1/2\ of the U.S. Forest Service's annual budget. Hundreds 
of millions of dollars are spent annually to fight forest fires. 
Unfortunately, these fires often result in scorched earth that all 
agree is not good for wildlife, water quality, recreation, or local 
economies and jobs. Alternatively, we could and should increase the 
pace of sustainable forest management. Active forest management to 
prevent wildfires costs less than suppression and is proven to be 
extremely effective at preventing wildfire, as well as helping with 
fire containment and suppression efforts. By reducing the obstacles to 
sustainable forest management on our Federal lands not only can we 
reduce the likelihood of wildfires and the costs of fighting them, but 
we can also realize additional benefits of improved public safety, the 
protection of private and public property, quality wildlife habitat, 
improved water quality, fewer invasive species, enhanced recreational 
opportunities, and more robust local economies.
    The National Wild Turkey Federation recognizes and appreciates the 
authorities and tools that have been granted in recent years by the 
Agriculture Committee to expand the ability of Federal agencies to 
manage Federal forestlands. We believe that the 2014 Farm Bill, which 
many on this Committee were instrumental in passing, provides important 
tools aimed at streamlining processes, increasing multi-party 
collaboration, transitioning towards landscape-level (``all lands'') 
management, building capacity, improving watersheds, addressing forest 
health risks (e.g., fire risk and insect/disease infestations), and 
generally enhancing the pace and scale of management for healthy 
forests. The permanent authorizations of Stewardship End-Result 
Contracting and Good Neighbor Authority, along with the establishment 
of Insect and Disease Area designations in the 2014 Farm Bill are 
helpful additions to the existing Wyden Amendment and Cooperative 
Forest Landscape Restoration Programs. The specific focus of each tool 
varies, but all strive to increase the pace and scale of restoration on 
Federal lands by addressing contracting and process inefficiencies; 
dealing with specific ecosystem/forest health concerns within 
designated geographical units on public lands; allowing for 
coordination of management activities on Federal lands and adjacent 
private lands within a watershed; and enabling non-governmental 
organizations and state agency partners to provide additional resources 
through cooperative agreements for the mutual benefit of all parties. 
If utilized to their fullest extent, such programs and authorities will 
lead to healthier forests, which in turn will provide quality wildlife 
habitat, necessary economic benefits, and public recreational 
opportunities.
    The National Wild Turkey Federation has been a leader in the 
successful Stewardship Contracting Program. We have partnered with the 
U.S. Forest Service on 81 Stewardship End-Result Contracting projects 
in the last decade. All of these projects demonstrate the benefits of 
partnership and have resulted in sustainable forest management. For 
example, in New Mexico, the National Wild Turkey Federation is 
partnering with the U.S. Forest Service in the eastern Zuni Mountains 
of the Cibola National Forest on the Bluewater stewardship agreement. 
Since 2010, 5,000 acres have been treated to create a healthy, 
resilient forest by reducing the timber density of the stand, and in 
turn improving the future ability to proactively manage the forest with 
fire. This both decreases future fire risk in the area and creates 
quality habitat for the wild turkey and other wildlife. The National 
Wild Turkey Federation and our partners, including the sawmill Mount 
Taylor Machine, have provided matching funds to the project which has 
expanded the number of treated acres by 20 percent. Mount Taylor 
Machine almost exclusively receives its product from the National 
Forest and without this project likely would have been forced to close, 
putting their 35 employees in the small community of Milan, NM out of 
work. The project is so important to both the forest and the community 
that the Mount Taylor Machine has donated a portion of its hauling 
expenses to ensure the project can continue. The U.S. Forest Service 
acknowledges that without the National Wild Turkey Federation's 
capacity to administratively handle this project the work would not 
have been possible. The National Wild Turkey Federation has also 
participated in the Puerco Cooperative Forest Restoration Project that 
has collected necessary data for a landscape scale National 
Environmental Protection Act analysis that will allow for the expansion 
of similar forest management work in the western Zuni Mountains of the 
Cibola National Forest.
    The partnership opportunities provided by Stewardship End-Result 
Contracting allow the U.S. Forest Service to respond more quickly to 
natural disasters. In 2009 a catastrophic ice storm devastated much of 
Land Between the Lakes National Recreation Area in Kentucky and 
Tennessee. Through a stewardship agreement, The National Wild Turkey 
Federation helped restore access to the 170,000 acre recreation area by 
facilitating multiple logging crews to open roads and clean up debris. 
Since that time, our partnership efforts have continued, focusing on 
forest health and wildlife habitat by reducing forest density, removing 
invasive plant species, restoring native grasses and trees, and 
improving and maintaining access for visitors. Through the stewardship 
agreement, the local National Wild Turkey Federation chapter provides 
approximately $20,000 worth of in-kind services and nearly 600 hours of 
volunteer time annually, expanding the scope of work that could 
otherwise be accomplished using only Federal money. Together we 
accomplish nearly 6,000 acres of treatments annually.
    Despite these examples of progress, the National Wild Turkey 
Federation believes that many administrative policies and processes 
continue to slow the rate of implementation to an unacceptable pace, 
greatly increasing the cost of implementation. We encourage Congress 
and Federal agencies to continue their efforts to increase the pace and 
scale of sustainable forest management. To that end, we offer the 
following suggestions:

  <bullet> Expand collaborative efforts. Our experience with 
        Stewardship indicates that when all parties are at the table 
        early in the process, mutually determine the desired results, 
        and understand the role that timber harvest and active 
        management play in achieving that result, opposition to active 
        management is minimized.

  <bullet> Work at a landscape scale. Long-term benefits to healthy 
        forests and local communities will be easier to realize at a 
        broad scale.

  <bullet> Solve the fire-funding problem. Until Federal agencies are 
        freed from the burden of fighting catastrophic wildfire through 
        their annual budgets and the resulting ``fire-borrowing,'' we 
        will be unable to make meaningful progress towards proactive 
        forest management that will reduce the number, size and 
        intensity of wildfires.

  <bullet> Encourage Federal agencies to use all the tools and 
        authorities at their disposal to the fullest extent possible, 
        with maximum flexibility. Federal resource managers must be 
        empowered to apply the aforementioned tools wherever 
        appropriate in the most efficient manner possible to achieve 
        our collective forest restoration goals.

  <bullet> Arbitration instead of litigation. Litigation increases the 
        expense and delays the implementation of projects. The National 
        Wild Turkey Federation supports investigating other means of 
        dispute resolution such as arbitration for projects that fall 
        within the approved Forest Management Plan and have been 
        subject to National Environmental Protection Act review.

  <bullet> Expand the use of categorical exclusions. We support the 
        appropriate use of categorical exclusions under the National 
        Environmental Policy Act for management that is routine, 
        reoccurring, and with well-known impacts. Our Federal forest 
        managers have decades of forest management experience to 
        implement wise, sustainable forest management practices in a 
        much more streamlined manner.

  <bullet> Understand the potential negative consequences of limiting 
        forest management for the benefit of a single species. The 
        National Wild Turkey Federation is concerned that the forest 
        management restrictions contained in the Fish and Wildlife 
        Service interim 4(d) rule for the Northern Long-eared Bat for 
        example could have far reaching negative impacts on active 
        forest management. Additionally, these restrictions could be in 
        direct conflict with prescribed management for other wildlife 
        species of concern.

    As shown through its continued partnership with the U.S. Forest 
Service and restoration efforts through our ``Save the Habitat, Save 
the Hunt.'' Initiative, the National Wild Turkey Federation is a strong 
proponent of active, sustainable forest management. The benefits to 
numerous wildlife species, their habitats, and forest health are 
matched with economic benefits that contribute to local economies. 
Increased active forest management on Federal lands will help prevent 
wildfires and make it easier and less costly to fight fires when they 
do occur. For all of these reasons, the National Wild Turkey Federation 
urges Members of Congress to increase the pace and scale of sustainable 
forest management to ensure the health of our forestlands and the 
wildlife that call them home. Members of this Committee have much to be 
proud of. You have helped the process with past legislation but more 
needs to be done. Thank you for your time and consideration and your 
desire to address these critical issues.

    The Chairman. Thank you, Ms. Humphries, for your testimony.
    I am now pleased to recognize Ms. McCarthy, for 5 minutes.

         STATEMENT OF LAURA FALK McCARTHY, DIRECTOR OF
  CONSERVATION PROGRAMS, THE NATURE CONSERVANCY, SANTA FE, NM

    Ms. McCarthy. Thank you, Mr. Chairman, Ranking Member Lujan 
Grisham. I am Laura McCarthy with The Nature Conservancy in New 
Mexico, and I really appreciate this opportunity to share why 
National Forest management is so important to the people in my 
state, and give a little bit of a western perspective.
    The reason National Forests are so important is water, and 
I am going to explain why with a few slides. You can see up 
here, this is the fire scene nobody wants to see looming over 
their town, but unfortunately for us in 2011, that is what we 
were greeted with. What is most important about that fire is 
what it left behind. This image is taken in Bland Canyon, and 
we ended up with a 30,000 acre hole that looked like this with 
nothing living in it. This is an out of category kind of 
severity and intensity of fire.
    This will start automatically. It should be a video that is 
going to show you what happens when it rains on a burned area. 
This is actually a debris flow that came out of that burned 
area that I showed in the previous slide, and it happened after 
two very average afternoon thunderstorms about 6 weeks after 
the fire. It took 20 minutes for the water to get out of the 
headwaters, down into the valley. You can see an apple orchard 
there, and you can see barriers that the Army Corps of 
Engineers set up, expecting a volume of flow substantially less 
than what actually occurred. This kind of flooding keeps 
happening. It is now 4 years later and we are still having 
events that are depositing sediment into our river.
    This is property damage after that flood. And this is where 
that canyon comes into the Rio Grande, and you can see a big 
mass of sediment that the Army Corps of Engineers estimates is 
70 deep. So we have mass movement of sediment, literally the 
soil, the lifeblood, out of the headwaters, down into the 
river, and this river carries water that supplies drinking 
water for \1/2\ of our state's population, and irrigates the 
incredibly productive farmland in the Rio Grande Valley. So it 
is very significant to us.
    This is the reservoir that is \1/2\ a mile down from the 
confluence of Bland Canyon and the Rio Grande, and this was 
taken on the day after the flood. You can see what the 
reservoir looked like. The water samples are not from the 
reservoir, they are from another river that was affected by the 
same fire.
    So now the solution. The science is really clear. We need 
to accelerate the pace and scale of restoration, and we want to 
really complement the Forest Service and the Administration for 
putting a focus on accelerating the pace and scale of 
restoration. You can't stop a fire from growing 43,000 acres in 
less than a day if all you can treat is 3,000 acres a year. We 
need to scale-up. And the Forest Service can't do it alone. 
That flood that I showed crossed many jurisdictions, and so 
must our solution. So we need to involve the Interstate Stream 
Commission, which manages the Rio Grande. We need to involve 
the Federal agencies that manage water.
    What we have done in New Mexico is create a new partnership 
that we call the Rio Grande Water Fund, and it is much like 
many other collaboratives. What is unique though is the way in 
which we have involved the business community. We went to them, 
we started with the Chamber of Commerce in Albuquerque, we 
asked them if they were concerned about water security, and 
they responded really positively. So we have a very diverse 
partnership. We are leveraging funding from the business 
sector, also from the private sector in the philanthropy world, 
and the LOR Foundation is here with me today, because of the 
significant investment they have made as a catalyst for 
bringing other funding solutions to the table to leverage the 
Federal dollars.
    Let me conclude with one policy priority. This is the 
compelling need for this Congress, in my opinion, and in The 
Nature Conservancy's view, and that is to provide a new fire 
suppression funding mechanism. It has been talked about by 
several of you today. A disaster cap adjustment is absolutely 
essential if you are able, as a Congress, to solve that 
problem, then the rest of the pieces are going to fall into 
place. It is the 800 pound gorilla. And we urge you to take 
action. We appreciate your leadership, and look forward to 
being able to work constructively on the other forest 
management issues once the fire-funding problem is solved.
    [The prepared statement of Ms. McCarthy follows:]

  Prepared Statement of Laura Falk McCarthy, Director of Conservation 
             Programs, The Nature Conservancy, Santa Fe, NM
Forest Restoration: Lessons in Active Management from New Mexico
    Chairman Thompson, Ranking Member Lujan Grisham, and Members of the 
Committee, thank you for the opportunity to provide testimony on the 
important issue of active management of our nation's forests. The 
Nature Conservancy is an international, nonprofit conservation 
organization working around the world to protect ecologically important 
lands and waters for nature and people. Our mission is to conserve the 
lands and waters upon which all life depends.
    I want to thank the Subcommittee for holding this hearing to 
identify the issues our nation faces in light of the escalating trend 
of large and severely damaging wildfires, and the need to invest in 
treatments that reduce fire risk and restore resilience to our forests 
for future generations.
    The Nature Conservancy practices active forest management on our 
preserves and through our many large-scale partnerships with Federal, 
state, local and Tribal governments and nonprofit and private sectors. 
Through our own management of lands and waters, we have come to the 
conclusion that active management based on scientific information about 
ecological and social processes is essential to achieve key objectives 
for forests for their own sake, and for their ability to fulfill our 
needs and enrich our lives. My organization is joining many others and 
all levels of government in the U.S. to begin implementing the National 
Cohesive Strategy for Wildland Fire Management. The Cohesive Strategy 
provides a unified call to action to restore and maintain landscapes, 
help communities become fire adapted, and enhance wildfire response and 
fire use for resource benefits.
    Active forest management for the purpose of restoring forest 
resiliency is critical in my home State of New Mexico, and for the 
entire Southwest region, where our dominant forest types are adapted to 
frequent fire. Forest stands at the middle elevations typically burn on 
a 5-30 year cycle. The 20th Century United States policy of fire 
suppression has meant multiple missed cycles of fire, transforming many 
Southwestern forests from grassy, park-like stands of widely spaced 
trees, to dog-hair thickets of trees that are 100 years old and yet no 
bigger in diameter than the circumference of my wrist. While the 
Southwest has a high concentration of frequent-fire forests, this fire 
regime type is found throughout the nation, typically in pine forests, 
and especially on dry sites in the Intermountain West, Pacific Coast, 
and even the areas in the East, for examples the Pine Barrens and Great 
Lakes.
    Fortunately, scientists have investigated many aspects of fire-
adapted forests. Federal land managers and partners are benefiting from 
the thousands of published fire ecology papers that point to a variety 
of clear strategies to improve resiliency through adaptive active 
management: in many cases, cutting and removing overgrown forests and 
using fire as a management tool when and where it is safe to do so. 
Unfortunately, fire behavior has changed significantly in the Southwest 
over the last 2 decades.
    In fact, forest landscapes throughout the country have changed due 
to climate, land-use changes, and past management activities. The 
result are widespread forest health challenges in need of accelerated 
pace and scale of restoration. An area approximately the size of 
Pennsylvania and Washington State combined is in need of forest 
restoration on the National Forest System.
    As fire season is starting earlier and lasting longer in the West, 
wildfires are burning hotter and exploding with more extreme fire 
behavior. In New Mexico we keep setting and breaking the record for 
largest fire in the state. In 2000 people were terrified when a 58,000 
acre fire threatened the Los Alamos National Lab. We were stunned a 
decade later when a fire that was three times larger broke the record 
again. And surprised again in 2012, the record was shattered once more, 
topping off at 250,000 acres. For our neighbors in Arizona, these 
numbers seem modest compared to their record setting fires, which now 
exceed 500,000 acres.
    The growth in fire intensity and severity has been accompanied by 
public acceptance of the need to actively manage forests. Scientists 
have come forward to explain how our forests got into overgrown 
conditions and why trees need to be cut and removed to reduce the 
flammable material that can act as fuel for future fires. From this 
understanding, the social license has grown for active forest 
management, and collaborative groups with community roots have emerged, 
dedicating their time and energy to working with the Forest Service to 
plan and implement restoration treatments.
    The same factors that cause wildfire growth are driving an increase 
in wildfire suppression costs. Congressional appropriations have not 
kept up with rising costs. The United States does not fund wildfire 
disasters in the same way it funds all other natural disasters. Rather, 
the USDA Forest Service (USFS) and Department of the Interior (DOI) 
fund suppression from their annual budgets. When suppression costs run 
high, the agencies must borrow money from other programs to make up the 
difference. This practice of ``robbing Peter to pay Paul'' has led to 
decreased budgets for many important programs, including Forest Service 
projects aimed at decreasing the severity of wildfires in the first 
place.
    Resigned to the fact that Federal funding for proactive forest 
management is limited, communities near National Forest lands are 
working hard to form partnerships that will accelerate restoration--
some way, somehow. Recently, we noticed a change in the dialogue about 
active forest management in New Mexico--triggered by the simple act of 
rain falling on severely burned lands. A short-duration thunderstorm 
can wreck untold havoc on downstream communities and reservoirs. When 
lands have burned so hot that there is no vegetation to hold the soil 
in its place--and when all that is left is ash upon bedrock--the rain 
water mixes with ash and creates a semi-liquid mixture or slurry. This 
flow of debris causes a mass-movement of ash, sediment, and other 
material out of the mountains and into the rivers and valleys where our 
farms, communities and businesses are located. Where New Mexicans once 
relied on forested headwaters to provide clean water, now the growing 
inventory of burned lands is creating a new sense of urgency that we 
must scale up forest management. Businesses understand the threat to 
our water security and economic growth, and are joining forces with 
communities and the more typical forest collaborators to participate in 
scaling up restoration.
    New Mexico's Las Conchas fire provides the clearest example. This 
fire was remarkable in that it burned 43,000 acres in its first 14 
hours, and the areas it burned were so hot they exceeded the typical 
definition of high-severity burn. Six weeks after the fire stopped, 
thunderstorms with an inch to an inch and a half of rain fell, 2 days 
in a row, in the burned headwaters. About 20 minutes after the rain 
stopped, debris flowed into the Rio Grande, depositing sediment plugs 
more than 70 deep. Catchment structures filled to the brim, then 
overflowed, and the surface water supply for Albuquerque and Santa Fe 
turned black for more than a month. Cities were forced to seek 
alternative water sources and farmers using drip irrigation risked 
clogging their equipment. Flooding occurred right away, and continued 
with nearly every storm for the last 4 years, moving sediment and 
depositing new plugs of material into the Rio Grande and communities. 
Native American communities suffered the most from these debris flows 
and floods, with homes and farms damaged by flooding, and recreation 
livelihoods ruined by the movement of ash out of the burned headwaters. 
The economic costs from this one wildfire have been high: $48 million 
in direct fire suppression, and $200 million more expended to repair 
and rebuild, and compensate for health, business and other local 
impacts.
    Scaling up restoration activities is the clear need--and that is 
very hard to accomplish in one of the Forest Service's lowest-budget 
regions, where the forest industry has retreated to barely more than a 
few small sawmills producing Southwest style building materials. 
Community leaders and local legislators are realizing the problem is 
bigger than the Forest Service alone. As the impacts of fire move from 
the ridgetop to the river bottom, responsibility for the consequences 
pass out of Forest Service jurisdiction and become the responsibility 
of local governments, states, and a different set of Federal agencies--
the water managers.
    Scaling up forest restoration will take enormous resources, and in 
New Mexico the stakes have become so high that communities are forming 
new partnerships to garner resources and establish priorities for 
action. One example that I have spearheaded is the Rio Grande Water 
Fund. The concept is simple--the beneficiaries of clean water that 
comes from forests help to invest in keeping the forests healthy. In 
the Southwest, forests are our ``water towers.'' Snowpack accumulates 
in the headwaters, and is released to our rivers and streams throughout 
the spring and summer. In their current overgrown condition, the 
forests can't store the full amount of snow--the trees are literally 
packed together so tightly that snow is retained in the branches and 
does not reach the ground. Snow in the tree tops is then exposed to 
wind and sun, and never reaches the ground.
    The Rio Grande Water Fund is a partnership of more than 40 
organizations. While collaborative groups are emerging all over the 
nation, this one is interesting because of the private sector role. 
Prominent business groups like the Albuquerque Chamber of Commerce and 
the statewide Association of Commerce and Industry helped to develop 
the group's comprehensive plan for management of all lands in critical 
watersheds that have a high probability of burning, and that will 
contaminate someone's water source if they do. The private sector is 
stepping up with funding, from corporations like Lowe's and General 
Mills, to local utilities and breweries, and private foundations like 
the LOR Foundation. Hal Hutchinson, executive director, and Jake 
Caldwell, program officer, are here with me today, because the LOR 
Foundation has made a significant investment in this public-private 
partnership as a catalyst to leverage additional major investment. All 
of this represents a level of engagement I've not seen before, and it 
is emblematic of the broad consensus in my state that forest conditions 
are degraded in ways that affect people's lives, even in urban areas, 
and people want to see something done.
    The New Mexico Legislature has also gotten involved, providing over 
$6 million of capital outlay funding for thinning in 2014, and passing 
a bill to create a recurring funding source for thinning in 2015. The 
insurance industry is interested too--because losses from post-fire 
flooding are becoming significant--and they have been part of the 
conversation. We had a very partisan session this year--with our House 
of Representatives in Republican control for the first time in 60 
years--but this issue transcended the party divide. The long-term 
funding bill passed both our House and Senate unanimously--though it 
was vetoed and will return with fixes in the next session. These recent 
events demonstrate the commitment of partners and non-Federal entities 
to be a part of the solution by providing resources to accelerate 
restoration of Federal lands.
Federal Policy Needs and Priorities
    Let me start by thanking this Committee for helping to include in 
the Agricultural Act of 2014 permanent authority for Stewardship 
Contracting and Agreements and for providing the Good Neighbor 
Authority. We are eager to see the Forest Service release its final 
regulations on these new authorities and look forward to using them 
fully so that partner agencies and organizations can contribute as much 
as possible to accelerate forest restoration.
    In addition, we would like to summarize the following policy needs 
and priorities:

    1. The top priority is to create and fund a new Federal fire 
suppression funding mechanism to relieve resources for proactive 
management.

    The Nature Conservancy recognizes that even with a robust, 
proactive approach to land management, Federal fire preparedness and 
suppression resources will still need to be maintained at an effective 
level to protect life, property and natural resources. But emergency 
preparedness and response resources must be provided through a 
mechanism that does not compromise the viability of the forest 
management activities that can actually serve to reduce risks to life 
and property and mitigate the demand for emergency response in the 
future. The current system of funding fire preparedness and suppression 
at the expense of hazardous fuels and other key programs threatens to 
undermine--and eventually overtake--the vital management and 
conservation purposes for which the USDA Forest Service and Department 
of the Interior bureaus were established.
    The dramatic increase of homes near natural areas that are prone to 
frequent and unnaturally damaging fire has added significantly to the 
cost of fire suppression. In the past, paying for this tremendous cost 
often resulted in ``borrowing'' or outright transfer of Federal funding 
from critical land management and conservation programs into fire 
suppression accounts. This current wildfire suppression funding model 
and cycle of transfers and repayments has negatively impacted the 
ability to implement forest management activities. The agencies and 
first responders need a predictable, stable, and efficient budget 
structure to deliver their Congressionally directed land management 
missions.
    Numerous fire seasons over the past decade have required fire 
funding transfers from non-suppression accounts, clearly demonstrating 
the urgent need to change the suppression funding model at the USFS and 
DOI. The last few fiscal years have increasingly reflected the need for 
a new funding approach.
    Over $1 billion were transferred from USFS and DOI programs at the 
end of Fiscal Year 2012 and 2013 combined. Federal wildland fire 
suppression was funded below the forecast, and the fire season was very 
costly, particularly at the end of the fiscal year. In the past, 
repayments of transfers occurred through emergency supplemental 
appropriations, which would occur well after the USFS and DOI Bureaus 
had been severely impacted by the transfers. However, Fiscal Year 2012 
and 2013 suppression transfers were ``repaid'' from the entire 
Interior, Environment, and Related Agencies Appropriations Bill for the 
following fiscal year. The result is that all Interior bill agencies 
and their programs are now impacted by fire suppression funding. 
Additionally, the transfers have had long lasting effects on the USFS' 
and DOI's implementation of impacted programs that continue to this 
day.
    From the national perspective, the Fiscal Year 2014 wildfire season 
was considered mild, in that it did not require traditional transfers. 
However, even in such a mild fire season, the USDA Forest Service 
experienced a $200 million shortfall in suppression funding.
    This pattern of funding is neither efficient nor sustainable. The 
Conservancy supports the bipartisan Wildfire Disaster Funding Act (H.R. 
167), which would provide the USFS and DOI with a funding structure 
similar to that used by other agencies that respond to natural 
disasters, through a disaster cap adjustment. This important change 
would free the agencies to reinvest in core activities which have been 
reduced in recent years due to a continued shift of limited resources 
to fund wildfire suppression, including the very programs that would 
help to decrease wildfire costs over time. Further, this change would 
significantly reduce the highly disruptive process of canceling and/or 
significantly delaying ongoing project work, most often at the time 
such work is being executed on the ground.

    2. The second priority is to increase Federal funding for hazardous 
fuels reduction, Collaborative Forest Landscape Restoration and 
associated proactive Federal land management operations and science.

    a. Hazardous fuels reduction

    Once the fire funding problem is solved, there will be room to 
properly address forest management challenges. It is essential that the 
Congress and the Administration increase Federal investments to reduce 
fire risk in a manner that makes forests more resilient and resistant 
to fire and other stressors. Strategic, proactive hazardous fuels 
treatments have proven to be a safe and cost-effective way to reduce 
risks to communities and forests by removing overgrown brush and trees, 
leaving forests in a more natural condition resilient to wildfires. A 
2013 meta-analysis of 32 fuels treatment effectiveness studies, funded 
by the Joint Fire Science Program, confirmed that when implemented 
strategically, fuels treatments can make a crucial difference in the 
size, spread and severity of wildfires.\1\ These treatments can improve 
the safety and effectiveness of firefighters and provide protection for 
a community or essential watershed that might otherwise see extensive 
loss.
---------------------------------------------------------------------------
    \1\ Martinson, E.J.; Omi, P.N. 2013. Fuel treatments and fire 
severity: A meta-analysis. Res. Pap. RMRS-RP-103WWW. Fort Collins, CO: 
U.S. Department of Agriculture, Forest Service, Rocky Mountain Research 
Station. 35 p.
---------------------------------------------------------------------------
    Many of these hazardous fuels reduction projects are also providing 
jobs and other economic benefits to rural communities. For example, an 
economic assessment of forest restoration revealed that in the dry, 
fire-adapted forests of eastern Oregon an investment in forest 
management and restoration has the potential to save millions of 
dollars in state and Federal funds by avoiding costs associated with 
fire suppression, and the associated social and economic impacts.\2\ 
Our estimate in New Mexico is that for every 1,000 acres of forest 
restored, about 22 full-time equivalent jobs are created or maintained. 
The Nature Conservancy was pleased that Congress provided a $55 million 
increase last year to the Hazardous Fuels Reduction program for the 
USDA Forest Service. The Conservancy supports continued increases to 
this program to fund the many ready-to-be implemented projects and 
future forest planning and treatment proposals that are developed 
collaboratively.
---------------------------------------------------------------------------
    \2\ National Forest Health Restoration: An Economic Assessment of 
Forest Restoration on Oregon's Eastside National Forests. Prepared for 
Governor John Kitzhaber and Oregon's Legislative Leaders. November 26, 
2012. Quote on page (iv). http://www.oregon.gov/odf/BOARD/docs/
2013_January/BOFATTCH_20130109_08_03.pdf.
---------------------------------------------------------------------------
    The Conservancy also appreciates Congressional emphasis on 
proactive hazardous fuels reduction and community preparedness, along 
with a commitment to safe and cost-effective wildfire response 
strategies. We agree that funding is urgently needed to create 
community protection buffer zones that can limit the damage from 
wildfire. Fighting fires will remain costly until such buffers are in 
place and people feel safe. But shifting too much funding away from 
undeveloped forest areas where fires have been excluded for a century, 
and conditions remain overly dense and susceptible to unnaturally 
damaging wildfire, will have a long-term negative impact on forest 
health and resiliency. The Nature Conservancy urges a balanced 
allocation of funding between treatments in wildland and developed 
areas.
    Strategic mechanical fuels reduction in wildlands, combined with 
controlled burning to reduce fuels across large areas, can 
significantly reduce the chance that megafires will adversely impact 
the water supply, utility infrastructure, recreational areas and rural 
economic opportunities on which communities depend.

    b. Collaborative Forest Landscape Restoration (CFLR) Program.

    The CFLR Program helps prioritize and test a variety of 
collaborative, science-based approaches to forest restoration that both 
reduce wildfire risks and contribute to local jobs and economic 
opportunities. Authorized for 10 years through the 2009 Omnibus Public 
Land Management Act, CFLR was created to emphasize partnerships between 
government and local forest workers, sawmill owners, conservationists, 
businesses, sportsmen, outdoor recreationists, and others in the hopes 
a more collaborative forest management approach would result in fewer 
court challenges and more inclusive, science-based planning. A report 
released last month by the USFS revealed 5 years of impressive results 
from the Federal Collaborative Forest Landscape Restoration (CFLR) 
program \3\ on 23 project sites across the nation.
---------------------------------------------------------------------------
    \3\ USDA Collaborative Forest Landscape Restoration Program 5-Year 
Report, FS 1047, March 2015, http://www.nature.org/ourinitiatives/
habitats/forests/cflr-five-year-report.pdf.
---------------------------------------------------------------------------
    As revealed in the 5 year report (http://www.nature.org/
ourinitiatives/habitats/forests/cflr-five-year-report.pdf), the CFLR 
program has been successful in meeting forest restoration goals:

  <bullet> Reduced fire risk across 1.45 million acres;

  <bullet> Created and maintained 4,360 full and part-time jobs 
        annually;

  <bullet> Improved 2,078 square miles of wildlife habitat;

  <bullet> Generated $661 million in local labor income;

  <bullet> Improved 703 miles of stream habitat (length of the 
        Yellowstone River);

  <bullet> Produced 1,256 million board feet of sold timber; and

  <bullet> Treated 73,600 acres of noxious and invasive plants.

    All of this, which was achieved with $155 million invested over 5 
years, matched by $76.1 million in other funding. By comparison, the 
Las Conchas Fire cost $48 million in suppression, with an estimate of 
$246 million in damages and lost revenue, according to a study by the 
University of New Mexico.
    Collaboration is a foundation for the success of this program. The 
scale and complexity of the situation facing America's forests and 
communities means that we must find ways to forge agreement among 
diverse interests about the ``where, when and how'' of forest 
management and then focus our resources on those landscapes that are 
poised for success. Collaboration, once considered ``innovative'' and 
``new,'' has become an essential tool to reduce wildfire risks, 
increase forest restoration and contribute to the sustainability of 
local economies. By bringing together county commissioners, local mill 
owners, water and utility managers, fire protection officials, 
conservation groups, scientists and others, collaborative groups can 
identify mutually beneficial solutions to forest health challenges and, 
sometimes by enduring a few bumps and bruises, pave the way for smooth 
and successful projects on the ground. Equally important is the long-
term commitment these projects have fostered to both community 
sustainability and forest resilience.
    The Conservancy is seeking to expand the CFLR authorized funding 
level to $80 million to increase the scope of CFLR beyond the current 
23 projects. This funding supports matching funds and monitoring 
requirements, as well as the project planning and preparation 
activities that facilitate implementation success, over the 10 year 
life span of the projects. Future expansion should be considered. We 
must also increase our emphasis on and support for collaboration as a 
fundamental aspect of successful forest restoration planning and 
implementation. This should involve applying lessons learned through 
the CFLR Program to improve National Forest management throughout the 
system as collaborative, large-scale projects are created and new land 
management plans are developed under the new forest planning rule. It 
is encouraging that various funding sources, and even the state of 
Oregon, are providing funds that support the community collaborative 
capacity that will enhance implementation of the CFLR program.

    3. Finally, rehabilitation of burned lands is an emerging issue we 
are seeing on the ground in New Mexico and other states whose numbers 
of burned acres are growing.

    Since the biggest impacts of wildfire come when rains fall long 
after the smoke has cleared, the number of affected interests and 
agency jurisdictions will be even more complex than that of cross-
boundary fire management and large landscape restoration. The National 
Fire Plan of 2000 recognized the high priority need for rehabilitation 
and restoration of burned areas but unfortunately funding and attention 
have waned in recent years. Each agency has its own program for dealing 
with post-fire impacts, and the programs are generally oriented to 
emergency situations and addressing impacts in the first year after the 
fire. But watershed damage is long lasting and there are few programs 
to address the long-term effects, and gaps between community needs and 
the services the existing programs can provide. Communities are eager 
for more cooperation between Federal partners who manage the existing 
programs, and for adjustments to those programs to address the gaps 
that leave them facing the dirty water, damaged housing and 
destabilized economy alone. Building partnerships and increasing 
coordination to leverage the existing programs for burned area 
rehabilitation is an emerging problem that will become more visible as 
more forests are scorched. The same mechanisms that have worked to 
improve fire management could be put to work here to meet community 
needs to live in the post-fire environment.
Conclusion
    It is timely and important that the House Conservation and Forestry 
Subcommittee is holding this hearing at the start of the 114th 
Congress. Forests are vital sources of water and other resources for 
nearly all Americans and deserve attention by Congress in the near 
term, and on a continuing basis. It is essential that the various 
Congressional Committees with jurisdiction, as well as a broad array of 
state, local, industrial and citizens groups all work together to seek 
solutions. We appreciate the opportunity to offer the Nature 
Conservancy's perspective on how we might shift our focus toward a more 
proactive and cost-effective management approach that provides multiple 
benefits to people and nature. Please let us know if we can provide any 
additional information or assistance to the Committee as you move 
forward in this arena.
                               Attachment

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


          Video Presentation: by Pheobe Suina, Pueblo of Cochiti, 
        length 1:25.96 minutes.
          Editor's note: the entire presentation is available at 
        (https://tnc.box.com/s/hwhw2da47e366dohlz81dtsvqb5962qf).
  
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
        
    The Chairman. Ms. McCarthy, thank you. Thank you very much. 
And thanks for the very disturbing video. It lays it right out 
there.
    I want to start with Ms. Swanson. I will take the liberty 
of starting 5 minutes of questions, and I wanted to go to your 
testimony where you talk about--I will read part of your 
testimony. ``Moreover, we've found that residual trees in these 
thinned stands wind up producing damaged wood, with 
imperfections in the appearance grade lumber that our industry 
relies on.'' In my opening statement, I made reference, at 
least in my mind, it is kind of a triangle to have healthy 
forests and healthy rural communities. It is about green timber 
harvesting, there is no doubt about it. And there is a rule 
within harvesting for restorative, to stay----
    Ms. Swanson. Yes.
    The Chairman.--ahead of problems, but it is also about 
influencing the best we can the market, the timber market, and 
we have some trade agreements we are working on, and we need to 
be vigilant and I encourage Members of this Subcommittee to be 
vigilant with those to make sure that our timber products or 
our forest products are well positioned in those trade 
agreements. But then there are other things in terms of market, 
but then there is also value and being concerned. And that is a 
little tougher, and there are not a lot of things we can do 
sometimes because it is kind of subjective to the whims of the 
consumer. But your statement actually speaks to something--my 
question for you, it appears you are saying that we have these 
great cherry trees----
    Ms. Swanson. Yes.
    The Chairman.--but if we do not--and other species are 
probably in the same scope of things, that there is a prime-
time and a past-time for harvesting. And so can you speak to 
the situation where we may be--because we are not as aggressive 
or not fulfilling our harvesting, for a host of reasons that 
these trees that are owned by the taxpayers, and that our 
resources are supposed to be----
    Ms. Swanson. Right.
    The Chairman.--the taxpayers will benefit financially from, 
can you speak to what happens on value when we don't timber----
    Ms. Swanson. There was----
    The Chairman.--timely?
    Ms. Swanson. There have been some instances where they have 
gone in and thinned stands that are like 90 years old, and they 
actually ended up doing more harm to the residual trees that 
were left than if they would have if harvested properly. I 
think that you do create a situation where you are not getting 
the best value of the trees, so you do have to be conscious of 
that. Our state forests and our local forest products industry 
has stopped doing that, in fact, and they have gone right to a 
regeneration harvest at a certain level. The Forest Service has 
been slower to adapt to that. Now, they are starting to, but it 
really has made a big difference in the quality of the timber 
that is coming off of some of those sales. So I do think that 
you have to be really aware of what you are doing and the 
choices that you make because, really, the cherry market is 
high value.
    The Chairman. Yes, thank you. My next question, actually, 
is for Ms. Humphries and Ms. McCarthy, the points that you have 
both made. Ms. Humphries, in your testimony you talk about 
wildlife managers consider active management the best solution 
to meet habitat requirements of the largest variety of species. 
And then, obviously, in terms of water quality, Ms. McCarthy, 
you have made that implication as well with what you presented. 
And so I guess what I am hearing is that both animals, 
critters, birds, and mammals, as well as water quality can be 
significantly negatively impacted when we don't have active 
management. And so I would like you to speak to that. And I 
guess I am going into a dangerous area probably for me, but it 
is what I am passionate about, how does that speak for 
wilderness areas where we don't touch it at all in terms of 
active management, and yet these things will all be subject to 
these implications?
    Ms. Humphries. Well, I will take a crack at the first part 
of this and leave you to the second part of this. But first of 
all, like anything, having diversity in the landscape provides 
more resiliency. And unfortunately, as we have backed off in 
recent decades on active management, what has happened is a lot 
of our forests have aged, we have had increasing fuel loads, 
and because of that we are not getting the diversity and that 
younger forest type in there. What is good for that younger 
forest is good for a wealth of species out there, and people 
failed to recognize that in the early days following kind of 
the change of pendulum swing in active management. Certainly, 
with that, I won't tell you that there is no place for 
wilderness, but I do think that we need to think very carefully 
in terms of when we say no management at all, what that really 
means.
    The Chairman. Okay.
    Ms. Humphries. We live in a global landscape. At the time, 
I was the director with Emerald Ash Borer, I hate to admit it, 
but in Michigan, that pest came in from overseas, it spread 
much further than we ever expected when we first detected that, 
and it affects situations where we don't have the ability just 
to say, ``Hands-off, we are going to let it go,'' and because 
when we do that, we have devastating results, and lack of Ash 
across much of the Midwest at this point. It is really 
important to recognize that there needs to be active management 
at various stages, but we really need to change the talk into 
desired future outcomes of that forest, in my humble opinion.
    The Chairman. Okay, thank you. Ms. McCarthy?
    Ms. McCarthy. Mr. Chairman and Ranking Member, it is a good 
question, and Albuquerque, where I live, has a beautiful 
mountain range right outside of it and most of it is 
wilderness, so I think about this question a lot.
    The Wilderness Act and the agency implementation policies 
do allow for limited active management for the purpose of 
maintaining the ecological characteristics of the wilderness 
area. And in my experience, where the scientific information is 
very clear about what those ecological characteristics are, 
there is the possibility of active management, and that does 
happen in the National Parks, for example. I believe that the 
consensus around active management, now, and I am not talking 
about wilderness in this case, but just when I look across New 
Mexico at where people are now, the level of understanding of 
our public about the need for active management has grown 
tremendously in the last decade, and it has created a window of 
opportunity for the Forest Service, I believe, to really make 
good on that acceleration if we can remove some of the 
barriers, because the social license is finally there.
    The Chairman. All right. Thank you very much.
    My time has long expired, so I am pleased to recognize the 
Ranking Member for as much time as she consumes.
    Ms. Lujan Grisham. That is a very dangerous path for you to 
go down, but I accept. Thank you, Mr. Chairman.
    Laura, and I shouldn't be so familiar, but she is quite an 
icon not only in the state, but in my community. And Ms. 
McCarthy, I really want to continue on that dialogue that we 
have social license to really think about what we ought to be 
doing. And I don't want to minimize because I want to go back 
to that, that we really don't have a resources funding vehicle 
so that we are doing management and conservation in a 
productive way, and it lends itself and leads to these real 
problems that we have with fire prevention. Then there is the 
ability to respond productively, not just to put the fire out 
but, as you more than ably described using those visuals, that 
for years to come, there are significant problems that we 
never, including Army Corps, FEMA, and everybody else who is 
responsible and responds to these issues, that the amount of 
money that we are spending on the back-end pales in comparison 
to what we spend on the front-end. And again, it is the same 
pool of funding, and we have been minimizing that, not 
expanding that, even if that was okay to continue to draw from 
the same pot.
    So given that, your leadership, and I want to also 
compliment New Mexico partners, when you are a small state, you 
have to figure out how to often do it on your own, and I mean 
no disrespect to USDA or the Forest Service, and I appreciate 
your complimenting their efforts, but the reality is we have to 
figure out a way to do that. The Rio Grande Watership Fund, and 
getting the private sector to recognize the economics in so 
many ways of not participating has been phenomenal. Talk to me 
a little bit about replicating and the kind of Federal policy 
that we might engage in to really not only promote that, but 
create that as the standard for that kind of collaboration 
across jurisdictions to engage in these conservation and 
prevention practices.
    Ms. McCarthy. Mr. Chairman, Ranking Member, I've been here 
for the last 2 days with the LOR Foundation and we have been 
all over the Hill, all over town, with the Administration as 
well, brainstorming about how to build the local capacity for 
replication. And I do believe that the Collaborative Forest 
Landscape Restoration Program has laid an excellent foundation 
on the collaboration side of things. However, there is such a 
thing as skin in the game, that is, putting money towards 
something, and I understand that New Mexico is not unique in 
having a legislature that is interested in making a co-
investment along with the National Forest System. We have also 
been looking at the insurance premium tax as a potential 
revenue source, for example, and the more that the private 
sector and state, local, and Tribal governments are helping, 
and having at least some skin in the game through cooperative 
or matching funds, that is what is going to really bring about 
change.
    The necessary factor though that is missing from that is 
the capacity-building, and it is primarily in rural 
communities, it is also within the Forest Service because this 
is really a new way of doing business. And again, there are 
leaders throughout the Forest Service, and we have some of them 
in New Mexico in the Forest Supervisor role, and that is 
critical leadership. It is going to take a while, but I am 
confident the Forest Service and partners will get there.
    Ms. Lujan Grisham. I appreciate that. And if you will keep 
thinking and including the whole panel so that we can, I am 
going to use your words, accelerate that capacity-building, and 
with all due respect to all bodies of government, sometimes 
government can react a little bit too slowly, and we need to 
figure out a way to make sure that those investments are made.
    As we do have healthy debates about what our funding 
priorities are and what our long-term stability practices are, 
we are going to have to have a long-term funding strategy for 
these issues. And it is not something that I have participated 
in through this Committee directly. And that is not a dig on 
the Committee, but it may be time to do that. We definitely 
have those debates as we have legislation on the floor about 
whether we are really doing enough to make sure that we have 
the resources necessary not only to support these kinds of 
collaborations, but to do what we need to do over the long-
haul. And if there are other thoughts for Members of Congress, 
particularly in this Committee, the inner chain, about how we 
get there in short order, I think that I could probably 
convince the Chairman to help us think about other hearings and 
maybe a full Committee hearing about those strategies, and see 
what the appetite is from this Committee to address them.
    I yield back, Mr. Chairman. Did I put you on the spot? See, 
that will teach you to give me----
    The Chairman. You did just fine. The gentlelady yields 
back.
    I am going to take the liberty of another round. Ms. 
Swanson, I want to talk about the impact, and this is tough, 
but it has to do with continuity of leadership on our forests, 
and obviously, I am talking specifically with the Allegheny 
National Forest. And I do appreciate the Forest Service's 
support. We have been able to, over some time in the past 6 
years or so, upgrade the Forest Supervisor position to another 
grade, hoping to make it so that it wasn't just a place where 
people bounced into for a short time and then went somewhere 
else. So it seems like continuity of leadership and retaining 
folks, we have had many supervisors just since 2009, 2008, when 
I was first elected. I know what it is like to come in and 
become a manager in an agency of--my background was healthcare, 
but you don't hit the ground running, you don't know your team, 
you don't know the community. I have a two-part question. 
First, do you see that that has impacted, from your external 
perspective on the Forest Service in the Allegheny, and second, 
I don't know how we can have a lot of ability to retain people, 
we can't indenture them there for a period of years, but 
perhaps there are ideas in terms of how we help provide 
continuity in leadership, so that leadership is a little bigger 
umbrella, and there is maybe one person coming and going every 
few years. But I would appreciate whatever ideas you may have 
on that.
    Ms. Swanson. Well, you are absolutely right. It has had a 
really devastating impact on us. The inconsistency of that 
leadership on the forest has really suffered for that. We have 
had seven Forest Supervisors in 10 years, from different 
perspectives, if you are working under that situation, you are 
going to be probably hesitant to move forward very much because 
each person looks at it differently. The other thing is 
generally, the Forest Supervisors that have come, have come 
from the West. And there is a really large learning curve so 
they really can't be expected to learn about eastern forests 
and the difference in the silviculture, and all of those 
things, in a year or 2. It takes a good 2 or 3 years to get 
them up-to-speed, and they are not there that long. I would 
think it is having a huge detrimental impact on the rest of the 
staff. There is no consistency. For the industry, it has really 
been hard because of that lack of consistency. You are asking 
for suggestions on how we might change that. Generally, people 
have been encouraged to move around, to move up in the ranks. 
Maybe if you could look at that a little differently where 
people maybe are encouraged to stay in one place and allowed to 
rise more locally would be helpful so that you can maintain 
that legacy of knowledge.
    The differences between eastern forests and western forests 
are great, and many of the last Forest Supervisors we have had 
have come from western forests that do not have the same forest 
issues that we have in the East. It would be nice to find 
somebody that already has that experience when they go in as 
Forest Supervisors. I don't know how you really manage all 
that, but it really has had a huge negative impact on our 
forest in particular.
    The Chairman. I want to thank you for that. I want to get 
your thoughts too on the conversation I had with the Chief 
regarding the number of board feet is up significantly since I 
was first elected, but at the same time, there is just a small 
percentage out of that 38 million board feet last year, it was 
somewhere around 12 or 13 million board feet that actually were 
green----
    Ms. Swanson. Saw timber.
    The Chairman.--saw timber. Can you speak to that and just 
the implications of what that is for our communities?
    Ms. Swanson. Well, on the Allegheny, we have a really 
healthy diversity of those segments of the industry. We have a 
strong pulpwood market, we have a paper mill and particle 
boards, so we can use that material, but generally, the engine 
that moves the train is the saw timber. It is valuable. The 
veneers, all of those that go for high-end products. It used to 
be we had a 60 percent saw timber and a 40 percent pulpwood 
market, and now that has switched and we have more like a 40 
percent saw timber market or volume harvest, and a 60 percent 
lower grade. And that really is not appropriate for a forest 
like the Allegheny. It really impacts the communities as a 
whole because less money is coming out in the 25 percent fund, 
and I just think overall, the higher quality products you are 
producing, the greater the economic value to the communities 
are. The sawmills can produce not only boards, but secondary 
manufacturing of those boards, and they can make cabinets and 
flooring and things like that where you want it to be a 
balance, but on the Allegheny right now, it seems to be kind of 
lopsided. So I would really like for us to be able to get up to 
more saw timber, but still maintain a healthy pulpwood market 
too.
    The Chairman. Very good. Ms. Humphries, your testimony 
voiced support for expanding categorical exclusions. I know we 
worked hard to have a number of those in this last farm bill. 
Can you give us some examples of any potential categorical 
exclusions that--additional ones that would be helpful or that 
you would support?
    Ms. Humphries. When you look at categorical exclusions, 
clearly under NEPA the council gave good guidance that anything 
that is routine reoccurring with known minimal impacts can be 
categorically excluded. So my comments really referred not to 
specifics, but in general. I know at the state level when I 
managed it, we were able to use categorical exclusions, and we 
upheld it in the courts when we were challenged over a broad 
array of timber practices that were ongoing, that we had been 
doing since we started our State Forest System and managed it. 
And so many of those activities whether they are relatively 
minor in scope or routine, reoccurring, we know those impacts 
and they are well understood, our forest managers have decades 
of experience in that.
    The Chairman. Very good, thank you. I know that you stated 
in your written testimony your support for arbitration. I 
wanted to check in with Ms. McCarthy, would you agree with 
arbitration versus litigation?
    Ms. McCarthy. Mr. Chairman, Ranking Member, it is not one I 
can answer. I work in the zone of collaboration. I have not had 
any of my projects personally go to appeal or litigation, and 
so I have no experience to share, I am sorry.
    The Chairman. No, thank you. Thanks for your candid answer.
    Ms. Swanson, any thoughts on the greater use of using an 
arbitration process rather than litigation?
    Ms. Swanson. Well, we would all rather avoid litigation if 
at all possible. I do think arbitration--I would be happy to 
have a process that would eliminate some litigation.
    We had probably 8 or 10 years of litigation on a lot of 
timber sales from 1996 through the 2000, and it really had a 
totally demoralizing impact, not only on the Forest Service, 
but the industry and the communities. No one wins in that 
situation. So if you can find ways to get people talking and 
finding value in different places in different ways so that you 
can bridge those gaps, everybody benefits from that.
    The Chairman. All right, thank you.
    Ms. Humphries, you want to expand on why it is that you 
have expressed support for the arbitration process?
    Ms. Humphries. Yes, I would say we would like to see some 
pilot with arbitration. Clearly, when you look at lawsuits 
around the country, there have been a number of lawsuits where 
it is a tactic that is being used by some organizations to try 
and move an agenda towards no management, or slow down 
management. That purpose needs to be put into the planning 
process and moved back to where it belongs, and that is in the 
planning process where we sit down and talk about what is the 
desired future condition of the forest. And with that, we need 
to try out some areas where we can try arbitration. I am not 
suggesting we go to it nationwide. We are best served to put 
our toe in the water to try it, see how it works in those 
particular areas. We need to try it in areas where we are very 
prone to litigation in order to give it a good test, and then 
if it is successful, then go into a model where we move down 
that path.
    The Chairman. Very good. Thank you very much.
    I am pleased to recognize the Ranking Member for an 
additional round of questions if you would like.
    Ms. Lujan Grisham. Thank you, Mr. Chairman.
    Ms. Humphries, I agree that lawsuits or the threat of 
lawsuits can paralyze productive efforts on management 
activities. And given that we are drawing both, I hope, 
aggressive interventions at the appropriate places, we also 
want that collaboration and partners so that you have a 
longstanding effort to get the continuation of not just one 
partner invested, but every stakeholder making sure that 
healthy forests and healthy watersheds, that we are doing all 
that work together. But it does suggest to me that this 
collaborative model is another very productive way that would 
minimize then that kind of litigious environment, because 
people are at the table. And I don't want to suggest that every 
time you get everybody together that you can come up with a 
solid invested plan that all the partners stay with, but we 
have seen great success by partners. I will use the business 
community in this case, who have a very different set of 
priorities and different set of clients, and different set of 
outcomes that they are looking for, who you don't typically go 
to in terms of forest restoration activities and management 
practices that weigh on the side of both conservation, but 
prevention, making sure simply, and you guys know this better 
than anyone, that we don't have such a large amount of fuel in 
the forest, that we have these kinds of catastrophic fires.
    It is another way, based on these questions, to really put 
a plug in. We need to think about ways, strategies to really 
promote these collaborative investments, and define sources of 
revenues and funds that are dedicated to these practices so 
that you will get the unique aspects in each community so that 
you can manage these collaborations and identify the right 
priorities between forests in the East and forests in the West 
and in the Southwest, so that we are dealing with those 
significantly different issues in a productive way. And so I am 
more encouraged by the testimony of the three, and hope that, 
as the Chief is listening, thank you for staying for the 
hearing, that you bring to us as many practical and even big, 
if they are not so practical, big ideas back to our offices and 
back to the Subcommittee so that we can think about ways to 
really draw this balance, and start to get the investments in 
these issues as a priority for the Committee and for Congress. 
I mean that is what I would certainly like to see.
    Thank you very much for allowing me to make that 
additional--was that my closing statement, Mr. Chairman?
    The Chairman. Yes, I think it might have been.
    Ms. Lujan Grisham. All right.
    The Chairman. Unless you have anything to expand upon.
    Ms. Lujan Grisham. No, I don't. Thank you very much.
    The Chairman. Well, I thank the Ranking Member. I really 
appreciate the opportunity to work with you on these issues, 
really important issues, and we are doing great work. So we 
have a lot more work left to do.
    Before we do adjourn, just to share some closing thoughts. 
I want to thank all the witnesses. Ladies, thank you. This is a 
good sign. I have a few former ag staffers in the room, I don't 
think we have ever had a panel on forestry where all our 
witnesses have been ladies. Maybe that is what it is going to 
take to turn things here, so I appreciate that.
    Ms. Lujan Grisham. Thank you for that, Mr. Chairman.
    The Chairman. Yes. I appreciate the Chief for staying and 
listening, and just being a good partner with shared goals 
here. And I want to thank everyone for bringing your passion on 
this issue. That was very evident in your written testimony and 
in your oral testimony, and your expertise, and the expertise 
of those that you are here representing today. You bring their 
voice to Congress. You are actually helping all of your 
colleagues back home and across the country to exercise that 
part of the Constitution. It is so important. It is in the Bill 
of Rights, and that is the right to petition Congress. And we 
are absolutely dependent on this expertise coming here so that 
when we make decisions, we don't make them in a--the worst 
thing in the world is when we write laws and take actions, and 
the only thing that we are paying attention to is inside the 
Washington Beltway or the Washington bubble. And I am just 
really pleased with the input because we are approaching this 
serious problem in a serious way. I am very appreciative to all 
the witnesses, from the Chief and this panel, because within 
your testimony, you brought solutions. We don't always get 
that. We usually paint a pretty good picture of where there are 
problems, but the fact is that you have taken the time and done 
your due diligence to really articulate some really good 
solutions that we need to review, and take a look at and see 
how we may be able to utilize them. So thank you once again 
everybody.
    Under the rules of the Committee, the record of today's 
hearing will remain open for 10 calendar days to receive 
additional material, and supplementary written responses from 
the witnesses to any questions posed by a Member.
    The Subcommittee on Conservation and Forestry hearing is 
now adjourned.
    [Whereupon, at 4:47 p.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
 Submitted Comment by Hon. Michelle Lujan Grisham, a Representative in 
       Congress from New Mexico; on Behalf of Pueblo of Santa Ana
    The current processes and procedures being used by the Cibola 
National Forest for the collection of forest products for traditional 
and religious purposes is overly complex and intrusive. Not only does 
the Pueblo find the current processes and procedures to be ineffective 
and intrusive, we believe the ``new'' processes were instituted without 
adequate consultation or consideration of the tribe's wishes and 
traditional practices. The Pueblo would very much support a return to 
earlier procedures where just a single annual permit was issued to the 
pueblo that did not require individual permits and tags for various 
activities and products.
                                 ______
                                 
      Submitted Comment Letter by Hon. Michelle Lujan Grisham, a 
  Representative in Congress from New Mexico; on Behalf of: David P. 
 Sanchez, Board of Directors; and Carlos Salazar, President, Northern 
                   New Mexico Stockman's Association
April 26, 2013

  Hon. Thomas ``Tom'' J. Vilsack,
  Secretary,
  U.S. Department of Agriculture,
  Washington, D.C.;

  Tony Tooke,
  Director Ecosystem Management Coordination,
  U.S. Forest Service,
  U.S. Department of Agriculture,
  Washington, D.C.

Subject: 2012 Planning Rule Directives Comments

Jointly Submitted by the Northern New Mexico Stockman's Association and 
            the County of Rio Arriba, New Mexico under Two Original 
            Letters Containing Identical Content

    Honorable Secretary Vilsack,

    The purpose of this letter is to bring to your attention comments 
and concerns that have been identified during the review process of the 
proposed 2012 Planning Rule Directives. The proposed Directives 
identified in the Federal Register are intended to implement the new 
Forest Service 2012 Planning Rule by revising the U.S. Forest Service 
Manuals and Handbooks for the various National Forests.
    The process for making changes to existing chapters of the Forest 
Service (FS) Handbooks, are governed by many Federal Laws, Statutory 
Authorities, Regulatory Authorities, and specifically the Code of 
Federal Regulations--Title 36: Parks, Forests, and Public Property. For 
example, the proposed revisions to the FS Handbook, under ``Chapter 20 
The Land Management Plan'', states that this chapter has been 
completely changed--``also revises chapter in its entirety''. This 
process by the FS agency to revise the FS Handbook Chapters in their 
entirety has placed the stakeholder reviewers at a huge disadvantage. 
The FS agency did not provide the stakeholders with a matrix to compare 
changes between the existing handbook chapters and the new proposed 
changes. Therefore, we found it necessary to evaluate the proposed 
chapter language changes against the hierarchy of legal requirements, 
cited herein, that govern this massive exercise.
    We find that the [proposed] language changes in Chapter 20 do not 
meet the requirements of the Code of Federal Regulations, 36 CFR 219: 
Planning, Subpart A: National Forest System Land and Resource 
Management Planning regarding the plan for sustainability. (See sec.: 
219.10--Site-specific decisions, 219.8.--Sustainability.). In addition 
we find that the proposed changes did not meet the requirements of 
other Federal laws such as the National Environmental Protection Act 
(NEPA) (P.L. 91-190) and The Multiple Use--Sustained Yield Act (P.L. 
86-517), again regarding the plan and management for sustainability. 
Thus, implementation of the 2012 Planning Rule via the proposed 2012 
Planning Rule Directives (revisions) will have a profound and negative 
impact on minority native Hispanic farmers and ranchers in New Mexico 
and throughout the entire West because of the absence of any policy 
directives whatsoever regarding the sustainability of their multiple 
uses on Forest lands. It is important for USDA to recognize that there 
are native Indo-Hispano families living at or below poverty level 
guidelines throughout New Mexico and Arizona who will suffer greatly if 
their presence on forest lands fails to provide them with a stable and 
``sustainable'' economy, due to the lack of specific planning and 
management for this goal. Since the new directives have omitted any 
plan for management of grazing and other multiple uses for sustaining 
the economy of native communities, the plan must be corrected to 
address this omission, fatal to the interests of native ranching 
communities.
    The proposed 2012 Planning Rule Directives, Chapter 20, ``The Land 
Management Plan'' as identified in the Federal Register is the first 
focus area for comments. This Chapter is of critical importance to the 
native minority people and communities of rural New Mexico that are and 
have been for decades dependent economically and socially on access to 
Federal Lands, their natural resources and all of the consumptive uses 
of the Forest. The ``Southwestern Region'' of the National Forest 
System encompasses approximately 20 million acres between the states of 
Arizona and New Mexico. The five National Forests in New Mexico are 
vital to the economy, and social and cultural well-being of our state's 
rural native families. Our comments begin by addressing the proposed 
change of the Chapter 20 Title. See Chapter 20--Changes chapter caption 
from ``Adaptive Planning Process'' to ``Land Management Plan.'' Also, 
``revises chapter in its entirety.''
    Following is a summary recitation of our Comments:
    Comment No. 1. The proposed change from the ``Adaptive Planning 
Process'' to the ``Land Management Plan'' is a positive change that is 
more reflective with the content and purpose of this chapter. However, 
this change in title fails to fulfill its promise as discussed in the 
remainder of our comments.
    Comment No. 2. The chapter has been revised in its entirety and 
this action presents a huge disadvantage to the public stakeholder 
reviewers. The FS agency did not provide a comparison matrix 
illustrating the changes between the existing FS Handbook Policy and 
the proposed changes.
    Proposed Change: Chapter 20, 23, 2--Social and Economic 
Sustainability and Multiple Use, 23.22e--Rangelands, Forage, and 
Grazing.
    Comment No. 3. The proposed language in sec. 23.22e--Rangelands, 
Forage, and Grazing, does not meet the requirements of the Code of 
Federal Regulations, 36 CFR 219: Planning, Subpart A: National Forest 
System Land and Resource Management Planning, (sec. 219.8.--
Sustainability, (a) Sustaining social and economic systems.). The 
proposed language fails to provide the required framework or language 
to address and enable the sustainability of the social and economic 
contributions that grazing has on the native people and communities 
affected in this section.
    Comment No. 4. The proposed language in sec. 23.22e--Rangelands, 
Forage, and Grazing, does not meet the requirements of the Code of 
Federal Regulations, 36 CFR 219: Planning, Subpart A: National Forest 
System Land and Resource Management Planning, (sec. 219.8.--
Sustainability, (a) Sustaining social and economic systems.). The 
proposed language in this section does not provide language to address 
specific goals for the sustainability of the grazing activity. No 
directive has been provided for the future planning of the grazing 
component in order to maintain and sustain this activity in the land 
management plans.
    Comment No. 5. The proposed language in sec. 23.22e--Rangelands, 
Forage, and Grazing, does not meet the requirement of the National 
Environmental Protection Act (NEPA) (P.L. 91-190. See specifically: 
Title 1, Sec. 101, (b) In order to carry out the policy set forth in 
this Act, it is the continuing responsibility of the Federal Government 
to use all practicable means, consistent with other essential 
considerations of national policy, to improve and coordinate Federal 
plans, functions, programs, and resources to the end that the nation 
may--

          (4) preserve important historic, cultural, and natural 
        aspects of our national heritage, and maintain, wherever 
        possible, an environment which supports diversity and variety 
        of individual choice:
          (5) achieve a balance between population and resource use 
        which will permit high standards of living and a wide sharing 
        of life's amenities.)

    Section 23.22e--Rangelands, Forage, and Grazing does not provide 
the framework or language to address the specific elements to preserve 
the history and culture of native families grazing livestock on Federal 
lands. Nor does it provide the goals or means to achieve and sustain 
life's amenities for the dependent grazing communities and its people.
    Proposed Change: The proposed language in sec. 23.22e--Rangelands, 
Forage, and Grazing, does not meet the requirement of the Code of 
Federal Regulations, 36 CFR 219: Planning, Subpart A: National Forest 
System Land and Resource Management Planning, (sec. 219.8.--
Sustainability, (a) Sustaining social and economic systems.).
    Comment No. 6. The FS agency, via the proposed 2012 Planning Rule 
Directives changes to ``Chapter 20 The Land Management Plan'', has 
failed to apply and meet the requirements of the Code of Federal 
Regulations, 36 CFR 219: Planning, Subpart A: National Forest System 
Land and Resource Management Planning, (sec. 219.8.--Sustainability, 
(a) Sustaining social and economic systems.) for all components of the 
Handbooks. However, the FS has selectively applied the CFR requirements 
to the following Chapter 20 sections: 23.22b--Sustainable Recreation 
Resources and Opportunities to Connect People with Nature. And 23.1--
Ecological Sustainability and Diversity of Plant and Animal 
Communities. This poses a question. Why has the FS agency omitted other 
required components of the plan from this CFR? The FS agency has a 
responsibility to meet the 36 CFR requirements for all segments of 
multiple use including sec. 23.22e--Rangelands, Forage, and Grazing, 
which are critical to the survival of native people.
    Proposed Change: Chapter 20, and the proposed language in sec. 
23.22e--Rangelands, Forage, and Grazing, does not meet the requirement 
of the Code of Federal Regulations, 36 CFR 219: Planning, Subpart A: 
National Forest System Land and Resource Management Planning, (see sec. 
219.10--Site-specific decisions.).
    Comment No. 7. The proposed changes to Chapter 20 and subsec. 
23.22e--Rangelands, Forage, and Grazing do not provide the framework or 
necessary language to recognize the ``valid existing rights'' of native 
minority ranchers, although these grazing rights of the native ranchers 
have already been recognized in custom, culture, code, statute and 
Treaty. For example, ``The Treaty of Guadalupe Hidalgo (1848)'', was 
given effect both in the U.S. Kearny Code of Territorial NM and the NM 
Constitution which historically protects the grazing rights and 
associated financial investments in their practice as the ``valid 
existing rights'' of the native inhabitants of New Mexico. The National 
Forest System has no policy to guide the recognition of these ``valid 
existing rights'' cited in Chapter 20, Plan Content and subsec. 23.22e.
    Since the grazing permit system affects valid existing rights, 
there also must be substantive inclusions in the proposed 2012 Planning 
Rule Directives on how legal ``due process'' will be guaranteed to the 
native minority rancher. Moreover, this ``due process'' must be of a 
high administrative standard that would be fully compliant with Federal 
law. In general, the topic of ``due process'' has very little, if any, 
substantive treatment in the proposed 2012 Planning Rule Directives.
    Proposed Change: FSH 1909.12--LAND MANAGEMENT PLANNING HANDBOOK 
CHAPTER 90--REFERENCES, sec. 91--AUTHORITY.
    Comment No 8. The proposed change to the FSH fails to cite 
applicable Federal Laws such as National Environmental Protection Act 
(NEPA) (P.L. 91-190) and The Multiple Use--Sustained Yield Act (P.L. 
86-517). These Federal laws set out requirements that must be met by 
the FS agency in the hierarchal flow of policy down to Land Management 
Plans and to the Responsible Official. The proposed 2012 Planning Rule 
Directives do not reflect a thorough or thoughtful incorporation of the 
requirements of NEPA or The Multiple Use--Sustained Yield Act.
    Proposed Change: FSM 1900--PLANNING CHAPTER 1920--LAND MANAGEMENT 
PLANNING, 1920.1--Authority.
    Comment No 9. Again, the proposed change to the FSM fails to cite 
applicable Federal Laws such as National Environmental Protection Act 
(NEPA) (P.L. 91-190) and The Multiple Use--Sustained Yield Act (P.L. 
86-517) in the authority and statutory sections. These Federal laws set 
out requirements that must be met by the FS agency in the hierarchal 
flow of policy down to Land Management Plans and to the Responsible 
Official. Applicable sections of the law must be integrated and 
reflected in the FSM and FSH. For example, the National Environmental 
Protection Act (NEPA) (P.L. 91-190) sets out the following mandates:

          See specifically; Title 1, Sec. 101,(b) In order to carry out 
        the policy set forth in this Act, it is the continuing 
        responsibility of the Federal Government to use all practicable 
        means, consistent with other essential considerations of 
        national policy, to improve and coordinate Federal plans, 
        functions, programs, and resources to the end that the nation 
        may--

                  (4) preserve important historic, cultural, and 
                natural aspects of our national heritage, and maintain, 
                wherever possible, an environment which supports 
                diversity and variety of individual choice:
                  (5) achieve a balance between population and resource 
                use which will permit high standards of living and a 
                wide sharing of life's amenities.)

    If NEPA is properly incorporated into and reflected throughout the 
proposed 2012 Planning Rule Directives, it is the observation of these 
commentators that the native minority ranchers will fare much better 
than their predecessors, who have steadily lost ground and presence in 
their native lands under the permit system currently in place and in 
practice. It is the further opinion of these commentators that NEPA and 
the other cited law in these comments would justly require that 
outcome.
    In closing, Mr. Secretary, based on our review of the proposed 2012 
Planning Rule Directives via the proposed changes to the FSM and the 
FSH identified currently in the Federal Register, we conclude that the 
``Proposed Rule and Directives'', as they are written, do not set forth 
the necessary policy and requirements to address the referenced laws 
cited herein. The proposed changes to the specific sections of the FS 
Handbook do not establish the framework and policy language to address 
and ensure the needs of a minority class of people that are 
economically and socially [dependent] on the natural resources of 
Forest Service Lands, especially like those engaged in ranching and 
logging. We would also like to mention that we appreciate your efforts 
and commitment to the Planning Rule Advisory Committee, and once again 
emphasize the importance of the Planning Rule process. The proposed 
changes to the Forest Service Land Management have a direct impact to 
the livelihood of all New Mexicans. We would like to continue to work 
with the FS Agency, (in particular, Mr. Tony Tooke), and the Planning 
Rule Advisory Committee in order to provide our experience and 
expertise towards the development of sound and comprehensive FS 
Policies which are inclusive of minority native people.
            Sincerely,
      
      [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      

 
 
 
David P. Sanchez,                    Carlos Salazar,
Board of Directors;                  President,
Northern New Mexico Stockman's       Northern New Mexico Stockman's
 Association;                         Association.
 

CC:

U.S. Senator Tom Udall;
U.S. Congresswoman Michelle Lujan Grisham;
U.S. Congressman Ben Ray Lujan;
Lorenzo Valdez, FACA Committee Member;
Tomas Campos, Rio Arriba County Manager;
Rio Arriba County Board of Commissioners;
Alfredo Montoya, Barney Trujillo and Danny Garcia;
Moises Morales, Rio Arriba County Clerk;
Ted J. Trujillo, Rio Arriba County Attorney;
Rudy Arredondo, President, National Latino Farmers and Ranchers Trade 
Association;
Lorette Picciano, Executive Director, Rural Coalition/Coalicion Rural.

    Point of contact for NNMSA: David P. Sanchez, Chairman of the 
Issues Committee, P.O. Box 855, Espanola, NM 87532. Ph. No. 505-927-
9024
                                 ______
                                 
                               attachment

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 ______
                                 
  Submitted Letter by Hon. Michelle Lujan Grisham, a Representative in
  Congress from New Mexico; on Behalf of Hon. Raymond Loretto, D.V.M.,
                       Governor, Pueblo of Jemez
Current Situation
    One of the recurring themes at the Pueblo of Jemez's community 
planning sessions was the Protection of Natural Resources. The Pueblo's 
Natural Resources Department works with Tribal leaders to protect, 
preserve, and properly manage the Pueblo's natural and cultural 
resources. Specifically, the NRD's Mission is ``To support Tribal 
Leaders in the managing, monitoring, and protecting lands and resources 
important to the Pueblo of Jemez in a manner that complements, 
respects, and defends traditional Jemez culture.'' For the Jemez 
people, language and culture are important lessons taught to their 
children to ensure their survival and advancement in society. Through 
community planning sessions, the protection of natural resources: 
water, agriculture, forest, plants, range, air wildlife and traditional 
culture properties are very important to the Pueblo.
Unique Partnerships
    Valles Caldera (National Preserve transition to National Park 
Service) Land Recovery

  <bullet> The Jemez People have dwelled in the mountains named for 
        them for hundreds of years. We are seeking to co-manage the 
        Valles Caldera National Preserve with the Federal Government 
        which contains our most sacred cultural and religious sites.

  <bullet> We seek the state's support in this effort. As co-managers, 
        we plan to protect our sacred sites while enhancing the natural 
        resources and habitat found in the Caldera.

    U.S. Forest Service Co-Management

  <bullet> Memorandum of Understanding was executed in 2012.

  <bullet> We are looking forward to having Jemez Tribal Members 
        employed at the Jemez Ranger District.

  <bullet> We urge the Federal Government to begin the process so we 
        can move forward together. In securing funding set aside for 
        tribes under Tribal Forest Protection Act or other 
        Collaborative Forest Landscape Restoration. Not just for 
        National Forest System Lands.
Priorities
    Timber operations/Forest Management

  <bullet> Economic development opportunities and sustainability of 
        funding through securing long term contract opportunities and 
        small/large wood material in hopes of investing for future 
        business opportunities.

  <bullet> In hopes of retention of Tribal member employment to Natural 
        Resources, in wildfire response, Sawmill and Forest management 
        operations.

  <bullet> Securing the funds allocated to our CFLRP, Southwest Jemez 
        Mountain Restoration Landscape Project, secure and direct more 
        funding keep within and sustain current Walatowa Timber 
        Industry and forest management operations for long term 
        investment.

  <bullet> Secure funding under shared mutual boundaries for the 
        interest of Archeological site protection

  <bullet> Secure/allocate more Tribal outreach on Climate change 
        impacts as it is warming and the number of wildfires threats to 
        Pueblo of Jemez Lands adjacent to public USFS, BLM, NPS land in 
        New Mexico is increasing each year, the need for more forest 
        management funds.

    Support for Wildfire Prevention and Recovery

  <bullet> Tribal outreach on Climate change impacts as it is warming 
        and the number of wildfires on public land in New Mexico is 
        increasing each year.

  <bullet> The state MUST make wildfire prevention and recovery from 
        the fires, a fiscal priority. We offered testimony in support 
        of House Bill 9 during the 2015 Legislative Session; House Bill 
        9 would have that would have provided $1 million to the four 
        (4) Pueblos affected by the Las Conchas fire. Unfortunately, 
        the bill failed in the House Committee.

    Share Wildlife Data

  <bullet> Under Federal law, the state is the custodian of fish and 
        wildlife on public lands. We are in need of wildlife population 
        data on the reservation which is largely surrounded by public 
        land.

  <bullet> We are seeking a collaborative effort with the State Game 
        and Fish Department to conduct a joint population study on 
        Jemez land to see if either the state or the Pueblo of Jemez is 
        impacted by hunting on either side of our respective 
        boundaries.
Recommendations
    Supporting Role in Renewable Energy Development

  <bullet> We are developing renewable energy on our Tribal land 
        including biomass, wind, solar and geothermal energy generation 
        sources.

  <bullet> We would like to receive technical assistance from the 
        agencies such as EMNRD, Oil Conservation Department, State 
        Engineer's Office and others as we identify resources and 
        develop them.
            Respectfully Submitted by,

Hon. Raymond Loretto, D.V.M.,
Governor, Pueblo of Jemez,
April 2015.
                                 ______
                                 
Submitted Article by Hon. Ann Kirkpatrick, a Representative in Congress 
                              from Arizona
The Forest Service shouldn't pat itself on the back yet
Editorial board, The Republic, azcentral.com 5:49 p.m. MST April 22, 
2015
    Our View: The Forest Service has made some good progress, but it's 
time to start cutting down trees before it's too late.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Thinning overchocked areas of Cococino and other National 
        Forests in Arizona will require more effort from the private 
        sector to be successful.
          (Photo: Mark Henle/The Republic)

    The ambitious thinning project (http://www.azcentral.com/story/
news/local/arizona/2015/04/20/forest-thinning-plan-600000-acres-
arizona/26105127/) directed by the U.S. Forest Service has reached what 
the government hails as ``a pivotal milestone towards achieving 
accelerated forest restoration on more than 500,000 acres'' of Arizona 
forests and grasslands.
    We fully acknowledge the landmark nature of this milestone. And 
we'll get around to hailing it in a moment.
    But let us keep the alleged progress of the Four Forests 
Restoration Initiative, or 4FRI, in some perspective.
    Launched in 2010 as the largest forest-thinning mission in American 
history, 4FRI has accomplished a fraction of its goals, which initially 
envisioned thinning 50,000 acres of grossly over-choked forestland a 
year through the first 10 years. It has come nowhere near that goal.
    The program was designed around the premise that private industry, 
which would reap value from the trees the companies harvest, could do 
the work most efficiently. Then, the first 4FRI contractor hired by the 
Forest Service went bust within a year.
    While the new contractor, Good Earth Power AZ, appears to have 
moved closer to opening an operational sawmill--the key to processing 
the forest products--it has run into permitting issues with the town of 
Williams. Meanwhile, Good Earth appears to have thinned no more than 
about 3,700 acres on its own as of late March.
    That last figure is the critical one. It is the one to keep in mind 
as the Forest Service and various stakeholders announce with great 
fanfare that they have inked ``the final decision document for (4FRI's) 
first-ever environmental impact statement.''



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          (Photo: Mark Henle/The Republic)

    Effectively, the document means the 30+ stakeholder groups and the 
Federal Government have agreed on how to go forward in the effort to 
return 2.4 million wild acres to some semblance of health. The specific 
agreement includes treating 1 million forest acres in Coconino and 
Kaibab National Forests.
    Again, not to denigrate this hard-fought achievement, but it is a 
landmark only in the sense that years of haggling over the acceptable 
width of trees that can be cut (as well as issues such as road-building 
in the forests) finally have ended with an agreed forest-thinning 
protocol. It hasn't resulted in actual thinned forests.
    The 4FRI progress report from the Forest Service is disheartening, 
in a way. It looks like the feds are trying to fool us on the program's 
real progress.
    In its Monday announcement of the signing of the final decision 
document, the Forest Service declared that ``to date, approximately 
300,000 acres have received some sort of restoration treatment as part 
of the initiative.''
    That is true only because the U.S. Department of Agriculture and 
local 4FRI public-sector partners are paying millions of dollars a year 
to conduct thinning projects in the four National Forests involved: 
Apache-Sitgreaves and Tonto National Forests, as well as Coconino and 
Kaibab.
     The whole idea of 4FRI, remember, is as a private initiative. Its 
entire premise is built on the reality that the government cannot and 
will not pay the $800 an acre minimum it would cost to properly thin 
the millions of acres in desperate need of treatment.
    As environmentalist Todd Schulke told Pete Alshire of the Payson 
Roundup in December, promoting forest thinning paid for by the feds as 
evidence of 4FRI's success ``is not good for anybody.''
    ``Inflating the accomplishments to the point where it's 
unbelievable taxes the credibility of the whole program, '' Schulke 
said.
    It is gratifying that, at long last, the stakeholders are on one 
page. But no mill has been built. And the private contractor hasn't 
done much. Let's get on with the real deal.
                                 ______
                                 
Submitted Statement by Andrew Fecko, Director of Resource Development, 
                       Placer County Water Agency
AboutPCWA
    Placer County Water Agency owns and operates the Middle Fork 
American River Project, providing water supplies, hydroelectric power, 
public recreational opportunities and environmental stewardship for the 
people of Placer County and the region. The people of Placer County 
built the Middle Fork Project in the 1960s to develop local water 
resources for the long-term public benefit. Placer County Water Agency 
was created to ensure, and remains committed to supporting, diligent 
management of those water resources.
California Water
    PCWA is one of some 50 water and energy utilities that operate in 
the Sierra Nevada mountain range, which provides approximately 65% of 
California's water supply on an annual basis. Simply stated, 
California's mountain headwaters and the rain and snow that falls in 
these watersheds make it possible to supply clean drinking water to 38 
million Californians and the homes, farms and businesses that support a 
$1.6 trillion annual economy.
Why Federal Land Policy Matters in California
    Approximately 45% of California is owned and managed by the Federal 
Government, and well over 75% of our headwaters are managed by the U.S. 
Bureau of Land Management or the U.S. Forest Service. This means that 
while local agencies own and operate water and hydroelectric systems 
through-out these headwaters, the land from which our water and energy 
supplies are derived are managed by policies that are not locally 
derived and which often have far-reaching economic and societal impacts 
throughout the state.
Our Recent Experiences
    PCWA is located in the Middle Fork American River watershed, about 
2 hours east of Sacramento, California. Our watershed spans some 412 
miles<SUP>2</SUP>, and provides enough drinking water for 250,000 
citizens and enough renewable hydroelectric energy for 100,000 homes. 
36% our watershed, some 150 miles<SUP>2</SUP>--has burned since 2000. 
While some of these fires have been mild in nature, others have been 
increasingly devastating because of the intensity and severity with 
which they engulf the landscape. This troubling trend, fueled by 
decades of active fire suppression and changes in forest management 
policy and exacerbated by natural drought conditions, has led to a 
situation that puts California's water supplies at great risk, and 
leaves local agencies like mine bearing the consequences.
King Fire
    Our experience with the King Fire in 2014 offers a good example. 
The King Fire was ignited on the afternoon of September 13, 2014 in El 
Dorado County. For the first 4 days, the fire burned in a mix of 
privately managed timberlands and the El Dorado National Forest, 
growing to approximately 20,000 acres by the morning of Wednesday, 
September 17, and spreading at a moderate rate. Wednesday afternoon 
brought extremely low humidity and increased wind speed, which drove 
the fire into the remote and densely forested Rubicon River canyon, an 
important tributary to the American River. Once it reached the Rubicon 
canyon, the fire exploded.
    In the next 12 hours, the fire grew by almost 50,000 acres, making 
a run of almost 16 miles overnight. Fire officials on the ground used 
words like ``unprecedented'' and ``unheard of'' to describe the speed 
and intensity at which this fire destroyed the landscape. A rare mid-
September rain storm and a calming of wind conditions were the only two 
factors that halted this fire from continuing its advance into the Lake 
Tahoe watershed and even more devastating consequences.
    The King Fire ravaged the Rubicon River watershed with high-
severity incineration. Complete loss of vegetative cover has exposed 
soils to erosion on thousands of acres of steep, sloping river canyons. 
Sediment and debris derived from this erosion threaten the integrity 
and function of hundreds of millions of dollars of water and power 
infrastructure, as well as miles of aquatic and riparian habitat vital 
to frog and fish species of concern to state and Federal regulatory 
agencies.
    All told, the King Fire burned 153 miles<SUP>2</SUP> in three 
watershed and two counties. More than 60% of the fire burned at high 
intensity. The costs were tremendous, and are ongoing:

          $118,500,000 in direct firefighting costs was borne by the 
        public;
          $8,000,000 in immediate costs to repair and protect water and 
        energy infrastructure was borne by local utilities like mine;
          Untold costs to roads, cultural resources, and wildlife 
        habitat, and soil resources;
          Ongoing costs to local utilities that must now deal with the 
        aftermath.
The Aftermath
    The effects of large catastrophic wildfire on natural and man-made 
infrastructure lasts for decades, and the effects on the forest itself 
can last for centuries. In the case of water and hydroelectric 
utilities that operate in California's watersheds, the aftermath is 
often worse than the event itself.
    Wildfires in the Sierra tend to occur at the worst possible time of 
year, at the end of summer. Not only are forest fuels at their driest, 
but the transition from the arid California summer to the wet fall can 
happen quickly and with devastating results. Particularly in the case 
of high-intensity fire, trees whose root systems once held steep slopes 
in place are now dead. Soils that were once a rich and stable organic 
ecosystem that was resistant to erosion are now baked into a loose cake 
which has a tendency to reject water from rain events and then all at 
once become a muddy slurry that tumbles off of canyon walls and into 
rivers and streams. As the receivers of mud, rock and dead trees, our 
river systems become overwhelmed with this debris and transport it 
downstream during high flow events.
    Once this debris enters lakes and reservoirs, it fills in valuable 
storage space, blocks spillways and ruins equipment and generating 
machinery. PCWA has experienced this before. The Star Fire that burned 
in 2001 is still depositing large dead trees and tons of sediment into 
our facilities some 14 years later. We, like many other utilities in 
the Sierra, must regularly, and at great cost to our ratepayers, clean 
our reservoirs of sediment, rock and trees or they would become useless 
mud flats.
    In the case of the King Fire, the U.S. Forest Service estimates 
that over 300,000 tons of topsoil are poised to erode into Rubicon 
River from King Fire burned area the first year after the fire. Ralston 
Powerhouse and Afterbay Dam are located a short distance below 19 miles 
of scorched Rubicon River canyon and when this reservoir fills up, 
hydropower production and water flow for our citizens is stopped for 
months at a time. This stretch of river has also been identified by 
PCWA in collaboration with regulatory agencies as important habitat for 
frog and fish species of concern, habitat which will be severely 
impacted by fire-induced sedimentation.
    This impact can last for many years. While trees and brush can 
begin to regrow within a decade of even an intense fire, the fertile 
soils that have taken millennia to establish are damaged for many 
centuries. This long after-effect means that our facilities are 
ultimately less valuable, our water dirtier, and our ability to serve a 
growing California economy water and energy products diminished for 
many decades.
Destined for Disaster?
    Recent scientific findings point to an increase in the frequency 
and intensity of large wildfires in the West. While there are many 
potential causes, we believe that at least part of the problem lies 
with a century of wildfire suppression and a recent reduction in active 
timber management on public lands. It is clear in our watershed that 
fuel loads, particularly small trees and brush, have increased to an 
extent that where a person could once walk through a forest of large, 
mature trees, one now finds impenetrable brush fields and thousands of 
small, unhealthy trees. Under natural conditions, the Sierra landscape 
would have seen much more frequent and lower intensity fires which 
would have cleaned the forest of these fuel loads and left the forest 
healthier for it.
    In our view, because of decades of increasing fuel loads, it is not 
currently possible to return to this natural fire pattern without great 
risk to valuable human infrastructure.
    However, we believe that using a combination of techniques that 
include active mechanical harvesting of smaller fuels, logging of 
appropriate larger trees, controlled burning, and replanting, land 
managers can return the system to a much healthier equilibrium that 
brings the forest into balance without the risk that untrammeled 
natural burning would incur. Implemented appropriately, these programs 
have the potential to be financially self-sustaining, while benefiting 
the economies of rural communities in our watersheds.
    Returning to a balanced approach to forest management will take 
time and focus. In California, much of the forest product 
infrastructure that existed in our rural communities in the past has 
been consolidated into centrally located mills that have limited 
capacity, and often cannot process smaller logs. If we can begin to 
rebuild our forest management capacity, we believe there will be 
opportunities to rebuild sustainable forest product infrastructure in 
our rural communities in the form of biomass energy, fuel wood and fuel 
pellet, and milled lumber products. Working within the construct of a 
public and private partnership, the health of our rural communities and 
the health of our watersheds can be sustained in perpetuity.
    Water and hydropower utilities throughout the West have come 
together with private landowners and local governments to begin the 
conversation of returning our forests to a more sustainable condition. 
We believe that by applying the following principles to our publicly 
owned forest and rangelands, we can achieve a balanced result that will 
benefit our water supplies, our recreational opportunities, ecosystem 
health, and help to restore communities that rely on natural resources 
to power their economies.
Policy Principles
  <bullet> Current laws and regulations must be improved to reflect the 
        urgency of reducing fire risk in western forests and to 
        recognize that catastrophic wildfire is the greatest risk to 
        forest ecosystems and species, and to the water quality and 
        water supplies that originate from our headwaters.

  <bullet> Forest management tools as such forest thinning, biomass 
        management and controlled burns that reduce fuel loading, and 
        consequently, the risk of catastrophic wildfires should be 
        accelerated to the extent feasible. Federal laws and 
        regulations that slow or limit such efforts should be 
        reassessed to enable broad and active utilization of these 
        management tools.

  <bullet> Best available science should be continually applied to 
        forest management. New developments in landscape management 
        techniques that benefit water quality and water yield should be 
        integrated as pilot and demonstration projects in the ongoing 
        management of Federal lands.

  <bullet> It is imperative that the Congress provide adequate and 
        stable funding to the Department of the Interior and the 
        Department of Agriculture to support sustained development and 
        implementation of programs that improve the condition, trend 
        and resiliency of federally managed headwaters. Stability in 
        funding necessitates that the fighting of large, catastrophic 
        fires be funded from emergency management funds rather than 
        borrowed from regular agency operating budgets.

  <bullet> For catastrophic wildfire mitigation projects intended to 
        reduce the likelihood and severity of wildfire, National 
        Environmental Protection Act (NEPA) and Endangered Species Act 
        (ESA) compliance should weigh the long-term impacts to species 
        and ecosystems of catastrophic wildfire when analyzing any 
        short-term impacts of pre-fire mitigation actions.

  <bullet> For post-fire forest restoration actions, time is of the 
        essence to protect the natural and man-made infrastructure of 
        our watersheds. National Environmental Protection Act (NEPA) 
        and Endangered Species Act (ESA) compliance should be greatly 
        streamlined and weigh the overall long-term health of the 
        landscape against any short-term impacts of mitigation actions.

  <bullet> Litigation is often the cause of lengthy delays in pre-fire 
        mitigation and post-fire forest restoration projects. Given the 
        risks and impacts of a catastrophic wildfire, a higher standard 
        should be required to stop or delay projects in high-risk 
        watersheds. Congress should act to limit the scope, standing 
        and timelines associated with the filing of suits that delay 
        action on Federal lands.

  <bullet> Federal law and agency policies should allow local 
        stakeholders to partner with the Federal land managers to 
        pursue opportunities to conduct the planning and implementation 
        of fuels reduction and restoration projects on Federal lands.
Summary and Conclusion
    Land management in the West is at an important crossroad, and 
requires bold actions by Congress and compromise on the part of many 
stakeholders. As water and hydropower utilities that serve a growing 
population and are tenants and stewards of Federal lands, we have a 
vested interest in the success of headwaters management. The science of 
forest management has advanced greatly, and to put it simply, Federal, 
state and local land managers now know how to manage our forests better 
to achieve multiple ecosystem and societal needs in a balanced way. 
However, we require flexibility in Federal law and Federal agency rules 
and regulations to test, experiment and ultimately apply the best 
available science to forest management for the benefit of all. We hope 
that as Congress takes up the issue of Federal land management, you 
call upon us to help define the parameters of a successful future so 
that the next generation of Americans will continue to enjoy our forest 
and rangelands.
Contact Information
Mr. Andrew Fecko,
Director of Resource Development,
Placer County Water Agency.
                               attachment



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                          Submitted Questions
Response from Thomas L. Tidwell, Chief, U.S. Forest Service, U.S. 
        Department of Agriculture
Questions Submitted by Hon. Mike Bost, a Representative in Congress 
        from Illinois
    Question 1. I addressed this issue with you during the hearing, 
however, I would like to ask it again, Is the National Forest Service 
sure their involvement with the Kinkaid Lake Project has helped with 
limiting the silt run-off around Reed Creek on the northern end of the 
lake? Similarly, does the NFS also believe the several agencies and 
stakeholders involved with this project can limit the introduction of 
silt into the lake enough to restore the lake to its original depth 
through dredging it once and not having to come back in the future to 
dredge it again?
    Answer. Kinkaid Lake and its surrounding watershed are in need of 
restoration. To tackle such a large scale project requires a strong 
partnership effort. In March, the U.S. Forest Service and Natural 
Resources Conservation Service (NRCS) were the recipients of the Joint 
Chiefs' Landscape Restoration Partnership Award. Joining these two 
federal agencies is the Kinkaid Area Watershed Project Inc. (KAWP), 
Illinois Department of Natural Resources (IDNR), Kinkaid-Reed's Creek 
Conservancy District (KRCCD), Shawnee Resource Conservation and 
Development Area (RC&D), Jackson County Soil and Water Conservation 
District and the Environmental Protection Agency. All partners will 
join forces to implement time-tested conservation practices on the land 
surrounding Kinkaid Lake.
    Response: Kinkaid Lake and its surrounding watershed are in need of 
restoration. To tackle such a large scale project requires a strong 
partnership effort. In March, the U.S. Forest Service and Natural 
Resources Conservation Service (NRCS) were the recipients of the Joint 
Chiefs' Landscape Restoration Partnership Award. Joining these two 
federal agencies is the Kinkaid Area Watershed Project Inc. (KAWP), 
Illinois Department of Natural Resources (IDNR), Kinkaid-Reed's Creek 
Conservancy District (KRCCD), Shawnee Resource Conservation and 
Development Area (RC&D), Jackson County Soil and Water Conservation 
District and the Environmental Protection Agency. All partners will 
join forces to implement time-tested conservation practices on the land 
surrounding Kinkaid Lake.
    The total estimate for the Kinkaid Lake Watershed Restoration 
Project 3 year plan is just over $1 million. Implementation will begin 
this year, with NRCS contributing $145,000, the U.S. Forest Service 
$265,000 and local partner contributions of another $31,000. With these 
funds, the Federal agencies will support local efforts and work with 
surrounding land owners to improve water quality for the 2,350 acre 
lake that provides drinking water for about 30,000 people in southern 
Illinois. The primary water quality concerns include controlling 
phosphorus contributions from nonpoint sources like agriculture and 
reducing soil erosion and sedimentation into the lake.
    The Kinkaid Lake Watershed Restoration Project will involve active 
participation of all the partners in many different capacities. The 
Forest Service will focus on reducing sediment input and reducing the 
risk of wildfires in the watershed. NRCS will work one-on-one with 
local private landowners to provide science-based practices and both 
technical and financial support to voluntarily protect the land and 
offer sustainable resource management options.
    KRCCD will contribute staff time for much of the on the ground 
shoreline and gully stabilization conducted on National Forest System 
(NFS) lands. KAWP is a group that has been active for more than 15 
years and whose overall mission is to improve water quality in Kinkaid 
Lake. KAWP was instrumental in providing extensive sediment modeling 
used in pinpointing where the critical restoration is needed in the 
area. Now, with this federal funding, the data can be put to use.
    Though the Kinkaid Lake Watershed Restoration Project is a large 
undertaking, it will have great effects for thousands of residents over 
a large geographical area for years to come. Partners will get 
practices put in place and restoration efforts underway in the upcoming 
months.

    Question 2. Chief Tidwell, part of the Shawnee National Forest is 
in my district and it offers many opportunities for recreation, 
including horseback riding, hiking, camping, hunting, and fishing 
across Southern Illinois. However, it does not include the use of off-
road vehicles for recreation except under certain circumstances. I 
would like to know why the decision is left to the Forest Supervisor to 
determine whether or not to allow off road vehicles, not the Forest 
Service in general? And how can my constituents who would like to 
utilize the almost 700 miles of public trails in the Shawnee formally 
file a petition with the Forest Service for the inclusion of all off 
road vehicles regardless if they meet certain qualifications?
    Answer. The Travel Management Rule addresses the procedural 
framework for making motor vehicle use designations, rather than motor 
vehicle use designations themselves. Motor vehicle use designations are 
made at the local level, with appropriate public input and coordination 
with Federal, State, Tribal, and local governments based on the 
criteria in the final rule in compliance with the Executive Order 
11644. The same criteria are applied to designations for all motor 
vehicle use. Potential effects of motor vehicle use on non-motorized 
recreational use and natural resources are addressed in the procedural 
framework for motorized use designations in the final rule. The 
criteria for designation of roads, trails, and areas for motorized use 
in the final rule require the Responsible Official to consider, with 
the objective of minimizing, effects of motorized use on natural 
resources and conflicts between motorized use and existing or proposed 
recreational uses of NFS lands, including non-motorized recreational 
uses. In addition, the criteria for designation of routes and areas for 
motorized use require the Responsible Official to consider the 
compatibility of motorized use with existing conditions in populated 
areas, taking into account sound, emissions, and other factors of the 
final rule).
    The Department believes that National Forests and Grasslands should 
provide access for both motorized and non-motorized uses in a manner 
that is environmentally sustainable over the long term. The NFS is not 
reserved for the exclusive use of any one group, nor must every use be 
accommodated on every acre. It is entirely appropriate for different 
areas of the NFS to provide different opportunities for recreation. The 
Department believes that designations for motor vehicle use are best 
made at the local level, in coordination with Federal, State, Tribal, 
and local governments and with appropriate public input, as provided 
for in this final rule. The Forest Service encourages public 
involvement in local over snow vehicle decisions.

    Question 3. In your testimony, you mentioned the issues facing fire 
suppression funding. In the Shawnee, the Forest Service utilizes 
between 25-30 controlled burns a year allow for regrowth of plant life 
to help hold the very highly erodible soil in place and to keep it from 
being washed away into watersheds that empty directly into the Ohio and 
Mississippi Rivers. As the fire suppression budget is extinguished, the 
burden of fighting forest fires, primarily in the West, is shouldered 
by other National Forests in other parts of the country that need to 
use the funds for other Forest Service priorities. Given the 
ecological, environmental, and economical benefit the controlled burns 
have on Southern Illinois and its navigable waterways, can anything be 
done to address the budget freezes on a forest by forest basis?
    Answer. The President's FY 2016 budget includes a proposal to 
reform the way that wildfire suppression is funded. The 
Administration's proposal aligns with the Wildfire Disaster Funding Act 
introduced this Congress. The reforms contained in these proposals are 
necessary and vital to ensure the Forest Service and the Department of 
Interior (DOI) are able to continue to deliver the full scope of their 
missions. Since FY 2002, the Forest Service has transferred funds from 
non-fire accounts eight times. Transferring funds to cover the cost of 
wildfire suppression is disruptive and harmful to other critical Forest 
Service and DOI programs and services, including efforts to reduce 
wildfire risk through mechanical thinning, prescribed fires, and other 
means.
    Even in years when the Forest Service does not transfer funds from 
other programs the uncertainty created by the possibility of ``fire 
transfer'' means key projects, including those that contribute to 
forest health and hazardous fuels reduction, are put on hold in 
anticipation of a high wildfire activity year.

    Question 4. Would there be a time for the two of us to have a 
meeting to discuss Kinkaid Lake and the above addressed issues in the 
future?
    Answer. We are happy to work with your office to set a time for the 
Chief or his designee to answer any questions you might have regarding 
the management of the Shawnee National Forest.
Question Submitted by Hon. Michelle Lujan Grisham, a Representative in 
        Congress from New Mexico
    Question. Can you provide a list of partners and communities for 
best practices in collaboration and find the right balance of managing 
our forests with the right mix of benefits under multiple use and also 
still recognizing the need to remove biomass?
    Answer. The Burney Hat Creek Basins Collaborative Forest Landscape 
Restoration (CFLR) project in California demonstrates how building 
effective partnerships with community members can produce positive 
ecological and economic results. The project--part of the CFLR program 
which aims to restore high-priority landscapes to increase forest 
health and resiliency--is utilizing biomass to provide economic benefit 
to the local community and restore the landscape. Timber sales within 
the CFLR boundary are mostly processed in the local area with contracts 
that go to local workers. In addition to working with local industry, 
the project collaborative has also forged strong partnerships with the 
Pit River Tribe. The Tribe sees forest restoration as a way to create 
new forest-related enterprises geared towards transforming woody 
biomass into marketable products to promote employment while improving 
the health of their forested ancestral lands. Through these 
partnerships, the Burney Hat Creek Basins project has generated over 
46,000 green tons of biomass available for green energy and continues 
to work collaboratively to develop new approaches and ideas to reach 
their integrated objectives. In FY 2014 the project generated an 
estimated $17 million in labor income, in part from biomass utilization 
activities.
Burney Hat Creek Basin Partners (CA)

  <bullet> Burney Fire Department

  <bullet> Clearwater Lodge

  <bullet> Fall River Resource Conservation District

  <bullet> Franklin Logging

  <bullet> Fruit Growers Supply Company

  <bullet> Hat Creek Grown, LLC

  <bullet> Hat Creek Valley Fire Safe Council

  <bullet> Lassen Forest Preservation Group

  <bullet> Lassen Volcanic National Park

  <bullet> Pacific Gas and Electric Company

  <bullet> Pit River Tribe

  <bullet> Sierra Institute for Community and Environment Stewardship 
        Council

  <bullet> W.M. Beaty & Assoc., Inc.

  <bullet> Warner Enterprises, Inc.

    In FY 2014, the Payette National Forest sold two projects within 
the Weiser-Little Salmon CFLR boundary that achieved considerable 
community benefits. One of these was the East Fork Integrated Resource 
Timber Contract. This contract resulted from a collaborative project 
with the Payette Forest Coalition, a community group that includes 
diverse interests from the local forestry industry, soil and water 
conservation, wildlife interests, and recreationalists. As of November 
2014, the East Fork contract had generated 10,158 tons of biomass. This 
biomass goes to Tamarack Energy, a local cogeneration facility, to 
produce electricity. The Weiser-Little Salmon CFLR project works 
closely with the Woody Biomass Utilization Partnership, a public-
private partnership comprised of state and private experts focused on 
utilizing southwest Idaho forest resources to support local 
communities.
Weiser-Little Salmon (ID)
  <bullet> Adams County Commission

  <bullet> Adams County Natural Resource Committee

  <bullet> Backcountry Hunters and Anglers

  <bullet> Backcountry Recreation Club

  <bullet> Blue Ribbon Coalition

  <bullet> Cabin Creek Enterprises

  <bullet> Council School #13

  <bullet> Gem County Commissioners

  <bullet> Heartland Back Country Horsemen

  <bullet> Idaho Conservation League

  <bullet> Idaho Department of Commerce

  <bullet> Idaho Department of Lands

  <bullet> Idaho Fish and Game

  <bullet> Idaho Forest Group

  <bullet> Idaho State ATV Association, Inc.

  <bullet> Ikola Logging

  <bullet> Mahon Logging

  <bullet> Payette Land Trust

  <bullet> Payette River Green Energy

  <bullet> Rocky Mountain Elk Foundation

  <bullet> Sage Community Resources

  <bullet> Secesh Wildlands Coalition

  <bullet> Spatial Interest

  <bullet> The Nature Conservancy

  <bullet> The Wilderness Society

  <bullet> Trout Unlimited

  <bullet> Valley County Commission

  <bullet> West Central Highlands RC&D

  <bullet> West Central Sage-Grouse Working Group

  <bullet> Western Watersheds

  <bullet> Woody Biomass Utilization Partnership
Questions Submitted by Hon. Ann Kirkpatrick, a Representative in 
        Congress from Arizona
    Question 1. Chief Tidwell: In your testimony you cite this as one 
of the innovative approaches to completing environmental reviews more 
efficiently and effectively. I'm curious what was done differently in 
this EIS that was innovative and what the forest service leaned from 
the 4FRI EIS process, either things that went well or things that 
didn't go as well.
    As all of us in the West know, water is one of the most valuable 
products of our National Forests and there is a recognition that 
without urgent action the sustainability of our water resources is at 
risk.
    As part of the western watershed enhancement partnership, USDA, 
DOI, and a number of local communities and water providers have entered 
into a MOU to accelerate forest treatments to protect the C.C. Cragin 
watershed which is a critical water supply for the town of Payson, 
parts of northern Gila County in and near my district, and the Phoenix 
metro area.
    Yet despite the recognition of the importance of this project and 
additional financial and personnel resources being committed to the 
effort, we are still looking at 2 years--and potentially three fire 
seasons--before any work to reduce the fire risk can actually takes 
place on the ground.
    Answer. The Four Forests Restoration Initiative (4FRI) is the 
largest Forest Service landscape-scale restoration initiative at 2.4 
million acres. The first EIS for 4FRI analyzes a suite of restoration 
activities on almost 1 million acres as one site-specific project; the 
Forest Service typically completes 20 to 50 individual NEPA analyses 
for individual projects for an area this large. This approach saved 
time and money compared to the more traditional planning.
    The Forest Service increased transparency by providing the public 
early opportunities to preview the Draft and Final Environmental Impact 
Statements online, before notices of their availability were published 
in the Federal Register. Providing all this documentation early gave 
more time for review, saving time and helping to create better 
documents, and led to a better public and stakeholder understanding of 
this highly complex process.
    The 4FRI Stakeholders Group consists of members with diverse and 
varied values and opinions. The unprecedented level of stakeholder 
engagement, building on collaboration, research, and action efforts 
since the mid-1990s, has greatly contributed to the success of the 
first EIS. For example, the Stakeholders Group contributed to the 
Wildlife Report that supports the EIS; contributed to the development 
of a comprehensive Monitoring and Adaptive Management Framework; and 
worked with the 4FRI team, Regional Office personnel, and the Forest 
Service's Remote Sensing Application Center to develop a remote sensing 
tool that will help answer spatial distribution questions raised in the 
4FRI Monitoring Plan. This application is now available for any project 
nationwide.
    The objection process for the first 4FRI EIS was the first to 
solicit stakeholder group participation in objection resolution 
meetings, bringing forward the group's depth of engagement and the many 
previous discussions of best available science. Their participation was 
crucial to reaching agreements on objection issues and the overall 
success of the objection process.

    Question 1a. In your experience, what factors contribute to these 
kinds of delays that occur between identification of high priority, 
high risk areas and work beginning on the ground?
    Answer. We recognize the importance of landscape restoration and 
forest treatments, particularly when it involves the supply of water 
from the National Forest and possible impacts on water delivery 
infrastructure. The CC Cragin project, under the Western Watershed 
Enhancement Partnership, is a great example of this priority and 
urgency as you note. The partnership between DOI Bureau of Reclamation, 
Salt River Project, the City of Payson, the National Forest Foundation 
and the Forest Service on this project is off to a great start and has 
good momentum. In addition to bringing together effective partnerships, 
this project will also take advantage of authorities available to 
expedite planning, such as the Healthy Forest Restoration Act. While 
the surveying, data collection, and analyses necessary for effective 
project planning takes time, we have already completed planning efforts 
in the area and are in the process of ramping up for implementation of 
these projects. For example, there are about 2,400 acres of the East 
Clear Creek 4FRI phase 1 task order that is in the CC Cragin watershed 
that we expect treatment to begin this year. There are an additional 
1,500 acres of prescribed fire and about 1,000 acres of hand thinning 
that is in approved NEPA that can be also be implemented while the CC 
Cragin NEPA is completed for the entire watershed area. We will 
continue to work with partners to expedite effective planning in this 
important watershed, while implementing work on the ground from 
previous planning efforts.

    Question 2. There is a tremendous body of science and experience 
that shows what needs to be done to restore these forests--how do you 
think we can take advantage of the work that has been done and on-the-
ground knowledge of these forests, including the location of and risks 
to potential endangered species, to speed up this process?
    Answer. The Forest Service discusses the relevant science and our 
experience regarding restoration efforts through collaborative 
processes with our interested stakeholders and through public 
disclosure in the NEPA process. The Forest Service cooperates with our 
partner agency, U.S. Fish and Wildlife Service on addressing threats to 
endangered species, and through required consultation on restoration 
projects. Both agencies have taken recent steps to recognize the effect 
of uncharacteristic severe wildfire on endangered species and to 
increase awareness of scientific principles underlying forest 
restoration. For example, the 2012 Recovery Plan for Mexican Spotted 
Owl recognizes the increasing threat of catastrophic wildfire to this 
threatened species and many of the recommendations in that recovery 
plan are embodied in the treatments proposed in 4FRI. The Forest 
Service has also produced peer reviewed scientific publications to 
increase awareness and understanding of forest restoration principles 
in the Southwest, such as the report, ``Restoring Composition and 
Structure in Southwestern Frequent Fire Forests: A science based 
framework for improving ecosystem resiliency'' (RMRS GTR-310). The 
Forest Service intends to continue collaborative efforts with 
interested stakeholders on landscape scale projects to increase 
awareness and understanding of the principles behind our restoration 
efforts and to accelerate forest restoration efforts in the Southwest.

    Question 3. In these overgrown and unhealthy forests in the West, 
is catastrophic wildfire the greatest risk to endangered species and 
their habitat currently?
    Answer. In the Southwestern Region of the Forest Service, there are 
approximately 55 Threatened or Endangered species and 14 candidate 
species known to occur. In many ecosystems in western states, natural 
fire regimes have an important and beneficial role that could be 
beneficial or even necessary for some endangered species. However, 
uncharacteristically severe or catastrophic wildlfire can pose a 
serious threat to many of these species and their habitats. For example 
the 2012 Recovery Plan for Mexican Spotted Owl recognizes the 
increasing threat of catastrophic wildfire to this threatened species 
and much of the Region's restoration work provides a net benefit to 
this species by reducing risk of uncharacteristically severe or 
catastrophic wildlfire.
    The authorities provided in the 2014 Farm Bill significantly expand 
the tools that will support our ability to accomplish restoration work 
on the ground, such as permanent authorization for stewardship 
contracting and the Good Neighbor Authority. In addition, the insect 
and disease designations and modifications to the Healthy Forest 
Restoration Act included in the farm bill, will add to the NEPA and 
process efficiencies outlined above and further help accelerate the 
pace and scale of restoration. In addition, the NRCS delivers programs 
such as the Environmental Quality Incentives Program that works with 
families and individuals who own private forest land to carry out 
projects that reduce the risk of wildfire and improve wildlife habitat.

    Question 4. Based on your experience, how extensive is the 
understanding about the importance of forest thinning to protect our 
forests and watersheds? How can we better inform and educate 
communities, located both in the forests and those benefiting from them 
in terms of water or recreation, about the need for forest restoration 
and what that means?
    Answer. We have long offered high-quality interpretative 
experiences NFS lands that educate the public of the benefits of forest 
management through everything from informative displays at trailhead 
lodges to ranger-led hikes to community service days. On private forest 
lands, the agency works in cooperation with State forestry agencies to 
implement the Forest Stewardship program. In Fiscal Year 2014, we 
reached over 350,000 landowners with technical assistance, planning, 
and education on the importance of forest management, including 
thinning as a tool, as an important method to increase water quality 
and enhance recreational experiences on State and private lands.
    The Forest Service and their State partners work with communities 
to develop Community Wildfire Protection Plans to address the full 
scope of wildfire preparedness and response and include discussion of 
forest management techniques to mitigate fire risk through hazardous 
fuels reductions. Since 2002, the Forest Service has engaged in a 
cooperative agreement with The Nature Conservancy to support the Fire 
Learning Network (FLN), which plays a major role in helping promote 
appropriate and needed forest restoration practices that protect 
forests and promote healthy watershed management practices. In 2012 the 
Fire Adapted Communities (FAC) Learning Network was developed. A 
central aspect of the work of the FLN and FAC Network is communication 
and public outreach about fire, restoration, and the collaborative work 
being done in those landscapes. The FLN and FAC Network have always 
sought to increase public understanding and acceptance of appropriate 
forest management practices, especially around fire, to broaden 
scientific knowledge, and to foster the development and dissemination 
of best practices among practitioners and the public.
Response from Susan Swanson, Executive Director, Allegheny Hardwood 
        Utilization Group Inc.
Questions Submitted by Hon. Ann Kirkpatrick, a Representative in 
        Congress from Arizona
    Question 1. As all of us in the West know, water is one of the most 
valuable products of our National Forests and there is a recognition 
that without urgent action the sustainability of our water resources is 
at risk.
    As part of the western watershed enhancement partnership, USDA, 
DOI, and a number of local communities and water providers have entered 
into a MOU to accelerate forest treatments to protect the C.C. Cragin 
watershed which is a critical water supply for the town of Payson, 
parts of northern Gila County in and near my district, and the Phoenix 
metro area.
    Yet despite the recognition of the importance of this project and 
additional financial and personnel resources being committed to the 
effort, we are still looking at 2 years--and potentially three fire 
seasons--before any work to reduce the fire risk can actually takes 
place on the ground.
    In your experience, what factors contribute to these kinds of 
delays that occur between identification of high priority, high risk 
areas and work beginning on the ground?
    Answer. We consistently hear from the Forest Service that 
completing NEPA on projects is the biggest delay in getting projects 
ready for implementation or bidding. The Forest Service recently told 
the Senate Energy and Natural Resources Committee that it takes them 
over 37.2 months on average to complete an EIS, while it takes them 6 
months to complete a CE. Last year, the GAO noted that it took the 
Office of Surface Mining 2 days to complete CE's. These delays are 
somewhat self-imposed: The FS tends to either conduct full blown EIS's 
on relatively small projects (for instance, a 3,500 acre thinning 
project on the Lolo National Forest was analyzed by a full EIS), and 
decisions to pursue ``large landscape'' EIS's, like the Southwest Jemez 
project in New Mexico. This project was selected in 2010 as a 
Collaborative Forest Landscape Restoration Project, and has yet to 
complete NEPA. We are told that part of the hold up is consultation 
with the Fish and Wildlife Service over the presence of a listed 
species; however, during the interim, large, uncharacteristic wildfires 
have done far more damage to the watershed and the habitat.

    Question 2. There is a tremendous body of science and experience 
that shows what needs to be done to restore these forests--how do you 
think we can take advantage of the work that has been done and on-the-
ground knowledge of these forests, including the location of and risks 
to potential endangered species, to speed up this process?
    Answer. The 2014 Farm Bill included legislated categorical 
exclusions for certain types of projects. These CE's could be expanded 
to facilitate larger projects agreed to by collaboratives The Congress 
could direct that thinning projects agreed to be collaborative groups 
can be expanded to 15,000 acres, for instance. Also, you should note 
that the benefits of early successional forests in the Eastern U.S. is 
equally well documented; yet the Forest Service has struggled to meet 
the goals for this age class called for in current forest plans. 
Legislated CE's for these forest types could be added as well.

    Question 3. In these overgrown and unhealthy forests in the West, 
is catastrophic wildfire the greatest risk to endangered species and 
their habitat currently?
    Answer. Absolutely. In many western forests, the U.S. Fish and 
Wildlife Service has assumed that the best way to ``protect'' species 
is to create large ``set aside'' areas where no management takes place. 
However, since this ``large set aside'' strategy was adopted near the 
end of nearly a century of aggressive fire suppression and just at the 
onset of a period of prolonged drought, it has made these set aside 
areas very vulnerable to catastrophic, damaging fires which have been 
demonstrated to destroy nesting sites for listed birds and even to kill 
listed species.

    Question 4. Based on your experience, how extensive is the 
understanding about the importance of forest thinning to protect our 
forests and watersheds? How can we better inform and educate 
communities, located both in the forests and those benefiting from them 
in terms of water or recreation, about the need for forest restoration 
and what that means?
    Answer. People who live in forested communities frequently 
understand the risks from direct exposure to large fires. Fires at Los 
Alamos, Ruidoso, and other locales in New Mexico have shown folks the 
risks associated with unmanaged forests. The 2007 Angora Fire in the 
Lake Tahoe Basin similarly educated many people about the threats from 
unmanaged forests. However, for those in large cities, it will take 
efforts from water utilities and other public officials to consistently 
educate people that the best way to ``protect'' their watersheds is to 
manage their watersheds. The staggering costs associated with damages 
to the Denver area watersheds from large fires like the 2002 Hayman 
should be discussed at every opportunity.
Response from Rebecca A. Humphries, Chief Conservation Officer, 
        National Wild Turkey Federation
Questions Submitted by Hon. Ann Kirkpatrick, a Representative in 
        Congress from Arizona
    Question 1. As all of us in the West know, water is one of the most 
valuable products of our National Forests and there is a recognition 
that without urgent action the sustainability of our water resources is 
at risk.
    As part of the western watershed enhancement partnership, USDA, 
DOI, and a number of local communities and water providers have entered 
into a MOU to accelerate forest treatments to protect the C.C. Cragin 
watershed which is a critical water supply for the town of Payson, 
parts of northern Gila County in and near my district, and the Phoenix 
metro area.
    Yet despite the recognition of the importance of this project and 
additional financial and personnel resources being committed to the 
effort, we are still looking at 2 years--and potentially three fire 
seasons--before any work to reduce the fire risk can actually takes 
place on the ground.
    In your experience, what factors contribute to these kinds of 
delays that occur between identification of high priority, high risk 
areas and work beginning on the ground?
    Answer. The delays highlighted in this example are unfortunately 
not uncommon. Such delays present a major barrier to proactively 
addressing the challenges of forest restoration and watershed health. 
From my experience, the following factors play a major role in delaying 
necessary restoration and management activities:

  b Time-consuming NEPA assessments/requirements.

  b Post-decision litigation and/or fear of potential litigation.

  b Limited staff capacity and financial resources to implement work.

    Question 2. There is a tremendous body of science and experience 
that shows what needs to be done to restore these forests--how do you 
think we can take advantage of the work that has been done and on-the-
ground knowledge of these forests, including the location of and risks 
to potential endangered species, to speed up this process?
    Answer. There is a wealth of science and on-the-ground experience/
knowledge that needs to be leveraged in order to speed up the process 
to restore our forests and watersheds so that we can get ahead-of-the-
curve. Several examples come to mind:

  b Continue to build and utilize broad collaboratives on the front-end 
        of projects in order to bring together diverse groups and 
        knowledge, and reduce the likelihood of future litigation.

  b Harness the power of collaboratives to garner additional staff/
        funding support for implementation of projects.

  b Expand the use of categorical exclusions for restoration work, 
        especially for routine management activities with known 
        impacts.

  b Capitalize on existing ways to simplify/streamline NEPA assessments

  b Consider the detrimental effects/risks of a non-management decision 
        to help garner support for appropriate management/restoration.

    Question 3. In these overgrown and unhealthy forests in the West, 
is catastrophic wildfire the greatest risk to endangered species and 
their habitat currently?
    Answer. Catastrophic wildfires, and the impact that such fires are 
having on endangered species is certainly a pressing issue that we 
should be addressing, both from a post-fire mitigation and a pre-fire 
risk reduction standpoint. However catastrophic wildfires are often the 
result of long term lack of active management.
    The unhealthy forest conditions resulting from a lack of active 
management are a tremendous threat to wildlife as well. We know that in 
many areas those species that depend on young forest habitat are among 
the most imperiled species. Restoring the resiliency and health of our 
forests is a high priority for the National Wild Turkey Federation, as 
this is an issue that will affect all wildlife species, as well as 
human life/property, rural economies, etc.

    Question 4. Based on your experience, how extensive is the 
understanding about the importance of forest thinning to protect our 
forests and watersheds? How can we better inform and educate 
communities, located both in the forests and those benefiting from them 
in terms of water or recreation, about the need for forest restoration 
and what that means?
    Answer. Unfortunately the general public has a very limited 
understanding/awareness of the importance and connection of forest 
thinning in order to protect and restore the health of our forest and 
watersheds. Natural resource professionals who have studied and/or 
directly observed the effects of responsible forest management 
understand this connection, but a greater emphasis on public outreach 
and education in this arena is needed.
    This is going to be a long and challenging effort. A few ideas come 
to mind:

  b There are numerous organizations discussing and exploring ways to 
        better educate the public, public policy makers, and corporate 
        leadership of the need to focus on watershed, landscape-based 
        management. Wherever possible, overlapping efforts can and 
        should be coordinated so as to maximize impact and reduce 
        redundancy and the potential for mixed-messaging to the public.

  b We should look to organizations who are thinking long-term and 
        broad-scale as models. For example, the National Wild Turkey 
        Federation has identified 87 Focal Landscapes across the nation 
        for focused conservation work. These Focal Landscapes are based 
        on watersheds. A prioritized approach like this will be needed 
        in order to target and effectively impact the imperiled 
        watersheds and forests.

  b In some cases, management activities aimed at protecting and 
        restoring watersheds have been too limited in scale to have a 
        landscape-level impact. We need to be realistic with the level 
        of management that is needed if we are serious about having 
        long-term impacts.

  b We must reach out to ``unlikely'' or innovative partners, as is the 
        case with this example in Arizona, to help accomplish 
        restoration projects and in order to educate the public about 
        the need for such activities.

  b We need to redouble our efforts to financially link the ecosystem 
        benefits, such as abundant supplies of clean water, to forest 
        management and healthy forests. This linkage needs to be made 
        prior to severe drought and water shortages, though such 
        situations provide clear examples upon which to build 
        elsewhere.
Response from Laura Falk McCarthy, Director of Conservation Programs, 
        The Nature Conservancy
Questions Submitted by Hon. Ann Kirkpatrick, a Representative in 
        Congress from Arizona
    Question 1. As all of us in the West know, water is one of the most 
valuable products of our National Forests and there is a recognition 
that without urgent action the sustainability of our water resources is 
at risk.
    As part of the western watershed enhancement partnership, USDA, 
DOI, and a number of local communities and water providers have entered 
into a MOU to accelerate forest treatments to protect the C.C. Cragin 
watershed which is a critical water supply for the town of Payson, 
parts of northern Gila County in and near my district, and the Phoenix 
metro area.
    Yet despite the recognition of the importance of this project and 
additional financial and personnel resources being committed to the 
effort, we are still looking at 2 years--and potentially three fire 
seasons--before any work to reduce the fire risk can actually takes 
place on the ground.
    In your experience, what factors contribute to these kinds of 
delays that occur between identification of high priority, high risk 
areas and work beginning on the ground?
    Answer. One of the central challenges to large-scale forest 
restoration is the time it takes to implement, and the constant 
emergence of new priorities that could divert funding and attention to 
other places. We have a growing understanding that partnerships are 
necessary to scale up restoration, but we do not have the coordination 
mechanisms in place to ensure transparent priority setting and follow 
through. One idea we are working on in New Mexico with Federal, state, 
local and Tribal partners is a priority setting and funding process 
that provides for coordination and leverage among ownerships to achieve 
a large scale of impact.
    An additional challenge is to make long-term investments in project 
areas that have strong collaboration and social approval, and to 
consider these long-term investments in agency budgeting. One solution 
is for budget allocations to be influenced and incentivizing by the 
presence of partnerships--especially partnerships proposing high 
priority work and offering to provide non-Federal assistance of some 
sort, such as money and expertise. In New Mexico we are working on 
``co-investment'' by agencies and partners in large scale restoration. 
This will improve the Federal return on investment. That is, co-
investments in projects will actually reduce other future Federal 
outlays, and also have many co-benefits.

    Question 2. There is a tremendous body of science and experience 
that shows what needs to be done to restore these forests--how do you 
think we can take advantage of the work that has been done and on-the-
ground knowledge of these forests, including the location of and risks 
to potential endangered species, to speed up this process?
    Answer. I work in one of the regions of the U.S. that has more than 
70 years of study of ecology and forest management, and the scientific 
agreement on problems and solutions has created the social license for 
NEPA to be completed quickly. Lately I have seen modest size NEPA--
10,000 acre units--on the Cibola National Forest completed in 6-9 
months.
    In these situations, EA's that allow for a variety of on the ground 
actions can speed up projects, as would CEs for projects that are shown 
to be routine, and projects that are known to have results that are not 
harmful.
    Things take longer when impacts on endangered species that are not 
well studied come into play. One of our larger projects (SW Jemez on 
the Santa Fe National Forest) calls for restoring habitat where the 
Jemez Mountain Salamander lives. There's a bit of a Catch-22 in this 
example (which is the topic of the next question). The extreme fire 
behavior is the No. 1 threat to the occupied habitat, but we don't know 
how the treatments to reduce the risk of mega-fire will affect the 
species. We put together a study group for that species and with the 
Fish and Wildlife Service, we proposed an adaptive management approach 
to restoring habitat that we think will allow the project to go 
forward. This is how the process is supposed to work--``go fast'' where 
the impacts are less and ``look before you leap'' where greater impacts 
are expected.

    Question 3. In these overgrown and unhealthy forests in the West, 
is catastrophic wildfire the greatest risk to endangered species and 
their habitat currently?
    Answer. Recent biological opinions by the Fish and Wildlife Service 
that I have seen for the Southwest have identified catastrophic 
wildfire as a significant risk to species and their habitat. See 
example above of the Jemez Mountain Salamander. However, the salamander 
example only applies to Southwestern frequent-fire ecosystems, and a 
broad generalization of this example to other forest types would not be 
appropriate.
    In all cases, forest managers should weigh the potential danger to 
threatened and endangered species from fire and also from treatments. 
Adaptive management and learning from treatments is necessary, and the 
study group described above is a good example of a way to help with 
that, so that active management is not prohibited due to lack of 
information, and the agencies that regulate endangered species are part 
of the learning process with partners.

    Question 4. Based on your experience, how extensive is the 
understanding about the importance of forest thinning to protect our 
forests and watersheds? How can we better inform and educate 
communities, located both in the forests and those benefiting from them 
in terms of water or recreation, about the need for forest restoration 
and what that means?
    Answer. Federal and state programs that provide for community 
engagement and help with local capacity to get involved can be very 
important to build understanding and acceptance of the need to live 
with fire and manage fire-adapted forests. State Fire Assistance is one 
such program, as is the Federal agency funding that supports Community 
Wildfire Protection Planning. Many of the CWPP have recommendations for 
local government actions, and a new grants program to build help local 
government put those recommendations into place could be very helpful. 
Another beneficial program is the Fire Adapted Communities Network that 
has grown out of the National Wildfire Management Cohesive Strategy. 
This network has many hubs across the nation and is using a peer-
learning model to accelerate understanding and action at the local 
level.
    In New Mexico, my experience is that these and other programs have 
contributed to a high level of awareness of the need for active 
management to restore forests and watersheds. The University of New 
Mexico, Economics Department, conducted a willingness to pay survey of 
Albuquerque water users in 2014, asking them how much they would be 
willing to pay for restoration of a forested area that is far removed 
from the city, and that supplies their water. More than 80% of the 
respondents said they would be willing to pay between $0.35 and $2.00 
per month. This reflects a strong understanding of the need, and I 
would credit the state and Federal fire management agencies for their 
good public information campaigns and the media for good coverage of 
fire events that stresses what homeowners can do. The communication 
challenges are greater in areas where forest properties are held by 
out-of-state owners and I don't think we have figured out how to reach 
those owners effectively.

                                  [all]
</pre></body></html>
